<html>
<title> - STAYING A STEP AHEAD: FIGHTING BACK AGAINST SCAMS USED TO DEFRAUD AMERICANS</title>
<body><pre>[Senate Hearing 115-139]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-139

   STAYING A STEP AHEAD: FIGHTING BACK AGAINST SCAMS USED TO DEFRAUD 
                               AMERICANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON CONSUMER PROTECTION,
                       PRODUCT SAFETY, INSURANCE,
                           AND DATA SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-381 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

  SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, INSURANCE, AND 
                             DATA SECURITY

JERRY MORAN, Kansas, Chairman        RICHARD BLUMENTHAL, Connecticut, 
ROY BLUNT, Missouri                      Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 21, 2017...................................     1
Statement of Senator Moran.......................................     1
Statement of Senator Blumenthal..................................     2
Statement of Senator Thune.......................................    26
Statement of Senator Inhofe......................................    28
Statement of Senator Udall.......................................    30
Statement of Senator Cortez Masto................................    32
Statement of Senator Hassan......................................    34
Statement of Senator Klobuchar...................................    36
Statement of Senator Markey......................................    38

                               Witnesses

Hon. Maureen K. Ohlhausen, Acting Chairman, Federal Trade 
  Commission.....................................................     5
    Prepared statement...........................................     6
Hon. Terrell McSweeny, Commissioner, Federal Trade Commission....     7
    Prepared statement...........................................     9
Hon. Mike DeWine, Ohio Attorney General..........................    10
    Prepared statement...........................................    12
Frank Abagnale, Author and Consultant, Abagnale & Associates.....    15
    Prepared statement...........................................    17
Mike Schwanke, Reporter, KWCH-12 Eyewitness News.................    18
    Prepared statement...........................................    20

                                Appendix

Letter dated March 17, 2017 to Hon. Deb Fischer from Scott 
  Merritt, Executive Director, Nebraska Hotel & Lodging 
  Association....................................................    47
Response to written questions submitted to Hon. Maureen K. 
  Ohlhausen by:
    Hon. John Thune..............................................    51
    Hon. Deb Fischer.............................................    56
    Hon. Jerry Moran.............................................    57
    Hon. Dean Heller.............................................    61
    Hon. Todd Young..............................................    62
    Hon. Bill Nelson.............................................    63
    Hon. Richard Blumenthal......................................    64
    Hon. Amy Klobuchar...........................................    66
Response to written questions submitted to Hon. Terrell McSweeny 
  by:
    Hon. Jerry Moran.............................................    67
    Hon. Dean Heller.............................................    69
    Hon. Todd Young..............................................    70
    Hon. Bill Nelson.............................................    70
    Hon. Richard Blumenthal......................................    70
Response to written questions submitted to Hon. Mike DeWine by:
    Hon. John Thune..............................................    72
    Hon. Jerry Moran.............................................    72
    Hon. Todd Young..............................................    72
    Hon. Bill Nelson.............................................    73
    Hon. Richard Blumenthal......................................    73
Response to written questions submitted to Frank W. Abagnale, Jr. 
  by:
    Hon. Bill Nelson.............................................    73
    Hon. Richard Blumenthal......................................    74
Response to written question submitted by Hon. Richard Blumenthal 
  to:
    Mike Schwanke................................................    75

 
                  STAYING A STEP AHEAD: FIGHTING BACK
                AGAINST SCAMS USED TO DEFRAUD AMERICANS

                              ----------                              


                        TUESDAY, MARCH 21, 2017

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
              Safety, Insurance, and Data Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
Room SR-253, Russell Senate Office Building, Hon. Jerry Moran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Moran [presiding], Blumenthal, Inhofe, 
Young, Klobuchar, Markey, Booker, Udall, Hassan, Cortez Masto, 
and Thune.

            OPENING STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    The Chairman. The committee will come to order. Good 
afternoon, and welcome to our first hearing of this 
Subcommittee on Consumer Protection, Product Safety, Insurance, 
and Data Security, in this new Congress. I'm pleased that 
Ranking Member Blumenthal is here today. He has an especially 
busy schedule as a member of the Senate Judiciary Committee. 
And I look forward to working with him not only on this 
hearing, but throughout this Congress, as we try to address 
issues that are facing consumers and overseeing the work of the 
Federal consumer protection agencies that fall within this 
subcommittee's jurisdiction.
    I am convening this hearing to discuss scams affecting 
American consumers. In the Commerce Committee, we often debate, 
and sometimes differ on, the proper role of government, the 
appropriate level of regulation, and the best way to protect 
the public without imposing unnecessary burdens on the private 
sector that would stifle their contribution to the economy.
    Today, however, the issue before the Committee is one on 
which there is broad consensus. Consumers need protection from 
those who seek to defraud them through scams, and the Federal 
Government must do everything it can to protect consumers from 
truly bad actors. American citizens are scammed out of billions 
upon billions of dollars every year with zero corresponding 
benefit to our Nation's economy. With technology becoming more 
sophisticated, so also has the complexity of scams continued to 
make this circumstance even more difficult. From fake charity 
donation solicitations calls, to phishing e-mail scams that 
lead to identity theft, a wide variety of scams that unduly 
harm Americans continue to bypass consumer protection 
enforcement measures at the Federal, state, and local levels.
    To that end, this committee oversees the Federal Trade 
Commission, and I am pleased that we are joined today by Acting 
Chairman Ohlhausen and Commissioner McSweeny, who together 
constitute the current FTC in its entirety.
    However, with all due respect to Chairman Ohlhausen and 
Commissioner McSweeny, I believe it's important that the 
President act swiftly to restore the Commission to its full 
strength. The FTC's work in support of consumers and 
competition is too important for an agency to continue 
operating shorthanded in weeks and months ahead.
    I would also like to extend a welcome to our former 
colleague, Ohio Attorney General Mike DeWine, Frank Abagnale, 
and Mr. Mike Schwanke. All three will provide unique 
perspectives today reflecting ways government protects citizens 
through fraud prevention, the perspectives of scam victims, and 
the mentality and common tactics of the scammers themselves.
    This is a wonderful witness panel for today's hearing, 
which I hope will have a meaningful impact to raise awareness 
about this important issue, educate consumers about particular 
scams to watch for, and prevent future scams from continuing to 
harm consumers acting as a significant drag on our economy and 
all the personal challenges a scam creates.
    Thank you all for being here. And I turn now to the Ranking 
Member for his opening statement.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. I join the Chairman in thanking you for 
being here. It is a great panel. And I want to thank the 
Chairman for holding this important hearing so that we and the 
consumers of America can stay one step ahead of scams, which 
have become so ubiquitous and threatening in our modern, 
technologically-driven life.
    Scams are a real hardship for individuals, but they're also 
a scourge on our economy, unfairly victimizing consumers, 
compromising our trust in the marketplace, and siphoning 
millions of dollars from individuals and legitimate, honest 
businesses--not just individual consumers, but also businesses 
who suffer as a result of scams. In fact, the FTC has secured 
$14 billion in consumer relief since Fiscal Year 2014 alone.
    I am pleased that our former colleague, as Attorney 
General, Mr. DeWine is here with us, and that I am joined by 
two former Attorneys General on the panel today. And we know 
how pervasive these frauds are, not just the classic wire fraud 
schemes, but also the telephone technician scams targeting 
small and medium-sized businesses.
    The type of scheme is as endless as the human imagination 
and often as frustrating as a Whack-A-Mole game; you shut one 
scam down and dozens more arise. That's why informed consumers 
are one of the most powerful tools we have, because the best 
prevention is consumer education and care and self-protection. 
But we also need swifter enforcement, and severe and 
appropriate punishment, to effectively deter bad actors and to 
ensure that any company complicit in a scam doesn't simply 
write off a fine or a government lawsuit as the cost of doing 
business. My hope is that we will talk about stronger 
punishments against individuals so as to deter these scams and 
close some of the gaping holes in our present law.
    First, we ought to make sure that we're pursuing 
enforcement actions against any and all aiders and abettors of 
fraud. Search engines, social media sites, and online 
generators ought to be on notice that they have a duty to 
implement checks to make sure that they are not complicit in 
connecting consumers to illegitimate businesses intent on 
fleecing people's pocketbooks.
    Second, the FTC is currently limited in its ability to 
pursue cases against nonprofits. Considering that the nonprofit 
sector is estimated to account for 5 percent of the Nation's 
GDP and 10 percent of the private sector workforce, there is 
also the vulnerability to fraud on the nonprofit side, and 
we've seen it occur in this sector.
    Third, in order to more effectively deter unlawful schemes, 
we ought to strengthen the FTC's ability to seek civil 
penalties on first violations of Section 5.
    And fourth, the FTC shouldn't just go after bad guys once 
they've already left a slew of victims in their wake; the FTC 
also ought to have the ability to set rules in appropriate 
circumstances that stop the bad behavior in the first place 
before consumers are harmed.
    Finally, there is no denying, no getting around the fact, 
that the hiring freeze has had consequences for the FTC, in 
effect inhibiting its ability to effectively crack down on 
fraud and protect consumers. And the recent actions, including 
the budget proposal that cuts government spending on 
enforcement efforts, can only have further bad consequences.
    I would also like to say a word about how Congress is on 
the verge of using the Congressional Review Act to rescind the 
Federal Communication Commission's broadband privacy rules. 
Republican colleagues say they want to transfer privacy 
oversight of broadband back to the FTC, but the FTC doesn't 
have jurisdiction over security and privacy practice of 
broadband, cable, and wireless carriers in their capacity as 
common carriers.
    And if the Ninth Circuit's recent decision on FTC v. AT&T 
adopting a status-based instead of activity-based 
interpretation of the FTC's common carrier exemption is upheld, 
the FTC's jurisdiction and ability to improve privacy and 
security obligations would be even further curtailed. The 
elimination of the FCC's rules would result in a yawning chasm 
where broadband and cable companies have no discernable 
regulation. That outcome would be devastating for consumers.
    My hope is that this committee, like the FTC, can continue 
working on a bipartisan basis, and I look forward to passing 
legislation like the Better Online Ticket Sales Act and the 
Consumer Freedom Review Act, as we did in the 114th Congress, 
that give the FTC additional authority to protect consumers. 
Thank you all for being here today.
    The Chairman. Senator, thank you very much. We welcome our 
panel of witnesses and thank them for their testimony. Our 
witnesses are the Honorable Maureen K. Ohlhausen, Acting 
Chairman of the Federal Trade Commission; the Honorable Terrell 
McSweeny, Commissioner of the Federal Trade Commission; the 
Honorable Mike DeWine, Attorney General of the State of Ohio; 
and I would turn to the gentleman from Oklahoma to introduce 
someone he claims is an Oklahoman.
    [Laughter.]
    The Chairman. But do ask him where his children went; to 
what university.
    [Laughter.]
    Senator Inhofe. Well, they couldn't help that they couldn't 
get in.
    [Laughter.]
    Senator Inhofe. Well, I'm just delighted to have Frank 
Abagnale here. And I'm very, very proud that he did raise a 
family in Oklahoma, and I see him on the plane all the time 
going back and forth. And I'm anxious to ask you the first 
question, but I won't do that until it's my turn.
    Mr. Abagnale, thank you for accepting the invitation to 
testimony before the Committee on the subject of fighting back 
against scams used to defraud Americans. Your perspective, as 
your life history, is unique among the witnesses. After your 
teenage years, you were made notorious by the movie ``Catch Me 
If You Can,'' which I just saw, and I'm just really excited 
about that. I know you in a different way than I have in the 
past. But, anyway, we're looking forward to your unique 
perspective that we'll enjoy very much.
    For over 40 years, financial institutions, corporations, 
and government agencies, including the Federal Bureau of 
Investigation, have benefited from your expertise in fraud-
related crime. Because of you, countless Americans are better 
protected from scams because of their education and heightened 
awareness that you provide. The FBI has more than a generation 
of agents taught to detect, track, and solve fraud-related 
crimes against Americans. In recognition of fraud that is 
happening more and more online, you became AARP's Fraud Watch 
Network Ambassador to educate consumers about the way to 
protect themselves from identity, and I think you had one just 
the other day in Oklahoma, such a meeting.
    So we look forward to your testimony this afternoon as we 
explore the challenges to educating and protecting Americans 
from fraud as well as the steps we can take to educate and 
empower those fighting against it. Welcome to you.
    Mr. Abagnale. Thank you, Senator.
    The Chairman. I'm not as constrained as the Senator from 
Oklahoma is. Your children went to what university?
    Mr. Abagnale. I have two sons who graduated from KU.
    The Chairman. Thank you. Our final witness on this panel is 
Mr. Mike Schwanke, of KWCH, the CBS affiliate in Wichita, 
Kansas, an investigative reporter.
    Let us begin with the testimony of the Chairwoman, and 
we'll work our way to my right, to her left.
    Welcome.

            STATEMENT OF HON. MAUREEN K. OHLHAUSEN, 
           ACTING CHAIRMAN, FEDERAL TRADE COMMISSION

    Commissioner Ohlhausen. Thank you. Chairman Moran, Ranking 
Member Blumenthal, and members of the Subcommittee, I am 
pleased to appear before you today alongside my colleague, 
Commissioner Terrell McSweeny, and the other panelists to 
discuss the importance of combating consumer fraud.
    Protecting American consumers involves several factors, 
including market forces, private rights, and public law 
enforcement. The first factor is a competitive marketplace in 
which consumers have adequate information and a variety of 
choices. In these circumstances, most companies will care about 
their reputation and their ability to attract repeat customers. 
Companies therefore have incentives to be honest and keep the 
promises they make to consumers or else lose out to their 
competitors.
    The second factor is private legal rights as well as 
effective mechanisms to enforce those rights. The ability of 
consumers to bring legal action to enforce their rights in the 
face of, for example, a breach of contract is an important 
protection for consumers.
    The third factor is public law enforcement by the FTC, 
state attorneys general, and other entities. This is necessary 
in instances when a competitive marketplace and private 
litigation are not enough to protect consumers. A prime example 
of this is the subject of today's hearing, consumer fraud. A 
fraudster is often immune to market forces because it doesn't 
care about its reputation or attracting repeat customers. In 
addition, fraudsters will typically take steps to avoid 
detection of their scams or to dissipate assets, making it 
difficult for consumers to vindicate their rights in the court 
system.
    Many consumers are thus left without a viable recourse 
against fraudulent practices. In these circumstances, the FTC, 
as the Nation's primary consumer protection agency, must step 
in. And as Acting Chairman, I've instructed Commission staff to 
focus our law enforcement efforts on stopping fraudulent 
practices, particularly those that are causing the largest 
consumer harm. In doing so, we'll ensure that the Commission is 
using its resources for the maximum benefit of consumers.
    And I would like to touch briefly today on two populations 
in particular, military consumers and small businesses.
    Military consumers are an attractive target for fraudsters. 
They receive a regular paycheck, change addresses frequently, 
and belong to a close-knit community. In Calendar Year 2016, 
the FTC's Consumer Sentinel Network database received over 
103,000 complaints from military and veteran consumers, the 
vast majority of which were about imposter scams, identity 
theft, and other frauds. Protecting those consumers who are 
protecting our country is of paramount importance, but clearly 
there is still work yet to do.
    Small businesses are also attractive targets for fraud. The 
Better Business Bureau reports that thousands of small 
businesses are the targets of scams each year. Fraudsters often 
take advantage of the fact that small businesses lack a 
sophisticated recordkeeping system and thus are more 
susceptible to fake invoices, phishing attacks, and marketing 
scams. Frauds targeting small businesses, many of which are 
scrambling just to make ends meet, can have a stifling effect 
on innovation and competition in the marketplace.
    The Commission also actively works to help consumers 
recognize frauds before they fall victim. The Commission 
produces websites, brochures, and other materials to educate 
the public on common scams and how to avoid them. Often these 
materials are geared toward frequently targeted groups, such as 
seniors, Spanish speakers, and the two groups I mentioned, 
military consumers and small businesses.
    For example, we have a website, Military.Consumer.gov, 
devoted to educating military consumers about fraud issues. And 
I've also directed Commission staff to create a webpage for 
small businesses on which we will provide a one-stop shop for 
all of our guidance to small business on how to avoid scams. 
And I invite the Subcommittee to consider linking to our 
materials for the benefit of your constituents.
    Now, I'm proud of the work the FTC has done to combat 
fraud, but we can't become complacent or distracted from that 
core mission. Fraudsters are always thinking up new scams, and 
the Commission must be and will be at the forefront of 
protecting American consumers.
    So thank you for your time, and I look forward to the 
discussion.
    [The prepared statement of Ms. Ohlhausen follows:]

   Prepared Statement of Hon. Maureen K. Ohlausen, Acting Chairman, 
                        Federal Trade Commission
    Chairman Moran, Ranking Member Blumenthal, and members of the 
Subcommittee. I am pleased to appear before you today alongside my 
colleague Commissioner Terrell McSweeny and the other panelists to 
discuss the importance of combatting consumer fraud.
    Protecting America's consumers involves several factors, including 
market forces, private rights, and public law enforcement.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., Timothy J. Muris, Chairman, Fed. Trade Comm'n, The 
Federal Trade Commission and the Future Development of the U.S. 
Consumer Protection Policy (Aug. 19, 2003), https://www.ftc.gov/public-
statements/2003/08/federal-trade-commission-and-future-development-us-
consumer-protection.
---------------------------------------------------------------------------
    The first factor is a competitive marketplace in which consumers 
have adequate information and a variety of choices. In these 
circumstances, most companies will care about their reputation and 
their ability to attract repeat customers. Companies will therefore 
have incentives to be honest and keep the promises they make to 
consumers or else lose out to their competitors.
    The second factor is private legal rights, as well as effective 
mechanisms to enforce those rights. The ability of consumers to bring 
legal action to enforce their rights in the face of, for example, a 
breach of contract is an important protection for consumers.
    The third factor is public law enforcement by the FTC, state 
Attorneys General, and other entities. This is necessary in instances 
when a competitive marketplace and private litigation are not enough to 
protect consumers. A prime example of this is the subject of today's 
hearing: consumer fraud. A fraudster is often immune to market forces 
because it does not care about its reputation or attracting repeat 
customers. In addition, fraudsters will typically take steps to avoid 
detection of their scams or to dissipate assets making it difficult for 
consumers to vindicate their rights in the court system.
    Many consumers are thus left without a viable recourse against 
fraudulent practices. In these circumstances, the FTC, as the Nation's 
primary consumer protection agency, must step in. As Acting Chairman, I 
have instructed Commission staff to focus our law enforcement efforts 
on stopping fraudulent practices, particularly those that are causing 
the largest consumer harm. Doing so will ensure that the Commission is 
using its resources for the maximum benefit of consumers.
    I would like to touch briefly today on two populations in 
particular: military consumers and small businesses.
    Military consumers are an attractive target for fraudsters. They 
receive a regular paycheck, change addresses frequently, and belong to 
a close-knit community.\2\ In calendar year 2016, the FTC's Consumer 
Sentinel Network database received over 103,000 complaints from 
military and veteran consumers, the vast majority of which were about 
imposter scams, identity theft, and other frauds.\3\ Protecting those 
consumers who are protecting our country is of paramount importance, 
but clearly there is still work yet to do.
---------------------------------------------------------------------------
    \2\ See Major Cindie Blair, Solutions for Victims of Identity 
Theft: A Guide for Judge Advocates to Assist Servicemembers in 
Deterring, Detecting, and Defending Against this Growing Epidemic, 
2011-JUN Army Law. 24, 26-29 (2011).
    \3\ Fed. Trade Comm'n, Consumer Sentinel Network Report (2016), 
https://www.ftc.gov/enforcement/consumer-sentinel-network/reports.
---------------------------------------------------------------------------
    Small businesses are also attractive targets for fraud. The Better 
Business Bureau reports that thousands of small businesses are the 
targets of scams each year.\4\ Fraudsters often take advantage of the 
fact that many small businesses lack a sophisticated recordkeeping 
system and are thus more susceptible to fake invoices, phishing 
attacks, and marketing scams.\5\ Frauds targeting small businesses, 
many of which are scrambling just to make ends meet, can have a 
stifling effect on innovation and competition in the marketplace.
---------------------------------------------------------------------------
    \4\ Better Business Bureau, Scams that Target Small Businesses 
(2017), http://www.bbb.org/wisconsin/news-events/news-releases/2017/01/
scams-that-target-small-businesses.
    \5\ See id.; see also Fed. Trade Comm'n, Small Business Scams, 
https://www.ftc.gov/tips-advice/business-center/guidance/small-
business-scams.
---------------------------------------------------------------------------
    The Commission also actively works to help consumers recognize 
frauds before they fall victim. The Commission produces websites, 
brochures, and other materials to educate the public on common scams 
and how to avoid them. Often, these materials are geared towards 
frequently targeted groups, such as seniors, Spanish-speakers, and the 
two groups I mentioned: military consumers and small businesses. For 
example, we have a website, military.consumer.gov, devoted to educating 
military consumers about consumer fraud issues. I have also directed 
Commission staff to create a webpage for small businesses on which we 
will provide a one-stop shop for all of our guidance to small 
businesses on how to avoid scams. I invite the Subcommittee to consider 
linking to our materials for the benefit of your constituents.
    I am proud of the work the FTC has done to combat fraud, but we 
cannot become complacent or distracted from that core mission. 
Fraudsters are always thinking up new scams, and the Commission must be 
and will be at the forefront of protecting America's consumers. Thank 
you and I look forward to your questions.

    The Chairman. Commissioner.

STATEMENT OF HON. TERRELL McSWEENY, COMMISSIONER, FEDERAL TRADE 
                           COMMISSION

    Ms. McSweeny. Thank you very much. Thank you, Mr. Chairman 
Moran, Ranking Member Blumenthal, and Senators, for holding 
this important hearing and your attention to this important set 
of issues. I'm Terrell McSweeny, and along with my colleague, 
Acting Chairman Ohlhausen, we are the current members of the 
U.S. Federal Trade Commission.
    The work of protecting American consumers from frauds and 
scams is bipartisan, and, in fact, I would go so far as to say 
it is nonpartisan. I would like to commend Acting Chairman 
Ohlhausen for her emphasis and commitment to this important 
part of the FTC's mission. For more than 100 years, the FTC has 
protected consumers from dishonest practices, although the 
particular scams we see in the marketplace have changed over 
time.
    In 2016, we received more than 3 million consumer 
complaints. The top three categories of complaints were debt 
collection, imposter frauds, and identity theft. Since not all 
victims file complaints, these statistics likely understate the 
problem significantly. In fact, the FTC's most recent national 
survey of fraud victimization estimated that 10.8 percent of 
all Americans over the age of 18, or more than 25 million 
people, had been the victim of a fraud.
    The growth in imposter scam complaints is particularly 
striking. They surpass the number of identity theft complaints 
for the first time ever last year. In imposter scams, someone 
poses as a friend, family member, romantic interest, legitimate 
company, or even a government agency in order to obtain money 
or personal information from the victim. Government imposter 
scams, the most common type of imposter scam reported last 
year, run the gamut from callers claiming to be from the IRS 
and demanding payment of back taxes to debt collectors claiming 
to be from a law enforcement agency.
    Other imposters purport to be calling on behalf of a 
company, such as Microsoft or Apple. They convince consumers 
that their computers are infected with malware. In reality, no 
such virus exists, but consumers pay for costly technical 
support services with very little, if any, value at all.
    We are taking action to stop these scams at the FTC. Last 
year, we brought multiple cases against tech support scams as 
well as action against an entity that was impersonating the 
Department of Transportation. Stopping fraud, as Acting 
Chairman Ohlhausen has said, is a core FTC priority. This 
includes not just pursuing bad actors, who directly perpetuate 
the frauds, but also others who facilitate those scams.
    One example is our recent case against Western Union, which 
paid $586 million to settle charges that it failed to stop 
scammers from using its money transfer system to collect 
payments for numerous types of fraud, including many of the 
types of scams that we are talking about today.
    Protecting consumers is just too big a job for the FTC to 
do alone, and that's why we partner with other government 
agencies, states, state attorney generals, and civic 
organizations in our anti-fraud work. And that is also why we 
invest heavily in consumer and business education.
    Educating American consumers is one of the best ways we can 
combat fraud. We produce materials in multiple languages for 
almost every demographic and make them available across all 
platforms to reach the broadest possible audience. We hold 
Ethnic Media Roundtables around the country to help diverse 
communities highlight frauds that are specifically affecting 
them.
    We also have a campaign to help older people learn about 
common scams and pass that information on to their peers. And 
we work closely with the Department of Defense and others to 
help the military community avoid frauds.
    It is vital that we continue this important outreach and 
ensure that we have sufficient resources to meet the demands 
for our materials. This is particularly true--and I am biased 
in this regard as a parent--for our educational materials for 
parents and children, which help parents keep their kids safe 
online. These materials need to be updated to remain relevant, 
including optimizing them for mobile platforms.
    The FTC must continue to stay abreast of emerging consumer 
protection issues. In our always-on, always-connected digital 
world, which is so full of marvelous innovations, we also have 
new opportunities for fraudsters and bad actors. Imposter scams 
are just one example of that trend.
    I am particularly concerned, for example, about the growth 
in ransomware attacks. Ransomware attacks on computers, both 
for individuals and businesses, are unfortunately already well 
known. But I worry that attacks on connected consumer devices 
will soon become more common, especially given wide-ranging 
industry data security practices. In the not-too-distant 
future, a consumer might turn on her smart TV only to see a 
message asking for $50 in Bitcoin if she wants to watch 
television again.
    In the world of cyber threats, the FTC must keep pace with 
changing technology, and we've been doing that by engaging with 
stakeholders and, most importantly, bringing technologists into 
our work. The FTC's Office of Technology Research and 
Investigation, or OTech, is in its second year, and I am 
pleased that our talented interdisciplinary team of lawyers and 
computer scientists is continuing to provide important in-house 
capabilities supporting our mission.
    As our complaint data indicates, scammers are finding 
creative new ways to target consumers, so it is vital that the 
FTC continue to have proper resources to keep pace with them. 
As we'll discuss today, our consumer protection mission has a 
big impact on people's lives. Last year alone, we obtained 
orders that will return more than $11 billion directly to 
consumers in the form of redress. That's more than 35 times our 
annual operating budget. Our enforcement actions not only 
provide American consumers with justice, they help strengthen 
consumer trust in the marketplace, strengthening the dynamism 
of the American economy itself.
    So thank you again for your attention and for holding this 
hearing.
    [The prepared statement of Commissioner McSweeny follows:]

      Prepared Statement of Hon. Terrell McSweeny, Commissioner, 
                        Federal Trade Commission
    Chairman Moran, Ranking Member Blumenthal: thank you for holding 
this important hearing. I am Terrell McSweeny, and along with Acting 
Chairman Ohlhausen, we are the current members of the Federal Trade 
Commission.
    The work of protecting American consumers from frauds and scams is 
bipartisan--in fact, I would call it non-partisan. For more than 100 
years, the FTC has protected consumers from dishonest practices, 
although the particular scams we see in the marketplace change over 
time.
    In 2016, we received more than three million consumer complaints 
and the top three categories were debt collection, impostor frauds, and 
identity theft. Since not all victims file complaints, these statistics 
understate the problem. The FTC's most recent national survey of fraud 
victimization estimated that 10.8 percent of all Americans over age 
18--or 25.6 million people--had been a victim of fraud in 2011.
    The growth in impostor scam complaints is striking; they surpassed 
the number of identity theft complaints for the first time ever last 
year. In imposter scams someone poses as a friend, family member, 
romantic interest, legitimate company, or government agency, in order 
to obtain money or personal information.
    Government impostor scams--the most common type of imposter scam 
reported last year--run the gamut from callers claiming to be from the 
IRS and demanding payment for back taxes to debt collectors claiming to 
be from a law enforcement agency.
    Other impostors purport to be calling on behalf of a company such 
as Microsoft or Apple. They convince consumers that their computers are 
infected with malware. In reality no virus exists, but consumers pay 
for costly ``technical support'' services with little, if any, value.
    We are taking action to stop these scams. Last year we brought 
multiple cases against tech support scams, as well as an action against 
an entity that was impersonating the Department of Transportation.
    Stopping fraud is a core FTC priority. This includes not just 
pursuing bad actors who are directly perpetrating the frauds, but also 
others whose facilitate scams. One example is our recent case against 
Western Union, which paid $586 million to settle charges that it failed 
to stop scammers from using its money transfer system to collect 
payments for numerous types of fraud.
    Protecting consumers is too big a job for the FTC to do alone. 
That's why we partner with other government agencies, states, and civic 
organizations in our anti-fraud work--and why we invest in consumer and 
business education.
    Educating American consumers is one of the best ways we can combat 
fraud. We produce materials in multiple languages for almost every 
demographic and make them available across platforms to reach the 
broadest possible audience. We hold Ethnic Media Roundtables around the 
country to help diverse communities highlight frauds affecting them.
    We also have a campaign to help older people learn about common 
scams and pass that information on to their peers. And we work closely 
with the Department of Defense and others to help the military 
community avoid fraud.
    It is vital that we continue this important outreach--and ensure 
that we have the resources to meet the demand for our materials. This 
is especially true for our educational materials for parents and 
children, which help parents keep their kids safe online. It's critical 
that we keep these materials relevant and up to date, including 
optimizing them for mobile platforms.
    The FTC must continue to stay abreast of emerging consumer 
protection issues. Our always-on, always-connected digital world is 
full of marvelous innovations--but it also creates some new 
opportunities for bad actors.
    I'm particularly concerned about the growth in ransomware attacks. 
Ransomware attacks on computers--both for individuals and businesses--
are unfortunately already well known. But I worry that attacks on 
connected consumer devices will soon become more common--especially 
given wide-ranging industry data security practices. In the not-too-
distant future a consumer might turn on her smart TV only to see a 
message that asks for $50 in Bitcoin if she wants to watch television 
again.
    In a world of new cyber threats, the FTC must keep pace with 
changing technology. We have been doing that by engaging with 
stakeholders--and, most importantly, bringing technologists on board. 
The FTC's Office of Technology Research and Investigation, or OTech, is 
in its second year.
    OTech is a talented inter-disciplinary team of lawyers and computer 
scientists who provide us with in-house research capabilities and the 
expertise to understand cutting-edge technology--like cross-device 
tracking, or how algorithms impact consumer choice. As more of these 
technologies come into the marketplace, it is vital that the FTC 
continue to expand these capabilities.
    Unlike many other enforcement agencies, the Federal Trade 
Commission sends refund checks to individual consumers who are harmed 
by unfair and deceptive business practices. Last year, we obtained 
orders that will return more than $11 billion in redress to consumers.
    Our enforcement actions not only provide American consumers with 
justice, they help to strengthen consumer trust in the marketplace, 
strengthening the dynamism of the American economy itself.
    Thank you again for holding this hearing. I look forward to 
answering your questions.

    The Chairman. Mr. Attorney General.

                STATEMENT OF HON. MIKE DeWINE, 
                     OHIO ATTORNEY GENERAL

    Mr. DeWine. Mr. Chairman, Chairman Moran, thank you very 
much for inviting us to be here today, and Ranking Member 
Blumenthal, and all the members of the Committee.
    You know, we've always had--I suppose time immemorial we've 
had con artists and crooks, swindlers, but what is really 
different today is they now have a very long arm, and, of 
course, that long arm is the Internet and long-distance 
telephone. The Internet and social media have really 
transformed the world we live in, and in some cases, for very, 
very good ways, FaceTime with one of your grandchildren, 
something that my wife, Fran, and I enjoy. But, unfortunately, 
scammers also use these modern conveniences to commit fraud and 
to satisfy their greed.
    Now, grandparent scams are one of the most frequently 
reported and the most, I think, gut-wrenching scams that my 
office receives. Fran and I have 8 children and 22 
grandchildren, and like all grandparents, there is nothing, 
nothing, we would not do for our grandkids, and that is exactly 
the mentality that the scammers prey upon. There is a reason 
they call grandparents and they don't call parents.
    The scam often begins with a phone call telling 
grandparents that one of their grandchildren has been in a car 
accident, caught with drugs, or put in jail. The caller 
pretends either to be the grandchild or an attorney or a law 
enforcement officer, and tells the grandparent to send money 
immediately to have the charges dismissed, to cover court 
costs, or to allow the grandchild to return home.
    As part of the scheme, grandparents often are instructed 
not to talk to other people. In fact, that's normally what the 
call is all about. They say, ``Grandpa, this is Sara.'' ``Where 
are you, Sara? I thought you were at Miami University.'' ``No, 
Grandpa, I'm so-and-so.'' And then, ``Do your parents know 
that?'' ``Don't tell my parents.'' And that's always what they 
say. Many times the grandparents not only pay once, but they 
pay several different times, sometimes for attorneys' fees or 
other unexpected costs. Eventually the grandparents discover 
that their grandchild was not truly in trouble, but by then, of 
course, it is much too late. The average loss to an individual 
Ohioan that's been reported to us for this specific scam is 
over $5,000.
    Another popular scam is the romance scam. In a typical 
romance scam, the con artist meets the victim online through a 
dating or social networking site. The scammer often claims to 
live in the United States, but says he or she is temporarily 
located overseas due to a military assignment, business trip, 
or other reason. Eventually, he or she asks the victim to send 
money to help cover some type of cost, such as airfare to visit 
the victim, medical expenses, or fees associated with military 
leave. Not surprisingly, once the money is sent, it's nearly 
impossible for anyone to recover. The average loss from this 
particular scam in the state of Ohio is over $26,000.
    As Attorney General, I've been committed to treating these 
scams as what they are, and that is crimes. Shortly after 
becoming Attorney General, I established an Economic Crimes 
Unit in my Consumer Protection Section. The unit includes 
seasoned prosecutors and investigators who are tasked with 
holding these fraudsters accountable and assisting local law 
enforcement and prosecutors in identifying, investigating, and 
prosecuting consumer fraud of a criminal nature.
    One of the reasons our Economic Crime Unit has been 
successful is that we're able to see patterns of conduct 
occurring across multiple jurisdiction lines, across multiple 
counties. We can then make connections with law enforcement and 
victims and show the true scope of the criminal enterprise.
    I think, Mr. Chairman and members of the Committee, that we 
need to apply that same logic to scams and economic crimes 
nationwide on the Federal level. To be successful, we need to 
break down barriers to communication. We need to have more 
sharing of information and resources, and we need to work 
together to combat crime on the national and the international 
level.
    We've all heard about the lottery scam, ``You've won the 
lottery.'' We've seen that model, though, of catching these 
people work in what's called Project JOLT, where the U.S. 
Department of Homeland Security has partnered with a Jamaican 
police force, industry, and other law enforcement agencies to 
take down Jamaican lottery scammers, a number of whom have 
recently been extradited to the United States to face Federal 
charges.
    Mr. Chairman and members of the Committee, now is the time 
to apply those lessons to other scams and crimes because, 
simply put, there is strength in numbers. When multiple 
agencies put their resources, their intelligence, their 
ingenuity together, great things do in fact happen. I'm proud 
of the work my office has undertaken to go after the scammers 
that prey on Ohio families. My office will continue to provide 
support for local law enforcement in an ongoing effort to hold 
scammers accountable. We're also committed to providing Ohioans 
with the information and education they need to avoid being 
victims in the first place.
    By doing these things, we are making progress. Thank you, 
Mr. Chairman and members of the Committee. And I look forward 
to questions.
    [The prepared statement of Mr. DeWine follows:]

        Prepared Statement of Mike DeWine, Ohio Attorney General
    Thank you Chairman Thune, Subcommittee Chairman Moran, and Ranking 
Member Blumenthal for holding this important hearing today to discuss 
how scams are affecting families in my home state of Ohio and families 
all across our country.
    I have served now as Ohio Attorney General for just over six years. 
One of the things I am continually amazed by is both the number of 
scams that constituents report to my office and the increasing 
creativity of the scammers! As you all know, there have always been 
scam artists and cons. But, what is different today is that they now 
have the long arm of both the Internet and phones!
    The Internet and social media have transformed the world we live in 
and the way we communicate. For example, grandparents who live miles 
apart from their grandkids, can now see them with the touch of a button 
on their mobile devices. Unfortunately, scammers also use these modern 
conveniences to commit fraud and satisfy their greed.
    ``Grandparent scams'' are one of the most frequently reported--and 
most gut-wrenching--scams my office receives. My wife Fran and I are 
the parents of eight children--and now grandparents of 22 
grandchildren. Like any grandparent, there is nothing we wouldn't do 
for our grandkids. And that is exactly the mentality that the scammers 
prey upon.
    The scam often begins with a phone call telling grandparents that 
one of their grandchildren has been in a car accident, caught with 
drugs, or put in jail. The caller pretends either to be the grandchild, 
an attorney, or a law enforcement officer and tells the grandparent to 
send money to have the charges dismissed, to cover court costs, or to 
allow the grandchild to return home.
    There is always a sense of urgency with these scams. The 
grandparent is told to go to the store right away, to buy several gift 
cards, and to read the card numbers over the phone. Using this 
information, the scammer then drains the funds on the cards almost 
instantly.
    As part of the scheme, grandparents often are instructed not to 
talk to other people (such as the grandchild's parents) about the 
problem. Callers may even threaten to shoot or harm the grandchild if 
the grandparent refuses to pay.
    And, if grandparents pay once, they likely will receive additional 
calls seeking more money, supposedly for attorney's fees or other 
unexpected costs. Eventually, grandparents discover that their 
grandchild was not truly in trouble. But by then, it is too late. The 
average loss to an individual Ohioan because of this scam is $5,309. 
And that's just based on the cases reported to my office. Because so 
many go unreported, that figure is likely much higher.
    Another popular scam is the ``romance scam!'' In a typical romance 
scam, the con artist ``meets'' the victim online through a dating or 
social networking site. The scammer often claims to live in the United 
States, but says he or she is temporarily located overseas due to a 
military assignment, business trip, or personal vacation.
    One common theme of this scam is that the victim never actually 
meets the scammer face-to-face. Instead, the scammer may spend months 
developing a relationship with the victim online. Eventually, he or she 
asks the victim to send money to help cover some type of cost, such as 
airfare to visit the victim, medical expenses, or fees associated with 
military leave. The scammer often asks the victim to send the money via 
wire transfer or prepaid money card. Not surprisingly, once the money 
is sent, it is nearly impossible to recover. The average loss to an 
individual Ohioan for this scam is $26,518! And again, that number is 
just based on cases reported to my office. It, too, is likely much 
higher.
    As Attorney General, I have been committed to treating these scams 
as what they are--crimes. In 2011, I established an Economic Crimes 
Unit in my Consumer Protection Section. The unit includes seasoned 
prosecutors and investigators tasked with holding these fraudsters 
accountable and assisting local law enforcement and prosecutors in 
identifying, investigating, and prosecuting consumer fraud of a 
criminal nature. The unit consists of three attorneys and four 
investigators who are dedicated solely to criminal investigations.
    To assist even more in the fight against scams, my office sought 
additional investigative power from the Ohio General Assembly in 2012. 
The result was new telecommunications fraud subpoena authority that our 
investigators and lawyers use every day to obtain financial and 
electronic evidence that furthers investigations and leads to arrests 
and prosecutions. This subpoena power is crucial in investigating scams 
that are exclusively Internet or phone-based.
    Telephone and electronic communication are the major tools that 
scammers use to initiate contact with consumers. Unlike in the past, 
phone numbers are no longer a reliable indicator of where a call is 
coming from or who is making it. Voice over Internet Protocol (VoIP) 
phones allow callers to use area codes and phone numbers linked to a 
particular city or state, even though the person making the call is 
nowhere near there.
    These services use a computer or smartphone to make calls through 
the Internet. Calls can be made using WiFi hot spots commonly found in 
airports, restaurants, coffee shops, and libraries. Criminals use the 
perceived legitimacy these phone numbers provide to help persuade 
unsuspecting victims into sending them money. We commonly see this 
tactic being used in IRS scams where the call appears to be originating 
from Washington, D.C. or Northern Virginia, but is instead coming from 
overseas.
    Changes in how money is transferred have created additional 
challenges. Money transfer services, such as Western Union and 
Moneygram, were the traditional methods scammers used to get money. 
While those methods are still in use, we've learned that scammers now 
rarely receive the money directly. They tend to use ``Money Mules,'' 
who are people who've often been duped into thinking they're ``Secret 
Shoppers'' or getting an advance for a babysitting job or think they 
have a job processing payroll to receive the money and send it on--
often to someone overseas. These multiple steps are used to frustrate 
law enforcement and throw them off the trail. Also, people picking 
money up are required to provide very little, if any, formal 
identification, which further impedes our efforts to identify them.
    Criminals have discovered another tool for moving money--prepaid 
gift cards and reloadable debit cards. Scam victims are instructed to 
purchase prepaid or reloadable cards, most recently iTunes cards. They 
then provide the unique identifying number from the back of the card to 
the scammer, and the money is transferred from the prepaid card or 
reload card to the scammer's account almost immediately, leaving the 
victim holding nothing but a useless piece of plastic.
    My office recently spoke with a victim who received a call telling 
her that her grandson had been in a car accident and that the judge 
would drop the charges if she paid $4,500 to an insurance company to 
cover the damage to a rented vehicle. The victim purchased prepaid 
cards, provided the card numbers to the scammer over the phone, and 
then was told to mail the cards themselves to an ``insurance office'' 
in Columbus, Ohio. My investigators found the address. As you would 
suspect, there was no insurance company.
    Separate, but related, it's probably no surprise to you that many 
scam victims are targeted solely because of their age. To address this 
issue, my office created the Elder Justice Initiative and assigned 
staff to work with law enforcement, prosecutors, Adult Protective 
Services, and communities to identify, investigate, and prosecute elder 
abuse cases. We also host forums in local communities to educate 
seniors about how to protect themselves from cons.
    As much as we try to educate consumers about potential scams, these 
cons are good at what they do and continue to rip off the vulnerable. 
Though many times, our investigations lead to dead ends, sometimes our 
work pays off in getting these bad guys. In 2013, for example, my 
office indicted and convicted 18 defendants for a national 
telemarketing ring that stole more than $2 million from thousands of 
victims in 41 states over a five-year period. That group used dozens of 
VoIP phone numbers, seasoned telemarketers, false websites, elaborate 
lies, and multiple businesses in Ohio and Florida to prey on owners of 
vacant, nearly worthless land throughout the desert southwest.
    Also in 2013, attorneys from our Special Prosecutions Section 
convicted John Donald Cody of running a charity scam that stole 
millions of dollars intended for Navy veterans. Cody, who had assumed 
the identity of a man named Bobby Thompson, was sentenced in an Ohio 
courtroom to 28 years in prison and ordered to pay more than $6.3 
million in fines.
    Just last month, my office partnered with local law enforcement and 
indicted a 66 year-old-woman for her role in an alleged romance scam. 
According to investigators, the suspect lied to people about needing 
money for various reasons, such as claiming she had a serious illness 
or that she was at risk of losing her home. The victims, who included 
the suspect's family and friends, believed her. Although the suspect 
generally promised to pay people back promptly, investigators 
determined that she sent the funds overseas to a man she had been 
communicating with online. This person's lies and deception cost her 
friends and family over $730,000!
    This case comes on the heels of a 2014 investigation that my office 
initiated that led to a federally-convicted drug dealer pleading guilty 
to a running a romance scam that robbed over $1.1 million from 
unsuspecting victims across the country. The case began when my office 
received a complaint from an Ohio resident who had lost over $800,000 
to a man she met online. My investigators tracked our victim's money to 
accounts in Maryland. We then reached out to local law enforcement, 
shared what we had learned, and provided evidence linking a convicted 
drug dealer to the scheme.
    The drug dealer was the ringleader to a group of scammers who used 
a number of false stories and promises to convince the victims to give 
money, including stories about investing in fake gold that required 
payments for shipping and storage, fictitious sick family members who 
needed money, fake hospital bills, and fake plane trips to visit the 
victims. To help conceal the scheme and by using false documents, the 
conspirators were able to convince the victims to mail checks to a 
corporation that one of the cons had created and controlled or to wire 
money into bank accounts held in the name of that corporation.
    Because of that single lead, we were able to develop that case into 
a Federal investigation. It is that kind of state and Federal 
cooperation that has brought justice not only to our Ohio victim, but 
also to victims throughout the United States.
    As we approach April, IRS scams become more prevalent. The IRS 
scams and tax preparer frauds pose special challenges for law 
enforcement. Because of Federal law, the Internal Revenue Service 
cannot and will not share tax or taxpayer information with our state 
criminal investigators. Let me tell you why that's important.
    Our investigators will receive a complaint about someone who is 
doing taxes and is alleged to be stealing part of the taxpayer's refund 
by personally diverting the money. This single taxpayer can get his or 
her own records and provide them to us, but our investigators have no 
way of knowing how much larger the crime may be or how many more people 
may be being victimized because the IRS can't tell us anything at all. 
State subpoenas won't work, so our investigation ends up at a dead end.
    The individual loss for this type of scam is generally less than 
$2,500.00. But, because we can't get access to information about other 
potential victims, that's where the case stops.
    Whenever we receive an allegation of tax preparer fraud, IRS scam 
calls, or refund theft, we tell the consumer to contact the Treasury 
Inspector General for Tax Administration (TIGTA). Very few of these 
cases are ever likely to meet the dollar threshold required to get the 
attention of an IRS inspector, let alone a U.S. Attorney. Giving state 
and local law enforcement the ability to obtain the information needed 
to effectively investigate and prosecute tax preparer fraud, IRS scams, 
and refund theft wouldn't just protect taxpayers, it would conserve 
valuable Federal resources and help ensure the integrity of our tax 
collection program.
    There is strength in numbers. When multiple agencies put their 
resources, intelligence, and ingenuity together, great things can 
happen.
    Ohio is a home rule state, with 88 counties and 88 county sheriffs 
and prosecutors acting independently from the other 87. That local 
control ensures that those elected officials are accountable to the 
people in their communities. It also ensures that these sheriffs and 
prosecutors know what's happening in their counties.
    But, there are also challenges. A law enforcement officer in 
Jackson County, for example, may know about the three people who were 
ripped off in that county, but may not know about the three people who 
were victimized in Greene County, or the two people who were victimized 
in Clark County, or the person who was conned out of her life savings 
in Ashtabula County. Imagine how much bigger that problem gets when you 
start talking about victims in multiple states and victims who are 
hundreds or even thousands of miles away.
    One of the reasons our Economic Crimes Unit has been successful is 
that we're able to see patterns of conduct occurring across multiple 
counties, make connections with law enforcement and victims, and show 
the true scope of a criminal enterprise. We need to apply that same 
logic to scams and economic crime nationwide. To be successful, we need 
to break down barriers to communication, sharing information, and 
resources and work together to combat crime on the national and 
international level.
    We've seen that model work in Project JOLT, where the U.S. 
Department of Homeland Security has partnered with the Jamaican 
Constabulary Force, industry, and other law enforcement agencies to 
take down Jamaican lottery scammers--a number of whom have recently 
been extradited to the United States to face Federal charges. Now is 
the time to apply those lessons to others scams and crimes.
    I am very proud of the work my office has undertaken to go after 
the scammers that prey on Ohio families. My office will continue to 
provide support for local law enforcement in an ongoing effort to hold 
scammers accountable. We're also committed to providing Ohioans with 
the information and education they need to avoid being victims in the 
first place. By doing these things, we are making a difference.
    Thank you, again, for the opportunity to testify here today. I'm 
happy to answer any questions.

    The Chairman. Thank you, Attorney General.
    Mr. Abagnale.

STATEMENT OF FRANK ABAGNALE, AUTHOR AND CONSULTANT, ABAGNALE & 
                           ASSOCIATES

    Mr. Abagnale. Thank you, Chairman Moran and Ranking Member 
Blumenthal and members of the Committee. I am honored to be 
invited to testify before you today on the seriousness of 
identity theft and financial fraud against the elderly and all 
American citizens and the need for education to prevent 
individuals from falling victim to these multiple scams.
    I'm Frank Abagnale, subject of the book and movie ``Catch 
Me If You Can.'' I have a unique perspective, having committed 
fraud as a teenager some 50 years ago, and having spent the 
last 41 years of my life teaching at the FBI Academy and the 
field offices of the Federal Bureau of Investigation.
    Over the past 4 decades, I've conducted over 3,000 lectures 
and written four books on these subjects. During this time, 
I've worked to try to prevent fraud, forgery, cyber crimes, 
embezzlement, identity theft, and other scams perpetrated 
against consumers and small businesses.
    Serious issues we face are fraud and scams which are 
perpetrated against American citizens of all ages. They can be 
perpetrated by family members, financial advisers, home health 
care providers, friends, scam artists, and others.
    Let me share with you some statistics that speak volumes as 
to why we need initiatives to help prevent these frauds against 
consumers.
    A new survey by Javlin Strategy & Research shows a 16 
percent growth in fraud incidences in 2016. Fraud affected over 
6 percent of U.S. consumers, the highest on record. The 
Consumer Sentinel Network, which collects consumer complaints 
from the Federal Trade Commission, state law enforcement 
agencies, and other Federal agencies received over 3 million 
complaints in 2016. Almost 1.3 million of those complaints were 
fraud-related. Consumers reported paying over $744 million in 
those fraud complaints.
    The FBI's Internet Crime Complaint Center issues an annual 
report based on reported complaints of Internet crime. The 2015 
report--and that's the latest available--shows that the center 
received nearly 270,000 online crime complaints in 2014, with a 
loss of about $800 million. State-by-state complaint data shows 
the largest losses are from individuals age 50 plus.
    These are probably low estimates because many times 
consumers are too embarrassed to admit that they have been 
defrauded, and, therefore, it goes unreported. Their families 
might not even be told. Identity theft, investment fraud, and 
scams rob millions of Americans of their hard-earned money 
every year.
    To help combat this threat, for the last 3 years, I've 
joined forces with AARP's Fraud Watch Network as their 
Ambassador. The goal of the Fraud Watch Network is to arm 
Americans with tools they need to spot and avoid fraud and 
scams so they can protect themselves and their families. Last 
year, through my relationship with the Fraud Watch Network, we 
reached more than 43 million people through state office 
sponsored events, social media, e-mail alerts, and online 
advertising. We held more than 1,200 events on the topic of 
fraud in 2016 alone. In 2017, I will be appearing in more than 
one dozen cities across America to help educate people about 
current scams, their risk, and most important of all, how to 
protect themselves and their families from being victimized.
    What is truly amazing to someone like me is that what I did 
50 years ago as a teenager is 4,000 times easier to do today 
due to technology. Unfortunately, technology breeds crime; it 
always has and always will. At the same time, there is no 
technology, nor will there ever be any technology, that can 
prevent social engineering. Socially-engineered crimes can only 
be prevented through education. There will always be 
individuals who will use technology in a negative, self-serving 
way.
    Throughout my career, I have always believed that education 
is the best prevention. If you educate and explain to people 
their risks, in most cases, they are smart enough to take that 
information and reduce their risk. I believe education is the 
only approach to help eliminate consumer fraud. Education is 
not only important for our seniors, but it also helps bring 
awareness to all citizens so they can recognize the signs of 
fraud and how to protect themselves.
    I have always believed that the government should take the 
lead in education to combat these horrendous crimes. Consumers 
are hungry for information but do not know about legitimate 
resources where they can turn for help. Over the last 2 years, 
I have given my time to film public service announcements for 
both U.S. Department of Justice and numerous state attorney 
generals to help the public awareness.
    As the Committee is aware, there is very little prosecution 
for these crimes and almost no restitution. Once you lose your 
money, your chance of getting it back is extremely slim. 
Unfortunately, many of these criminals are operating from other 
countries, where we do not have legal authority to make an 
arrest and follow through with prosecution. I believe that law 
enforcement and the Federal Trade Commission need to take these 
crimes against consumers more seriously and push for arrest and 
convictions of criminals making victims of innocent people when 
there is enforcement power to do so.
    Thank you for the opportunity.
    [The prepared statement of Mr. Abagnale follows:]

     Prepared Statement of Frank Abagnale, Author and Consultant, 
                         Abagnale & Associates
    Chairman Thune and members of the Committee, I am honored to be 
invited to testify before you today on the seriousness of identity 
theft and financial fraud against the elderly and all American citizens 
and the need for education to prevent individuals from falling victim 
to these multiple scams.
    I am Frank Abagnale, subject of the book and movie ``Catch Me If 
You Can.'' I have a unique perspective, having committed fraud as a 
teenager some 50 years ago, and having spent the last 41 years of my 
life teaching at the FBI Academy and field offices of the FBI. Over the 
past four decades, I have conducted over 3,000 lectures and written 
four books on these subjects. During this time, I have worked to try to 
prevent fraud, forgery, cybercrimes, embezzlement, identity theft and 
other scams perpetrated against consumers and small businesses.
    Serious issues we face are fraud and scams which are perpetrated 
against American citizens of all ages. These can be perpetrated by 
family members, financial advisers, home healthcare providers, friends, 
scam artists, and others. Let me share with you some statistics that 
speak volumes as to why we need initiatives to help prevent these 
frauds against consumers.
    A new survey by Javlin Strategy & Research shows a 16 percent 
growth in fraud incidence in 2016. Fraud effected over 6 percent of 
U.S. consumers--the highest on record.
    The Consumer Sentinel Network, which collects consumer complaints 
from the Federal Trade Commission, state law enforcement agencies and 
other Federal agencies, received over 3 million complaints in 2016.

  <bullet> Almost 1.3 million of those complaints were fraud-related.

  <bullet> Consumers reported paying over $744 million in those fraud 
        complaints.

  <bullet> The FBI's Internet Crime Complaint Center (IC3) issues an 
        annual report based on reported complaints of Internet crime. 
        The 2015 report (the latest available) shows that--

  <bullet> The center received nearly 270,000 online crime complaints 
        in 2014 with a loss of about $800 million.

  <bullet> State-by-state complaint data shows the largest losses are 
        from individuals age 50+.

    These are probably low estimates because many times consumers are 
too embarrassed to admit that they have been defrauded, and therefore 
it goes unreported. Their families may not even be told. Identity 
theft, investment fraud and scams rob millions of Americans of their 
hard-earned money every year. To help combat this threat, for the last 
three years I have joined forces with AARP's Fraud Watch Network as 
their ambassador. The goal of the Fraud Watch Network is to arm 
Americans with the tools they need to spot and avoid fraud and scams so 
they can protect themselves and their families. Last year through my 
relationship with the Fraud Watch Network we reached more than 43 
million people through state office sponsored events, social media, e-
mail alerts and online advertising. We held more than 1,200 events on 
the topic of fraud in 2016 alone. In 2017, I will be appearing in more 
than one dozen cities across America to help educate people about 
current scams, their risks and most important of all, how to protect 
themselves and their families from being victimized.
    What is truly amazing to someone like me is that what I did 50 
years ago, as a teenager is 4,000 times easier to do today due to 
technology. Unfortunately, technology breeds crime, always has and 
always will. At the same time, there is no technology, nor will there 
ever be any technology that can prevent social engineering. Socially 
engineered crimes can only be prevented through education. There will 
always be individuals who will use technology in a negative, self-
serving way.
    Throughout my career, I have always believed that education is the 
best prevention. If you educate and explain to people their risks, in 
most cases they are smart enough to take that information and reduce 
their risks. I believe education is the only approach to help eliminate 
consumer fraud. Education is not only important for our seniors, but it 
also helps bring awareness to all citizens so they can recognize the 
signs of fraud and know how to protect themselves.
    I have always believed that the government should take the lead in 
education to combat these horrendous crimes. Consumers are hungry for 
information but do not know about legitimate resources where they can 
turn for help. Over the last two years, I've given my time to film 
public service announcements for both the U.S. Department of Justice 
and numerous state attorneys general to help with public awareness.
    As the Committee is aware, there is very little prosecution for 
these crimes and almost no restitution. Once you lose your money, your 
chance of getting it back is extremely slim. Unfortunately, many of 
these criminals are operating from other countries where we do not have 
legal authority to make an arrest and follow through with prosecution. 
I believe that law enforcement and the Federal Trade Commission need to 
take these crimes against consumers more seriously and push for arrests 
and convictions of criminals making victims of innocent people when 
there is enforcement power to do so.
    Thank you.

    The Chairman. Mr. Schwanke.

             STATEMENT OF MIKE SCHWANKE, REPORTER, 
                    KWCH-12 EYEWITNESS NEWS

    Mr. Schwanke. Chairman Moran, Ranking Member Blumenthal, 
committee members, thank you for this incredible opportunity to 
talk about an issue that affects all Americans. In my 17 years 
as a journalist and investigative reporter, I have focused much 
of my time helping victims of scams, but also educating the 
public so they don't fall victim.
    I am honored to be invited here today by Senator Moran. The 
Senator and I go back almost 2 decades now to my days as a 
bureau reporter in Dodge City. Then Congressman Moran would 
often stop by my office and talk about the issues affecting 
Kansans. But the issue we address today does not stop at a 
state line. Scams and those who perpetrate them stop at 
nothing. No person is immune, not even in our darkest times, 
because scammers wait to take advantage.
    This month, Kansas experienced our largest wildfire event 
in the state's history. Homes and livestock were lost. And 
while Kansans and surrounding Midwest states all came together 
to help each other, shockingly, there were those who only saw 
an opportunity to steal. Instead of solely focusing on 
protecting lives and property, Reno County Sheriff Randy 
Henderson instead had to spend time warning his residents about 
a scam. During a time of disaster, victims of the fire were 
receiving calls from someone offering free Federal grants. All 
they had to do was send in an application fee. That scam was 
underway before most victims were even allowed back into their 
homes to survey the damage.
    Scammers don't see tragedy, they see opportunity, like when 
Wichita Police Officer Brian Arteburn was critically injured 
last month. He was run over by a fleeing suspect, but within 
days, we had to warn our viewers of a telephone scam collecting 
money in his name.
    Our seniors are most at risk because they often have the 
most to lose. They feel there is no one out there to protect 
them. Much of my time is spent in churches and senior 
organizations trying to educate.
    Those in our most trusting generation rarely go a single 
day without someone trying to trick them, scam them, and 
ultimately steal the money they have worked their lifetime to 
earn. I know because we talk to them. My producer now receives 
about a dozen calls from victims every week. Last week, that 
number grew to 20. I personally have told the stories who have 
wired away their entire life savings, and that money usually 
goes overseas, never to be seen again. That scammer starts 
again usually with another unsuspecting American.
    I could be here for hours sharing stories of victims, like 
the Wichita woman in her seventies we interviewed who was 
taking care of her elderly mother. She was targeted by a 
scammer looking to take advantage of her willingness to help 
others. She had about $25,000 left to care for her mother, and 
lost every cent.
    There was another couple who fell for what is commonly 
referred to as the grandparents scam, which you've heard about 
today. Thinking he was helping his granddaughter in distress, 
the 88-year-old walked into two Wichita grocery stores and 
purchased $13,000 in iTune cards. The money was gone. The man's 
wife told me she had just seen us do a story on that very scam, 
but the scammers were so convincing and she was so scared, she 
fell for it anyway. That same scam has also been used on our 
military families in Kansas.
    What's more concerning are those we don't know about, those 
who are too embarrassed or afraid they'll lose their financial 
freedom if they share their stories. I often get calls from 
victims who want to share their story to protect others, but 
ask that I shield their identity.
    We often hear about seniors falling victim, but one of our 
investigative stories found that Millennials may be even more 
likely to fall for scams. The Better Business Bureau now backs 
that up, releasing a study this month that found consumers 18 
to 24 years old are most likely to lose money in a scam.
    Alex Cook is one of them. The 19-year-old called me after 
she fell victim to a scam on Care.com. The teen, who was 
working three jobs at the time to pay the bills, lost $2,600, 
and it set her back 6 months.
    Even our county government and businesses have lost 
hundreds of thousands of dollars to scams. The estimated loss 
to the American economy is in the billions, and some estimates 
show as many as 1 in 10 Americans will lose money to a phone 
scam every year.
    Top scams reported by the BBB last year include the tax 
collection, debt collection, lottery, and online purchase 
scams. Our District Attorney's Consumer Protection Division 
fields now about 2,000 calls a year, so many the office had to 
develop a new system to handle the calls because they were 
overwhelmed.
    The Wichita Police Department has four detectives in its 
Financial Crimes Division, each one now has 60 active cases at 
any given time. In 2015, there were 3,800 cases; last year, 
7,000. Rarely can local law enforcement or prosecutors do 
anything about the cases because they often take them out of 
their jurisdiction.
    In closing, what we have found in our reporting is many 
times scammers use fear and intimidation to steal from victims. 
Law enforcement and prosecutors can do little to stop it. The 
best weapon we have right now is education, but it has to be 
consistent because tomorrow there will be a new scam, new 
tactics, and Americans will lose more money.
    Again, I thank you for the invitation to be here today and 
look forward to any questions you may have.
    [The prepared statement of Mr. Schwanke follows:]

           Prepared Statement of Michael Schwanke, Reporter, 
                        KWCH-12 Eyewitness News
    Chairman Moran, Ranking Member Blumenthal, and Committee members--I 
thank you for this incredible opportunity to talk about an issue that 
affects all Americans.
    My name is Michael Schwanke with KWCH TV in Wichita, Kansas. In my 
17 years as a journalist and investigative reporter I have focused much 
of time on helping victims of scams and educating the public so they 
don't fall victim.
    I'm honored to be invited here today by Senator Moran. The Senator 
and I go back almost two decades to my days as a bureau reporter in 
Dodge City. Then Congressman Moran would routinely stop by my office 
and talk about the issues affecting Kansans.
    But, the issue we are addressing today doesn't stop at a state 
line. Scams and those who perpetrate them, stop at nothing. No person 
is immune, and even in our darkest times scammers wait to take 
advantage.
    This month Kansas experienced the largest wildfire event in the 
state's history. Homes and livestock were lost. While Kansans and 
surrounding Midwest states came together to help each other, shockingly 
there were those who saw an opportunity to steal. Instead of solely 
focusing on protecting lives and property, Reno County Sheriff Randy 
Henderson had to warn his residents about a scam. During a time of 
disaster, victims of the fire were receiving calls from someone 
offering free Federal grants. All they had to do was send in an 
application fee. The scam was underway before some victims of the fire 
were even allowed back in to survey what they'd lost.
    Scammers don't see tragedy, they see opportunity like when Wichita 
Police officer Brian Arteburn was critically injured last month. He was 
run over by a fleeing suspect. Within days we had to warn viewers of 
telephone scam collecting money in his name.
    Our seniors are most at risk, because they often have the most to 
lose. They feel there is no one to protect them. Much of my time is 
spent in churches or senior organizations trying to educate.
    Those in our most trusting generation rarely go a single day 
without someone trying to trick them, scam them and ultimately steal 
the money they've worked a lifetime to earn. I know, because we talk 
them. My producer now receives up to a dozen calls from victims every 
week. Last week that number grew to more than 20.
    I personally have told the stories of those who have wired away 
their entire life savings. The money usually goes overseas never to be 
seen again. The scammer then starts again, with another unsuspecting 
American.
    I could be here for hours sharing stories of victims--like the 
Wichita woman in her 70s we interviewed who was taking care of her 
elderly mother. She was targeted by a scammer who took advantage of her 
willingness to help others. She had about $25,000 left to care for her 
mother and lost it all.
    There was another couple who fell for what's commonly referred to 
as the grandparent scam. Thinking he was helping his granddaughter in 
distress, the 88-year-old walked into two Wichita grocery stores and 
purchased $13,000 in I-Tune cards. The money was gone. The man's wife 
told me she had just seen me do a story on this very scam. The scammers 
were so convincing and she was so scared, she fell for it anyway. The 
same scam has been used on military families in Kansas.
    What's more concerning are those we don't know about--those who are 
embarrassed and afraid they will lose their financial freedom if they 
share their stories. I often get calls from victims who want to share 
their story to protect others, but ask that I shield their identity. We 
often hear about seniors falling victim, but even one of our 
investigative stories found that millennials may be even more likely to 
fall for scams. The Better Business Bureau backs that up, releasing a 
study this month that found consumers 18-24 years old are most likely 
to lose money in a scam.
    Alex Cook is one of them. The 19-year-old called me after she fell 
victim to a scam on Care.com. The teen, who was working three jobs at 
the time, lost $2,600. It set her back six months.
    Even our county government and area businesses have lost hundreds 
of thousands to scams.
    The estimated loss to the American economy is in the billions. Some 
estimates show as many as one in 10 Americans will lose money to a 
phone scam every year.
    Just last year the Better Business Bureau worked with more than 
5,000 victims who lost more than $42 million. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The top scams reported to the BBB last year include tax collection, 
debt collection, lottery and online purchase scams.
    And what happens when they report it? Usually nothing.
    Our District Attorney's Consumer Protection Division fields about 
2,000 calls a year. So many the office had to develop a new system to 
handle the calls because they were overwhelmed. There is one attorney 
in the consumer protection division.
    The Wichita Police Department has four detectives in its financial 
crimes division. Each one has up to 60 active cases at any given time. 
In 2015 they were 3,800 cases. Last year 7,000. Rarely can local law 
enforcement or prosecutors do anything because the cases take them out 
of their jurisdiction or they simply don't have the resources. By the 
time police are able to obtain proper warrants or subpoenas, the 
scammers have moved on.
    In closing, what we have found in our reporting is many times 
scammers use fear and intimidation to steal from victims. Law 
enforcement and prosecutors can do little to stop it. The best weapon 
we have at this point is education, but it has to be consistent. 
Tomorrow there will be a new scam, new tactics and Americans will lose 
money. Again, I thank you for the invitation to be here today and look 
forward to any questions you may have.

    The Chairman. Thank you very much. Let me start with 
Chairwoman Ohlhausen. Is there a reliable financial macro cost 
to scams in the United States? Do we know from the side of the 
personal aspects of this, what does it cost the economy?
    Commissioner Ohlhausen. Well, based on the redress that the 
FTC has been able to get for consumers, even just last year, it 
cost billions and billions of dollars. So we get redress for 
consumers, and last year we were able to get more than a 
billion dollars, well, several billion dollars, a lot of that 
was driven by the VW settlement, which was about $10 billion or 
$11 billion. So it is billions and billions of dollars.
    The Chairman. Mr. Schwanke, in your investigations and your 
attempts to help Kansans, have you discovered any place that it 
makes most sense for a victim to go with his or her problem? 
Who is best at providing relief and satisfaction?
    Mr. Schwanke. I think that's a lot of their frustration. I 
think once they've been a victim of a scam, they often turn to 
the Better Business Bureau or us to warn others, and oftentimes 
they understand that that is their only option at that point, 
is to stop it from happening to anyone else. Calling law 
enforcement often goes nowhere just because they can't do 
anything.
    The Chairman. You indicated something that was discouraging 
to me because one of the conversations we've had already just 
in this hearing is the value of information, but you indicated 
that in a particular instance, the victim had seen the similar 
identical fraud being talked about on your program, but still 
felt necessary to respond to the cries of a grandchild. Do you 
have evidence that this consumer awareness actually makes a 
difference? Do you have instances in which you've been told, 
``I saw your program. It warned me, and the same thing about 
happened to me, but I knew not to fall for it''?
    Mr. Schwanke. That's one example. Oftentimes we do hear 
from victims who say, ``I knew better,'' and when they see 
these stories of victims, they sit back in their home and 
think, ``How in the world could I ever fall for something like 
that?'' In that case, she saw our story, and she explained it 
as tunnel vision. And I think that's what these scammers depend 
on. When I talk to these senior groups and I lay out these 
scams, and even the crowd will say, ``Well, I would never fall 
for that,'' but I used her as an example of once she thought 
that her granddaughter was in trouble, she said, ``It was 
almost like I had blinders on, and that's the only thing I 
could see at that point.''
    So in that story, that is really what she tried to get 
across to viewers, is you really have to stop and think because 
you are not going to be thinking clearly when someone calls for 
a grandparents scam or someone calls claiming to be with the 
IRS saying that they're going to haul you off to jail if you 
don't pay your taxes. Once you hear that, your mind shuts off 
oftentimes. That's what we try to get across in our education.
    The Chairman. General, you've been involved in public 
service announcements. Is there evidence that they're useful, 
successful, and prevent additional fraud?
    Mr. DeWine. We do get calls, Mr. Chairman, from people, and 
sometimes I'll actually see people who say, ``I saw you on TV 
talking about the grandparents scam,'' or, ``I saw you on TV 
talking about the IRS scam.'' So while we are successful in 
some prosecutions, the ones that are over the Internet, the 
ones that are long distance, are very, very difficult for all 
of the reasons that have already been stated. And, frankly, we 
think that our prime job in this case is to really warn people, 
trying to warn them about this.
    So, yes, we have some results, but it's the same, we've 
all, I think, had the same experience. You know, many times 
people say, ``I never would have thought I would fall for this, 
but I did,'' and what I think the public sometimes thinks is, 
``Well, I wouldn't do that,'' or they think these are people 
who aren't very smart. That's not true. These are smart people. 
These are average just regular people who you find in Ohio, and 
because some button has been pushed, whether it is the 
compassion for your grandchild, or in the case of the IRS scam, 
where they call you up and threaten you, it's just total fear, 
that emotion overrides.
    The Chairman. Mr. Abagnale, regarding the perpetrator of a 
fraud, what is it about them that allows them to be able to get 
that, elicit that, response from somebody who is apparently 
smart and has seen information about the potential scam and 
still falls for it? What's the way to capture somebody?
    Mr. Abagnale. Well, first of all, thank God that the 
majority of Americans are honest, and because they're honest, 
they don't think in a deceptive way. So when the phone rings 
and the caller ID says it's the Internal Revenue Service or 
U.S. Government or their local police department, they believe 
that to be true. They're not aware that the caller ID is easily 
manipulated. So people believe at the start that the call is 
legitimate. And then the person on the other end of that call 
can be very, very persuasive in getting people to give them 
information or to get money from them with some of these scams 
that we've heard about here today that are very common.
    Now, we've said so much about the IRS scam over the last 
few years and have reached so many American citizens about it 
that the criminal is now changing gears a little bit realizing 
that a lot of people know that when you get a call from the IRS 
demanding money, that the IRS usually doesn't make phone calls, 
that they would write you a letter.
    So the scammers in the last year have started writing 
letters on the IRS letterhead, postage paid by the Federal 
Government over on the right-hand corner of the envelope, and 
mailing out letters supposedly from the IRS with a reference 
number up in the top right corner, and simply saying to call 
this 800 number to speak with Agent So-and-so. And, of course, 
someone answers, ``Internal Revenue,'' they connect you to that 
person, who is not really that person.
    So, as you can see, they're able to understand how it 
works. When it gets a little tight or they realize people are 
catching on, they switch gears a little bit and go to something 
a little more sophisticated.
    Again, through my entire career, I believe that if you 
explain to people these scams, you tell them how they work, 
that's the best way to prevent those scams from occurring. When 
I go out with AARP Fraud Watch Network, I spend my afternoon on 
the phone speaking to about 15,000 people who call in to the 
AARP's office, state office, and get on the line, and they hear 
about all these scams and get to ask me questions about things 
that have happened to them and how to understand how some of 
these work. I find that it's a very powerful tool of reaching 
people and getting that information.
    It's interesting to me that back in the 1970s, before there 
was ever a book about me, I did some public service ads for the 
Department of Justice that were given to police departments 
across the country. Those ads ran for years on television. They 
were 30-second ads. The police department was able to put their 
logo at the end of it, sponsored from that police department. 
In the 1980s, only a book had been written about me, and those 
people didn't know who I was, but I actually did millions of 
bank statement stuffers for banks that went out to people in 
their bank statement, and it had tips about protecting their 
checkbook, protecting their credit cards.
    Today, there is very little of that. We very rarely see 
public service ads on TV. We very rarely see that reaching out 
to explain to people what is going on. I think we need to get 
back to that. It's very important, and it's the only way to 
really fight crime, is through education. And I think that 
that's the way that I try to approach it in the 40 years I've 
been doing this.
    I would remind you, the Committee, of one thing. I always 
teach FBI agents to follow the money, and have for 4 decades. 
So what we find is that most of these crimes that are committed 
by people living in Russia, India, China, that are making these 
calls in their pajamas or on their laptop from their kitchen, 
are stealing money from the American consumer. It is leaving 
our economy, but it will come back, it always comes back, 
because it will tend to boomerang and return to our country, 
but in the form of drug trafficking, human trafficking, child 
pornography, and much more hideous crimes.
    So it is very important that we try to prevent that money 
getting in the wrong hands of people who are going to do a lot 
worse--commit a lot worse crimes with that money.
    The Chairman. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Let me ask you, Chairwoman Ohlhausen, as you know about 
mobile cramming, it is the unscrupulous practice by wireless 
carriers of allowing third parties to add charges onto their 
monthly bills without authorization by the consumer. And in 
many, many cases, the consumer receives nothing for those 
charges, or receives something they didn't want, didn't know 
they were going to get. And this practice has been a problem 
for 2 decades or more, and it's really not much more or less 
than outright theft.
    In 2013, the FTC brought numerous enforcement actions then 
and since against wireless carriers, including T-Mobile and 
AT&T, for those corrupt practices, which I welcome and I've 
lauded and thank you for doing because the settlements have 
reached as high as $105 million and $90 million in refunds, 
fines, and penalties. The wireless industries and companies 
across the board should protect their consumers from these 
kinds of abuses.
    I'm hoping that you will commit that the FTC will continue 
to pursue these cases by holding both individuals and companies 
that may have aided and abetted them accountable no matter how 
insulated or big they may be.
    Commissioner Ohlhausen. Ranking Member Blumenthal, thank 
you for mentioning those cases. I have been personally very 
supportive of the FTC's cramming cases. I'm concerned about our 
ability to continue to act in that space given the Ninth 
Circuit's decision on the common carrier exemption.
    Senator Blumenthal. But given the legal ability to do so, 
will you commit to holding the aiders and abettors accountable 
to the maximum degree you can?
    Commissioner Ohlhausen. To the extent we are capable of 
doing that under our current authority, I would certainly 
commit to that. As you may recall, we've been able to reach 
certain actors, like particularly in the Western Union case, 
under our unfairness authority.
    Senator Blumenthal. Commissioner McSweeny, do you agree?
    Ms. McSweeny. Yes, I strongly agree. I think that Congress 
has from time to time seen fit to give us assisting and 
facilitating authority, for example, in the Telemarketing Sales 
Rule Act, and I think that kind of authority is very, very 
helpful in making sure that we can not just play the game, as 
you alluded to, of ``Whack-A-Mole,'' of going after fraudsters, 
but also making sure that we're holding people accountable if 
they know that they are facilitating fraud and processing those 
payments.
    Cases like the Western Union case are very, very important, 
because a huge amount of the money that was transferred out in 
the kinds of scams you've just been hearing about out of our 
country to other countries was transferred through that system. 
And so having that entity have more accountability and, in 
fact, acknowledge that they are doing a much better job 
policing their own platforms is very, very important to 
protecting consumers in the first place. So I think that's an 
important area, not just in cramming, but across all 
industries.
    Senator Blumenthal. Thank you. A lot of consumers probably 
have no idea that new car dealers are prohibited from selling 
vehicles with open recalls, but used car dealers are free to do 
so, even though the defects can be deadly, and the recalls can 
be very, very important. In fact, used car dealers can 
advertise cars with unrepaired safety recalls saying they are, 
``safe,'' or have passed ``rigorous inspection'', even if they 
have defective Takata airbags that can explode and kill them or 
maim them, and other potentially deadly defects.
    This disclosure issue is extraordinarily important. And as 
long as I am a member of this committee, I am going to continue 
working to try to close that gap in the law. I disagree with 
the FTC's proposed final orders against GM, Jim Koons, and 
Lithium Motors for their deceptive advertising actions. If you 
could tell me just very simply yes or no, in your opinion, to 
the two Commissioners, the Chairwoman and Commissioner 
McSweeny, in your opinion, is a car with an open unrepaired 
recall a safe car?
    Commissioner Ohlhausen. If it was advertised as safe, I 
would have a concern about that.
    Senator Blumenthal. If it's advertised as safe?
    Commissioner Ohlhausen. Right. If there is a claim made 
that this car is safe, then I would have a concern if it had an 
open recall without a disclosure about that.
    Senator Blumenthal. What about if it's just--if it just has 
a deadly defect? Would you call it safe without any 
advertisement?
    Commissioner Ohlhausen. I'm not sure that this--that's an 
FTC issue. I mean, I may not personally call it safe, but under 
the FTC Act, we have to look at the claims that are made.
    Senator Blumenthal. Commissioner McSweeny?
    Ms. McSweeny. I strongly share your concerns about the sale 
of used vehicles with open safety recalls. This has resulted in 
documented tragedy. We struggled, I think, with the scope of 
the FTC authority in those cases, and I strongly support your 
efforts to provide a better solution to consumers to this 
problem.
    Senator Blumenthal. Thank you both. And thank you to all 
the members of our panel. I apologize in advance. I probably 
will have to leave early because we have an ongoing 
confirmation hearing in the Judiciary Committee concerning 
Judge Gorsuch to the United States Supreme Court, so I will 
probably have to go back to that.
    But I want to thank again the Chairman of this 
Subcommittee, Senator Moran. And I also want to thank the 
Chairman of our Committee, Senator Thune, who has just arrived. 
And he has enabled us to go forward with it. It's very 
important. And I hope we can continue this work. Thank you.
    The Chairman. Senator Blumenthal, thank you very much. We 
attempted to change the hearing. We would have lost our 
witnesses, and Senator Blumenthal was agreeable to us 
proceeding despite his demanding schedule, as a Member of the 
Senate Judiciary Committee now considering a nominee to the 
U.S. Supreme Court. I think you made that point, didn't you?
    We are honored to have the Full Committee Chairman join us 
today, and I now recognize Chairman Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Well, thank you, Mr. Chairman, and thank 
you, Senator Blumenthal, for having the hearing. I want to 
thank our panel, too. This is an important issue. It affects 
American consumers. And clearly consumers need protection from 
those who would seek to defraud them through scams. I think we 
can all agree the best use of the FTC's resources is to pursue 
conduct and practices that cost Americans billions of dollars 
without any benefits.
    I just wanted to highlight one example of how this sort of 
plays out in the real world. Last summer, I participated in a 
telephone town hall that was sponsored by AARP where the bulk 
of the calls focused on these kinds of scams.
    And I, for instance, heard from a constituent named Louella 
from the town of Salem, South Dakota, who had twice been the 
victim of the so-called grandparents scam. In her case, not 
only did she receive a call from someone posing as a grandchild 
who claimed to be in jail and in desperate need of bail money, 
but when she wavered, she got a follow-up call from someone 
claiming to be a police officer verifying that her grandchild 
would remain in custody until the bill was paid.
    And in her case, fortunately, she talked to her son who 
assured her that her grandkids were home safe. But it's still 
not hard to imagine the grandparent hoping to save their 
grandkids from embarrassment and legal peril by wiring money to 
such a scammer.
    And so I appreciate the subject of this hearing. It is an 
important issue that does affect people all across our country 
and across our states, and very grateful, a great panel.
    And, Senator DeWine, so nice to have you back. Welcome. 
It's good to see a former colleague. And so thank you for being 
here.
    I just want to ask one quick question because I know my 
colleague from Oklahoma I think has been waiting patiently, as 
have some of our colleagues on the other side.
    But, Mr. Abagnale, we've talked about several different 
types of scams that hurt American consumers. I guess the 
question I would have is, is there a particular scam that 
worries you the most that you would like to highlight in terms 
of the things that are out there?
    Mr. Abagnale. Obviously, I am very concerned about the 
breaches we read about literally every day without 
exaggeration, some reported, some not reported. We've had over 
a billion people have their identity stolen already. When I 
first started writing about identity theft, 750,000 victims 
filed a police report. Today, there's a victim every 2 seconds 
in the United States.
    I'm a true believer that most all breaches occur because 
somebody in that company did something they weren't supposed to 
do or somebody in that company failed to do something they were 
supposed to do, and that most of those breaches can be easily 
prevented. Again, there is social engineering that occurs, et 
cetera.
    I had a call at my home just a couple of days ago from the 
CFO of a large technology company on the West Coast, 4,000 
employees. He said that someone in bookkeeping had received an 
e-mail from the CEO saying he needed all the W-2 files on all 
the 4,000 employees e-mailed up to him. The only reason they 
found out about it a couple of days later, someone from 
bookkeeping called up to the CEO or sent an e-mail to say, ``I 
hope you got all the material you requested,'' and he said, ``I 
didn't request that.'' Four thousand employees' information is 
now on the street.
    I'm a big believer you verify. So if I was in that 
accounting department, that would be an unusual request. I 
would have got up, walked up to the CEO's office, and said, 
``Did you in fact send me this e-mail?'' or if they're out of 
state, to get in contact with them over the telephone and make 
sure I spoke to them.
    So all of these scams that we hear about, whether it be the 
grandparents scam, the sweepstakes scam, the IRS scam, is 
really that I tell people all the time, you just simply need to 
stop and verify. So if I call and I say I'm from the police 
department, it comes up on my caller ID I'm from the police 
department, I hang up the phone, I pick up the phone book, I 
don't take the number they gave me, I look up the police 
department's number in the phone book, I call the police 
department and say, ``Do you in fact have my grandson in 
custody at the police department?'' or, ``Did you make a call 
to me for his bail?''
    And that's the main message, that you prevent most of these 
crimes, just simply stop and verify, whether it's a large 
corporation, a small business, or an individual, you teach 
people that you have to check things out.
    We had 56 million phishing scams in 2016, 5,000 every 
single day of the week, 7 days a week, each day. People need to 
learn that just because an e-mail comes in, the e-mail looks 
legitimate, if it is specifying information or requesting 
information that could be devastating to the clients, to their 
customers, to their employees, they need to verify that that e-
mail is correct. Those are the things that worry me the most, 
that these breaches happen every single day, and more and more 
information is given away every single day.
    Senator Thune. Thank you. And thank you, Mr. Chairman, for 
your leadership on this issue and on our committee. And again 
thanks to the panel. My time is expired. And I'm sure you hear 
this all the time, but you really are better looking than Leo 
DiCaprio.
    [Laughter.]
    Senator Thune. Thank you.
    The Chairman. The Senator from Oklahoma, Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    All right, Mr. Abagnale, how close to reality was the 
movie?
    Mr. Abagnale. I didn't have a lot to do with the movie. I 
obviously would have preferred not to have a movie made about 
my life. As you know, I raised my three sons in Oklahoma to 
keep them away from just that, even though I officed here in 
D.C., and commuted back and forth. I saw you on the plane all 
the time with your lovely wife. However, I thought that he did 
a very good job of telling the story.
    As he said many times, he loved the redemption side of the 
story. He had owned the rights for more than 20 years. He 
bought the rights back when he was making the movie with the 
shark, Jaws, and when Barbara Walters asked him why he waited 
so long to make the movie, he said, ``I waited to see what 
Frank Abagnale did with his life before I immortalized him on 
film.'' And so in the end, I think he was very much into the 
redemption side of the story, and I was probably very fortunate 
that it was he who told the story.
    Senator Inhofe. Yes. Well, thank you. You know, back in 
your scamming days, if there is any truth to the story, you 
were always one step ahead. You knew where to go if the old 
technology wasn't used, working, you would try something else. 
As you apply that background to what's out there now, you 
mentioned in your opening statement that there are things that 
shift around for a while, the technology we'll be working on, 
maybe the grandparents. What do you see in the future now as a 
prospect for scamming in the future that is not there now?
    Mr. Abagnale. Well, you know, up until this--up until 
present day, cyber crime, for example, is all about money and 
getting information. I'm very concerned that cyber crime in the 
next few years is going to turn very black. So we have the 
ability now to shut someone's pacemaker off, but we have to be 
within 35 feet of that individual to shut that pacemaker off or 
speed it up. We have the ability to get within 35 feet of an 
automobile, shut off the car, turn on the airbags, lock the 
person in the vehicle. Again, we need to be within 35 feet. I 
believe that within the next 5 years you'll be able to do that 
from 5,000 miles away.
    So I am very concerned about our infrastructure. I'm very 
concerned about our electrical grid. These are the things that 
I think eventually cyber crime will come to be more of a 
terrorist tool and more of as a tool to eliminate individuals, 
and that's when it will get very, very scary.
    Senator Inhofe. Yes, and that is scary. It happens that the 
one sitting to your right is an old friend of mine from the 
House, and the two of us know more about grandkids than anybody 
else probably in this room, and he forgot to introduce his 
wife. So I'll introduce her.
    Fran, hold your hand up.
    All right. Mr. Schwanke, I was fascinated, first of all, 
that was the worst wildfire in the history of Oklahoma and 
Kansas. And I got in my little plane last week and went up to 
Woodward. And then yesterday I was in Buffalo, Oklahoma, and we 
had over 300 farmers and ranchers, half of them were from 
Kansas. And not one time in those meetings did it come up that 
anyone was scammed. And you mentioned that scamming was 
something that's fairly common. Explain how it worked. I need 
this to take back to----
    Mr. Schwanke. What they were doing was they were calling 
these victims and calling that area with those victims in it 
offering Federal grant money. So you would have thought----
    Senator Inhofe. Well, pause right there. How would they 
expect money to be wired to them because--procedurally, how 
would that work?
    Mr. Schwanke. I don't know how they were going to get the 
money, and I don't think that we had anyone fall for it in that 
area because it was reported.
    Senator Inhofe. Oh.
    Mr. Schwanke. But they were asking for that money. You 
would have had to have paid--you would have had to have paid an 
application fee in order to receive this free Federal grant 
money for rebuilding after the fires.
    Senator Inhofe. Yes, that's really, because that's such a 
cruel thing. I mean, Mr. Abagnale, they were telling stories 
about how they were watching their livestock burn alive during 
this thing. It was really a tragedy, and that hasn't come up as 
an issue in the meetings that we had. So I'll maybe talk to you 
afterwards. And I want to visit with them out there because I'm 
sure if it was happening--it was taking place.
    Mr. Schwanke. Well, and I want to give a lot of credit. 
That's an example where local law enforcement stepped out so 
quickly on it. In these scams, you can't wait on something like 
that a week or 2 weeks. They stepped out that day, called a 
news conference, and talked about it. So they were able to get 
that information out quickly, both through the news, but also 
the incredible tool that we have in social media, and it passed 
around very quickly.
    Senator Inhofe. Yes. General DeWine, I remember so well 
recently, and you would have no way of knowing this, but OG&E, 
that's in Oklahoma, Oklahoma Gas and Electric, they had their 
representatives make phone calls to customers and get them to 
make payments to the scammers. Is this something that has 
happened other places where utilities and this type of group 
out there would be involved in scamming?
    Mr. DeWine. Senator, I'm not--I don't have any specific 
recollection that we had one of those cases. You know, most of 
these cases come down to some representation to you that you're 
going to get something, you, the consumer are going to get 
something, and it's usually, as we tell people, if it sounds 
too good to be true, it probably is not true. But they all kind 
of follow that, you're going to get something, and to get 
something, we'll send you a check, but you have to send us a 
check type thing. And it could be the attorneys' fees or the 
cost of handling or something.
    Senator Inhofe. Yes, well, maybe it's just particularly of 
concern in Oklahoma, but it did lead off into a lot of scams 
that were taking place just through that company.
    Thank you, Mr. Chairman.
    The Chairman. Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Moran. And I 
also want to thank the panel and the witnesses today. I think 
this has been excellent. And clearly this is a critical issue 
for the American public.
    As State Attorney General in New Mexico, we brought many 
consumer protection cases in the areas that you all are talking 
about. One of them in particular was fraudulent telemarketers; 
we fought hard against them. These predators often targeted 
senior citizens. State Attorneys General were one of the key 
forces behind passing a Federal law that allows states to 
prosecute telemarketers who cross state lines, which I'm sure, 
Attorney General DeWine, you're familiar with.
    Technology evolves and con artists adapt and deploy new 
techniques. Scammers also seem to quickly find ways to abuse 
Internet technologies. One example is credit card skimming.
    Chairwoman Ohlhausen, drivers in Albuquerque have had their 
credit cards compromised after purchasing gas at a pump. Local 
TV stations KRQE and KOB have reported that Albuquerque police 
believe 22 credit card skimmers were recently installed at gas 
station pumps across the city. These skimmers are hidden and 
can be especially hard to spot if you're in a hurry to fill up 
your car with gas. And other skimmers are more sophisticated 
and read credit card information wirelessly, so you can just 
put them in a backpack, and I think there are pictures of those 
in front of you, both the first photo and the second photo, so: 
skimmers at a gas pump, and then the second one is a kind of 
skimmer that can get things wirelessly.
    A Russian company sells this type of skimmer, the wireless 
one, and gives directions on how to steal credit card 
information. The Russian seller's website recommends targeting 
restaurants by hiding the skimmer in a backpack or in a car 
parked outside. This skimmer will, quote and they say in their 
advertisement ``automatically connect to the network, can do 
all the job for you. You could probably get up to 20 card 
details from one restaurant depending on how busy the 
restaurant is.''
    The FTC previously issued a warning to Americans traveling 
abroad to be alert for card skimmers at ATMs and gas stations, 
but these scams are now happening in New Mexico and across the 
Nation.
    And so, Madam Chair, what action will the FTC take to help 
stop credit card skimming scams at the gas pump?
    Commissioner Ohlhausen. Senator, thank you very much for 
your question. You raise a very important issue. In fact, it is 
happening across the country. And just locally recently WTOP 
reported that it was happening in Arlington, Virginia. And it 
is a problem, and we have issued consumer education for 
consumers, to tell them to be alert for things where it looks 
like it has been affixed overtop the regular card reader. And 
we give consumers advice about covering up with their hand as 
they're putting in their PIN number. I certainly hope that as 
credit cards move toward the PIN and chip technology, that 
might help reduce the issue.
    Now, you also raised the point about the websites selling 
this. I will certainly look into it. It's possible that it 
could be reached under our unfairness authority. We have a 
three-part unfairness test. But one of the challenges is when 
things are sold abroad, it can be difficult sometimes for us to 
get authority over a foreign seller, but we can certainly see 
what we can find out.
    Senator Udall. Well, we hope you will work with the state 
attorney generals to try to shut these operations down.
    Commissioner Ohlhausen. Certainly.
    Senator Udall. Now, for years, as you know, I've urged the 
FTC to take action against false marketing of so-called ``anti-
concussion sports equipment.'' These false claims put children 
at greater risk of brain injury. And these false claims can put 
responsible companies at a competitive disadvantage. And 
tomorrow, in fact, is Brain Injury Awareness Day, and there is 
much greater awareness these days that concussions are a form 
of brain injury and should be treated seriously. So I was 
disappointed by President Trump's tough guy comments at a 
campaign rally last year after an audience member fainted and 
then returned to the crowd, and he compared her favorably to an 
NFL player who sit on the bench after suffering a concussion. 
And Trump used to own his own professional football team, and 
he said, and I quote, These new and very much softer NFL rules, 
concussion, oh, oh, got to get a little ding on the head, no, 
no, you can't play for the rest of the season, our people are 
tough. That's the end of his quote. The President said that, 
I'm sure, for a laugh, but chronic traumatic encephalopathy, or 
CTE, and other forms of brain injury are no joke.
    So, Madam Chair, are you aware that these current state 
laws and Federal health guidelines from the Centers for Disease 
Control recommend that athletes should not return to play 
immediately after a concussion?
    Commissioner Ohlhausen. Senator, you raise a very, very 
important issue, and one that I care about deeply. I actually 
have four children, and two of them did suffer concussions 
playing sports. So I appreciate the attention that you've 
brought to this.
    And at the FTC, we have brought enforcement actions in this 
case, the brain guard case. We've had consumer ed. I will 
continue to pay close attention to this issue. And I was also 
pleased to see that the university is doing a study about the 
possibility of the concussions in the soccer--the sport of 
soccer. So we will definitely continue to pay attention to this 
issue.
    Senator Udall. Yes. Thank you for that answer. Thank you 
for the courtesies. I know I ran over a little bit.
    Thank you, Mr. Chairman.
    The Chairman. You're welcome, Senator Udall.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman. And I 
apologize, I have dualing committees going on, so I just had to 
run over real quick.
    First of all, let me say to my colleague, General DeWine, 
it's good to see you.
    Mr. DeWine. Good to see you.
    Senator Cortez Masto. Had some important work we did 
together, and I thank you for continuing that work down the 
path of consumer protection.
    And then, Mr. Schwanke, it's important what you do. We have 
a station in Nevada, KTNV, that does similar work to protect 
consumers and bring education and awareness, which I think is 
one of the most important pieces protecting consumers, that 
education and awareness piece, and it's the first step in 
prevention. So thank you for what you do.
    I appreciate all the panelists here today.
    And to the FTC, great partners of mine when I was Attorney 
General in the state of Nevada. Thank you for all of that hard 
work, because I do believe, as Chairwoman Ohlhausen has said, 
that the FTC is the primary consumer protection agency, so are 
the AGs, and when we have a partnership together, that is the 
most important thing. And so that's where I would like to 
start.
    And I really want to talk about and kind of get your 
position, Dr.--or excuse me, Chairwoman Ohlhausen, on your 
vision for the FTC. In your statement, upon your appointment as 
Acting Chair of the FTC, you stated, ``I'm deeply honored that 
President Trump has asked me to serve as Acting Chairman of the 
FTC, and to preserve America's true engine of prosperity, a 
free, honest, and competitive marketplace.'' And then on 
January 24, 2017, at the Heritage Foundation, you said, 
``Although well-intentioned, the majority Commission, under 
President Obama, at times pursued an antitrust agenda that 
disregarded sound economics. It imposed unnecessary costs on 
businesses and substituted rigorous analysis of competitive 
effects for conclusory assertions of unfair competition.''
    With that said, I will tell you during that period of time, 
the FTC, they were wonderful partners of ours in the state of 
Nevada when we were addressing anticompetitive conditions in 
the marketplace that were there--we were there fighting to 
protect consumers.
    So I'm curious, exactly which policies do you believe the 
Obama administration pursued that disregarded sound economics? 
And can you elaborate on that for me?
    Commissioner Ohlhausen. Certainly. So in those remarks, I 
was talking about the FTC's antitrust enforcement. For the most 
part, I supported it, I voted in favor of most of our 
enforcement, particularly in the pharmaceutical space, hospital 
mergers, challenging a wide variety of mergers. But there were 
a few cases that I didn't support, and I filed dissents in 
those because I didn't think that on balance they would make 
consumers better off, and I didn't believe that the economic 
evidence supported finding an anticompetitive impact from that 
behavior that was being challenged.
    Senator Cortez Masto. OK. So can you commit that there 
won't be a rollback of antitrust protections intended to 
protect consumers?
    Commissioner Ohlhausen. I think that all of our antitrust 
enforcement definitely should protect consumers. I certainly 
wouldn't want to forego any enforcement that I think has 
accurately shown there is a likely impact on consumers, an 
anticompetitive effect. And I've generally been very supportive 
of antitrust enforcement in those areas, or I would say 
hospital mergers, pharmaceuticals, mergers that raise 
problematic overlaps.
    Senator Cortez Masto. And have you spoken to the President 
or anyone else in the White House about your antitrust views?
    Commissioner Ohlhausen. I have not spoken to the President. 
I have spoken to members of the White House staff.
    Senator Cortez Masto. OK. So to both commissioners, while 
I'm aware that the FTC's authority does not specifically extend 
exclusively to banks, savings and loans, and Federal credit 
unions, you do work in concert with the CFPB. They were great 
partners of ours in the state of Nevada, as attorney general. 
How would you rate that cooperation in the CFPB's ability to 
protect consumers?
    Commissioner Ohlhausen. So we--once the CFPB was created, 
we reached a Memorandum of Understanding with the CFPB so that 
there weren't inappropriate overlaps or burdensome overlaps, 
and we used our resources effectively. So I believe that we 
worked well with the CFPB. They worked in their area, and the 
FTC continued to operate in the areas that Congress left to us.
    Senator Cortez Masto. And do you think there is a good 
working relationship between the two of you in respecting those 
boundaries and then working together when necessary for 
consumer protection?
    Commissioner Ohlhausen. I have not been aware of any 
problems with our relationship with the CFPB pursuant to the 
MOU.
    Senator Cortez Masto. OK. Thank you. And then to General 
DeWine. We have talked about this several times amongst our 
colleagues. But given the growing aging population, and you 
brought it up as well as constantly evolving technology that's 
out there that you talked about, that we know that makes scams 
easier to perpetrate, what additional resources or innovations 
does law enforcement need to keep up with the financial threats 
posed to seniors?
    Mr. DeWine. Senator, I think that the biggest challenge is 
lack of resources and prioritizing. We have been successful in 
the Attorney General's Office in helping local law enforcement. 
Ohio has a very local law enforcement; we're county by county, 
88 counties. And where we have been able to be successful I 
think is when we've been able to see a pattern of crime that 
goes from county to county to county, and we get involved, and 
then we work with local law enforcement.
    So I think it is, frankly, if there is one thing that is 
needed, it's just more of that, more of that not only at the 
state level and the local level, but also with our partners at 
the Federal level. We work very closely every day with the DEA, 
with the FBI, other Federal agencies, but, again, as has been 
pointed out many times, when you have these cases that start, 
they're on the Internet, some scammer may be sitting in halfway 
around the world, it's a rare case, frankly, that we're going 
to be able to be successful, and, quite candidly, I think what 
I would like to see is the Federal Government prioritize, we 
understand they can't take every case, make some examples. It 
would be good just to have some high-profile cases where they 
say, ``We're going to go do what has to be done.'' Because 
these scammers by and large are sitting offshore, and they 
don't feel any heat.
    Senator Cortez Masto. Right.
    Mr. DeWine. They don't feel any heat at all. So I think--I 
understand the lack of resources and prioritizing, and so maybe 
if we could do some of those cases for--you know, to make an 
example of them.
    Senator Cortez Masto. Thank you.
    Mr. Chair, I see my time is up. Thank you for your 
indulgence. And thank you to the panelists.
    And, Mr. Abagnale, thank you for coming forward with your 
insight and helping those of us to protect consumers. I 
appreciate it.
    Mr. Abagnale. Thank you.
    The Chairman. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair. And I'll add my 
thanks to all of the panelists. Thank you for being here today 
on this really important topic. And I just wanted to follow up 
on something my colleague just talked to you all about because 
your testimony and certainly the experience of our constituents 
makes clear that our consumers are facing threats from bad 
actors pretty much across the board. We have Federal entities 
in place in addition to the FTC, the CFPB, which Senator Cortez 
Masto just referenced, the FCC.
    So can you just--to the two commissioners here, can you 
talk a little bit about what you're doing to make sure that 
there is excellent communication and coordination across the 
Federal Government on behalf of consumers? Are there any things 
in addition to what you're already doing that are particular 
challenges or you need help with?
    Commissioner Ohlhausen. So we do work closely with our 
Federal partners across the government, and we also as well as 
working with the states as much as possible. So we do a 
Memorandum of Understanding with a variety of Federal agencies. 
I mentioned CFPB. We have the FCC. We have the FDA. We 
participate in task forces. We're a part of the Robocall Strike 
Force Task Force and the Identity Theft Task Force, so we do 
try to leverage our resources and work cooperatively.
    Senator Hassan. Thank you.
    Commissioner?
    Ms. McSweeny. I would just add that I think your point 
really underscores the need for strong consumer protection 
enforcement agencies to collaborate in order to make sure that 
we can adequately protect consumers in this environment. We 
really don't see the threat to consumers or the marketplace 
diminishing, in fact, we see it increasing, and so what we need 
to make sure we're doing is all using the tools that we have to 
do the best job that can do, and I think the FTC has been 
working hard to do that and will continue to do that, but we 
need to make sure that we have strong partners at the Federal 
level, at the state level, and in the business community as 
well.
    Senator Hassan. Thank you. And it has been part of my 
experience, as a Governor, that with all of this kind of law 
enforcement challenge, communication at all levels is just 
really, really important. So I appreciate your efforts.
    This is a question for the entire panel. Mr. Abagnale today 
discussed how much easier it is to commit the kind of fraud you 
did as a teenager because of the proliferation now of new 
technologies, and to be sure, technology has played a 
tremendous role in enabling nefarious actors to commit schemes 
and to prey on innocent Americans.
    So the question to all of you is technology is clearly part 
of the problem. Can it be part of the solution? And what should 
we be looking for it to do? Are state and Federal entities 
investing in the right kind of research and new technology that 
can help us prevent scams or identify them earlier? And can 
businesses help government do this?
    Go right ahead, Mr. Abagnale.
    Mr. Abagnale. I would just say absolutely. Technology can 
be used to fight crime. For example, as you know, a year ago 
the IRS paid out $5.8 billion in refunds to individuals who 
used someone else's Social Security number. A simple technology 
that exists today and used by American corporations and banks 
every day in fraud detection would have prevented probably 70 
percent of those payments being made. So the question is we 
have the technology, but it has to be used and it has to be 
implemented.
    I work on retainer to LexisNexis on government risk 
solutions; have for years. I work on retainer to Experian, and 
they operate in 80 countries around the world. Obviously, I 
know the technology exists; I know we use it in the commercial 
marketplace. So yes, you can prevent a lot of these things from 
occurring by simply using the right technology to do so, but 
you have to be willing to spend the money and take the time and 
effort to do so.
    Senator Hassan. Right. Thank you.
    Anyone else want to add?
    Ms. McSweeny. I would just add one of the other ways we try 
to do that is by using our authority to run competitions to 
create new and innovative solutions to consumers. So in the 
past, we have used the authority to create apps that help 
consumers block unwanted calls, for example. Now we're using it 
to create new tools to help consumers secure their home 
Internet of Things technology. And that kind of entrepreneurial 
creative use of authorities can really spur innovation in the 
marketplace as well.
    Senator Hassan. Thank you.
    And, Commissioner, do you have anything?
    Commissioner Ohlhausen. Yes. I just wanted to mention we at 
the FTC have tried to stay up-to-date on these things. We have 
an OTech, an Office of Technology, in our Bureau of Consumer 
Protection, and we also have a chief technologist at the 
agency.
    Senator Hassan. Thank you very much. And, again----
    Mr. DeWine. Senator, very, very quickly.
    Senator Hassan. Yes.
    Mr. DeWine. As I've traveled around the state, a lot of 
business people have been saying to me, ``What are you doing 
about identity theft and other problems?''
    Senator Hassan. Right.
    Mr. DeWine. And, quite frankly, I went back to my office 
and I said I'm not sure really what we're doing.
    Senator Hassan. Right.
    Mr. DeWine. So what we have done is reached out to 
businesses and asked them to give us their best people 
literally to put on a group to start working on these issues. 
They're going to be coming out with a report fairly quickly. 
Our concern is not the big companies, they have the resources 
to do it, but the vast majority of companies in Ohio are small 
and frankly don't have the resources. So what we hope to do by 
getting people loaned frankly to us--and we've been very, very 
pleased with the quality of people the companies have given us, 
we think we're going to come up with some recommendations, 
maybe some legislation, best practices, that will help small 
business.
    Senator Hassan. Great. Thank you very much. Thank you all.
    Thank you, Mr. Chair.
    The Chairman. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chair, and 
thank you to the Ranking Member as well for this important 
hearing. I apologize I was late. I was over at the Judiciary 
hearing, and I was telling Senator Moran I would use the very 
same tone and start asking you guys about things you wrote 10 
years ago.
    [Laughter.]
    Senator Klobuchar. So many of the witnesses today have 
highlighted the growing problem of senior fraud. I introduced 
the Senior Fraud Prevention Act with Senator Susan Collins, the 
Chair of the Senate Committee on Aging, to help the FTC more 
effectively combat senior fraud. The bill was passed by this 
committee in January. Chairman, thank you for being here. One 
provision of the bill would establish an office within the 
Bureau of Consumer Protection focused on senior fraud. Have 
efforts to provide specialized resources for other targeted 
groups, like Spanish speakers, military consumers, and small 
businesses been successful?
    Commissioner Ohlhausen. Thank you, Senator. We are very 
pleased to say that we also share your interest in focusing on 
fraud against seniors. We've developed a lot of consumer ed and 
help for seniors in that area, we are doing the same for 
military, we have Military.Consumer.gov, and also for Spanish 
speakers. We think there are certain populations that might 
have particular needs, particular interests, and we want to 
reach out to them.
    Senator Klobuchar. Very good. Thank you.
    Attorney General DeWine, thank you for being here. I wanted 
to hear more about your elder justice initiative. I actually 
embarked on such a thing when I was county attorney in 
Minnesota. And just one little aside, right after I announced 
it, 5 days later we started to prosecute an 88-year-old who had 
shot her boyfriend in the back, he survived, because she was 
mad he was dating someone else. And so people that were her 
friends accused me of that was my senior initiative. Of course, 
it was designed to help seniors. Could you talk about what 
you've done?
    Mr. DeWine. Well, thank you, Senator, very much. As you 
know, and the members of the Committee know, a lot of these 
scams are targeted specifically at elderly. And I think it has 
been this way forever. You know, there's a reason that mature 
neighborhoods are targeted that have the older trees and the 
older citizens, for the tree scams, where they roll in and tell 
you that your tree is about to fall on your house. They're 
doing it also more sophisticated now, of course, and that is 
through the Internet.
    What we have done in the Attorney General's Office is we 
have put together people from different parts of our office to 
really be kind of a strike force to respond when local law 
enforcement has a consumer instance where there has been elder 
abuse. Elder abuse, as you know, can be financial, it can be 
physical, and it also can be psychological. And what we find is 
that particularly the smaller jurisdictions simply do not have 
the resources to go after this, and sometimes it can take----
    Senator Klobuchar. Then you're helping the smaller 
jurisdictions?
    Mr. DeWine. We're helping the smaller jurisdictions, so we 
can bring forensic accountants in, for example, if we're 
dealing with something having to do with fraud, money fraud. As 
I indicated, Ohio is a very local government state, and we like 
it that way, but what happens sometimes is the local 
jurisdiction just does not have the resources.
    Senator Klobuchar. OK.
    Mr. DeWine. The other thing that we really have tried to 
put an emphasis on is getting cooperation from the banks and 
other people who are dealing with the seniors on issues of 
money, and to inform them, educate them, that they can really 
be an advocate and stop some of this stuff right there.
    Senator Klobuchar. OK. Thank you.
    Madam Chair, one last question along that issue of money 
and deception. I'm Chair with Senator Blunt of the Travel 
Caucus, Tourism Caucus, and one of the trends that we've seen 
to threaten this huge industry, of course, which has so many 
jobs in our country, and certainly as Senator Cortez Masto 
knows, is the rise of deceptive online companies that imitate 
the websites of actual hotels or airlines in order to attract 
bookings. These fraudulent websites can leave consumers with 
airline itineraries or reservations that have errors and they 
can't be honored. That's why Senator Fischer and I wrote to the 
FTC to ask you guys to investigate the matter, and why Senator 
Daines and Nelson and I introduced the Stop Online Booking 
Scams Act. What actions has the FTC taken in this area?
    Commissioner Ohlhausen. Senator, I am aware of your letter 
and appreciate you bringing that to the FTC's attention. This 
is an important issue. We're always concerned about deception 
for consumers. I can't comment on whether we have any 
investigations ongoing, but we have looked into the issue and 
we've also issued consumer education on this.
    Senator Klobuchar. OK. Very good. Thank you. I am now 
returning because my colleague, Senator Franken, is asking his 
questions, which would almost be as exciting as yours, 
Catherine. So thank you, everyone. Thank you.
    The Chairman. We'll take a pause just for--right there, 
that length of time. We won't take a pause any longer, although 
when he returns, I'll be glad to--oh, he's here. The Chair 
recognizes Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. I apologize. I thought I was----
    The Chairman. Senator Klobuchar was briefer than normal.
    [Laughter.]
    Senator Markey. Thank you. Commissioner McSweeny, last year 
the FCC wisely adopted broadband privacy rules that put 
consumers in control of their sensitive information, but now 
the broadband industry and their allies are fighting to strip 
away the fundamental privacy protections under the guise of 
harmonization of regulations. We could vote this week on a 
Congressional Review Act resolution rescinding these rules. 
When the industry says ``harmonization,'' they really mean 
self-regulation.
    Commissioner McSweeny, in a recent op-ed, you stated that 
efforts to rescind the broadband privacy rules through the CRA 
process will not actually harmonize regulations, but create a, 
quote, yawning chasm where broadband and cable companies have 
no discernable regulation. Could you explain?
    Ms. McSweeny. Thank you, Senator, for the question. The 
point that I'm trying to make is that both the FTC and the FCC 
have an important role to play in making sure that people have 
choices and control over their sensitive personal information. 
And in the always-on, always-connected environment that we now 
live, those choices are even more important than ever. 
Something like 91 percent of American consumers feel they have 
lost control of their data. So rather than rolling back rules 
that simply guarantee that they get a choice, we should be 
doing everything in our best efforts both at the FTC and at the 
FCC and other parts of the government to protect those choices 
and guarantee them.
    Senator Markey. So should we be allowing broadband 
companies to collect, to use, to sell sensitive information 
about subscribers' health, finances, and children without first 
getting consent from those families?
    Ms. McSweeny. Well, the FTC's perspective over 20 years of 
protecting consumer privacy----
    Senator Markey. No, I'm talking about the Federal 
Communications Commission.
    Ms. McSweeny. Right. And----
    Senator Markey. Those rules should stay on the books.
    Ms. McSweeny. I strongly support those rules because they 
are consistent with what the FTC has required, which is choices 
be offered to people before their sensitive information is 
used.
    Senator Markey. Thank you. A last-minute provision in the 
2015 budget deal makes it easier for government debt collectors 
to harness tens of millions of consumers on their mobile 
phones. And last summer, the Federal Communications Commission, 
in response to a Supreme Court ruling, exempted the entire 
Federal Government and its contractors for key robocall 
protections.
    This carve-out for government robocallers coincides with a 
rise in tax and debt collection scams where criminals posing as 
IRS agents and debt collectors call innocent Americans telling 
them they must promptly wire them money or be subject to 
arrest, deportation, or revocation of driver licenses. 
Americans have lost millions of dollars because of these scams.
    A provision in the 2015 Surface Transportation Bill 
actually encourages the IRS to hire private debt collectors to 
collect certain unpaid taxes, private tax collectors that can 
now robocall and robotext consumers without their consent. I'm 
concerned that consumers could find it even more difficult to 
detect fraudulent calls because of these recent actions.
    Commissioner McSweeny, Commissioner Ohlhausen, do you agree 
with me, that there should be much concern about this change in 
law?
    Commissioner Ohlhausen. Senator, when the FCC proposed a 
Notice of Proposed Rulemaking about government debt collection, 
the FTC's Bureau of Consumer Protection did file a comment 
raising some concerns. And when the FCC adopted the final rule, 
they did adopt several of the recommendations that the FTC 
staff had included, that things such as limiting the duration 
of the call, excluding any calls from that coverage that would 
have any marketing, requiring callers to affirmatively inform 
debtors of their right to make the request to stop calls. So I 
did share those concerns, and I was pleased to see that the FCC 
took those into account in the final rule.
    As for the IRS plan to use private debt collector 
contractors, I think it will raise an additional informational 
challenge and educational challenge for the FTC as they tell 
consumers how to be wary of imposter scams.
    Ms. McSweeny. I would just add I agree. I think consumer 
confusion here is a very strong possibility, and that could be 
problematic, and that our second most prevalent complaint is 
bad debt collection practices, and to the extent that we have 
debt collection occurring, we need to make sure that rules are 
followed that protect consumers' interests in those 
proceedings.
    Senator Markey. Thank you. And earlier this month, Senator 
Lee, from Utah, and I introduced the bipartisan HANGUP Act, the 
Help Americans Never Get Unwanted Phone Calls Act. The bill 
closes these loopholes and ensures that consumers do not 
receive unwanted robocalls and robotexts from Federal 
Government contractors without consent.
    Last year, the FTC received over 5 million complaints about 
unwanted calls. In light of this high volume of consumer 
complaints, would you support our legislation, Senator Lee and 
I--the HANGUP Act?
    Commissioner Ohlhausen. Senator, I haven't seen the Act. I 
would certainly be happy to take a look at it, and I share the 
goals of that Act. I am concerned about consumer complaints, 
and it's something we have paid close attention to at the FTC 
over the years.
    Senator Markey. Commissioner McSweeny?
    Ms. McSweeny. I agree.
    Senator Markey. OK. Thank you.
    I am the original House author of the Telephone Consumer 
Protection Act. And I'm going to oppose anything that 
undermines these fundamental protections, which people want in 
their homes from unwanted invasions of their privacy and 
compromise of information that is sensitive to their families.
    So I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    I have just a couple of wrap-up things. Maybe we can get 
this concluded quickly. It's terribly warm in here. But you all 
never took your coats off, so I left mine on.
    Mr. Abagnale, is there any level of cooperation between 
those protecting consumers here in the United States and those 
abroad? What we heard today was a lot of things are beyond our 
reach, and what you indicated was the best opportunity we have 
is to prevent through education and consumer awareness and the 
actual enforcement, the ability to--the Attorney General said 
something very similar, the actual ability to prosecute, to put 
somebody out of business, or to get the funds restored is 
pretty limited, and I assume in part that's because we no 
longer know the person who is perpetrating the fraud. I would 
guess in most instances there is no, any longer, any 
relationship between the victim and the perpetrator. Is that 
true?
    Mr. Abagnale. That's true. And I think that there are, of 
course, some countries that we're able to have cooperation with 
and be able to use enforcement tools to stop those individuals 
or arrest those individuals, but when you look at most of these 
scams that come over the phone, they're coming out of China, 
they're coming out of India, they're coming out of Russia. We 
have gangs in Russia that bring in about $20 billion a year 
annually from these types of scams and crimes that are 
committed by these gangs, and there aren't a lot of American 
companies that make $20 billion a year tax-free in that case.
    So I think there are some countries that we can work with. 
When I get calls--and what I wanted to comment on earlier is 
when people ask me, ``I've been a victim. Where is the best 
place for me to call?'' I always tell them the Attorney General 
of their state and to the office of their consumer protection. 
They're the ones who really do the most about these things. 
They're the ones who have the tools to help with those 
problems. So I always direct them there first.
    Unfortunately, the FBI, as you know, has only 13,000 
agents, and obviously those agents are dealing with kidnappings 
and counterintelligence items and things of that nature, so 
those crimes get to where there is a dollar amount has to 
exceed that amount before there is an investigation, and the 
U.S. Attorney only prosecutes when it exceeds a certain dollar 
amount. And I understand why that is done.
    So it's best to probably try to deal with those things on 
the local level with the Attorney General and then get the 
cooperation when we know that someone might be out of state or 
somewhere we need Federal law enforcement to help investigate 
or apprehend that individual.
    The Chairman. Are there any successful instances in which 
the Internet provider or the phone carrier or the company has 
acted in a way that then shuts down or prevents additional 
fraud?
    Mr. Abagnale. Well, what happens, if the phone company was 
to shut down a phone number tomorrow, it's just a throw-away 
cell phone, so they just have hundreds and hundreds of phones, 
and so a new number is a couple of seconds away, so it's very 
difficult to do that.
    I would encourage, again, there probably is ability with 
technology to--phone companies could use to track a lot of 
those calls and then stop those calls from coming into an 
individual number, but I don't know that there is anyone really 
doing that at this time.
    The Chairman. From an FTC point of view, where are you in 
the FY18 budget request? Anything transpiring in regard to what 
request the administration will make for your agency?
    Commissioner Ohlhausen. So we weren't mentioned 
specifically in the President's, quote, skinny budget, so we're 
still waiting to see exactly how we'll be treated.
    The Chairman. And let me ask while I'm visiting with you, 
Madam Chairman, it was mentioned earlier in Senator 
Blumenthal's opening statement about the BOTS Act, that this 
subcommittee and full committee passed and was signed into law 
by the President, designed to rid us of the so-called ticket 
BOTS, who automatically have the ability to corner the market.
    Commissioner Ohlhausen. Yes.
    The Chairman. What's the status of--any complaints, any 
inquiries made to the FTC, in regard to that law?
    Commissioner Ohlhausen. So I commend you for passing the 
Act. And we are currently talking to people and finding out if 
there are complaints that we can act upon.
    The Chairman. So nothing at this point. I mean, give me a 
little more detail of what that means.
    Commissioner Ohlhausen. So our staff is reaching out to 
other entities, other enforcers, finding out if there are 
violations of the Act ongoing and how we would track them down, 
finding out if there are consumer complaints, and using our 
usual tools to investigate whether there is a violation that we 
could pursue.
    The Chairman. Attorney General, that legislation also 
allows for state enforcement. And I would highlight that 
legislation for you, and maybe you're aware of it, but the 
opportunity to try to rid us of those automatic acquisition of 
tickets then sold to, I don't know, Buckeye games or something 
that may be popular. Are you aware of that?
    Mr. DeWine. No. I'll take a look at that. Thank you, Mr. 
Chairman, very much.
    The Chairman. Thank you very much.
    Mr. Abagnale, tell me a bit, I'll give you a chance to talk 
about perhaps your sponsor or your host, the AARP. So what is 
it that I can do with Kansans with AARP to further highlight 
how to avoid being scammed?
    Mr. Abagnale. You know, it's interesting, I have spent most 
of my career dealing with crimes against businesses, business-
to-business crimes, but I was well aware of all these consumer 
issues. Most of my time has been spent dealing with those 
crimes. A few years ago, AARP contacted me and asked me if I 
would work with them in helping educate their members and non-
members about these scams that are being perpetrated, how 
they're done, and how to prevent them.
    I found toward the end of my career that this would be 
something really worthwhile for me to do and spend my time 
helping consumers instead of just businesses deal with crime. 
And it has been absolutely amazing. Over the last few years, I 
have talked to people who have lost their life savings, 80 
years old, they've lost their home, they lost their car, due to 
some scam.
    But I have found that the reach of the Fraud Watch Network 
to over 50 million people, the ability for me to go out and get 
on a phone and speak to 15,000 people on one phone call and 
reach those people and answer those questions, and when I do go 
out and do a presentation somewhere, the AARP does not allow 
for the sale of any items, they do not allow the promotion of 
their company, and they allow anyone to attend. So you don't 
need to be an AARP member.
    And we're amazed that when we sit there watching the people 
come in, and we get crowds of 1,500-2,000 people, we notice 
that a lot of them are people in their twenties and in their 
thirties, and then married couples that are very young, and we 
ask them later why they came, and they say, ``Because I'm 
concerned about my identity being stolen, and I'm concerned 
about my information being taken or being scammed myself.''
    So it has been a great way to reach people, and I will 
continue to do so this year to reach consumers en masse and be 
able to help them understand these issues and how to help 
protect themself.
    I would like to add one thing that I didn't get to comment 
on earlier. I am very concerned about children's identities. If 
you are selling an identity on the black market today, and you 
told me in Envelope A I have a 62-year-old male who is a multi-
millionaire, owns hotels, restaurants, office buildings, 
shopping malls, and I'll sell you his identity complete, or I 
will sell you the identity of a 12-year-old that's in junior 
high school and has no credit or any assets, I would take the 
12-year-old. And the reason for that is that if I can become 
that 2-year-old, that 5-year-old, that 12-year-old, I can 
become that person for a long period of time before that person 
will ever realize I stole their identity.
    So when I was a child, you didn't get your Social Security 
number until you got a job, so you were 16, 17 years old, only 
three people knew it--the government, your employer, and you. 
Today, you don't leave the hospital without that number, and if 
I can get that number as that child leaves that hospital or 
shortly thereafter, that means I have 18 years of reselling, 
reusing that identity of that child before anyone else would 
know that. So I think we need to start paying a little more 
attention. It's not just the elderly, but it is also children's 
identities that are very much at risk, and we need to be able 
to try to come up with some solutions for helping those 
individuals.
    The Chairman. There are increasing examples of fraud 
against Federal agencies and departments. Anybody have any feel 
for what that's like? And are there departments that are taking 
the necessary steps to prevent that?
    Mr. Abagnale. That's my area, and it's quite amazing. I 
used to tell people that I worked in the millions, but I only 
work in the billions now. So last year, Medicare and Medicaid 
paid out $100 billion in fraudulent claims, that was 10 percent 
of their combined budget. So we mentioned earlier the IRS paid 
out $5.8 billion in fraudulent tax returns that people filed 
using someone else's name, $7.7 billion in fraud from 
unemployment fraud, and almost $10 billion in fraud from food 
stamp fraud.
    This is billions and billions of dollars that in many cases 
leaves our country because it's being stolen and benefits 
collected from people who are not even citizens or in this 
country. And what bothers me most about that is we have the 
ability to prevent a lot of that.
    So I know that in the private industry, you have a board of 
directors, and you have shareholders, and you have a profit to 
make. Inside the government, that's not there, so consequently 
the criminals start to realize, ``Who has all the money?'' The 
government: Federal, county, state, and city. And, ``Who's the 
easiest target?'' Unfortunately, the government, because they 
don't have the proper infrastructure in place, let's say, for 
example, Chase Bank, that spends more than $600 million a year 
to put technology in their bank to keep criminals out of their 
bank.
    So I would like to see the Federal Government, even if you 
were to cut those losses by 20 percent, 25 percent, that's 
billions of dollars that go back into building roads, helping 
the homeless, and people who need that money. So I think the 
government can do a better job of preventing a lot of the 
crimes that are perpetrated against them; they just need to 
take the time, the money, and the effort to do so.
    The Chairman. I also serve on the Appropriations Committee, 
and it has been one of our standard questions to ask agency 
heads, Cabinet secretaries, chief information officers, ``What 
is it that you're doing to protect the data that you have 
authority over?'' and we're trying to improve the status. I 
hadn't thought about states and local units of government, but 
it would be the same kind of challenge that we have.
    One thing you said today, among many others that was said 
by all of you that stands out with me, I thought about the 
consequences of fraud or scamming and the economic loss to the 
victim. What you said, Mr. Abagnale, that will stick with me is 
the consequences of the money then coming back and used in 
different ways so damaging to our society, more than just a 
personal loss, the volume, the amount of dollars, that are 
accumulated can be used in nefarious and damaging ways.
    Mr. Abagnale. Absolutely.
    The Chairman. Ms. Cortez Masto?
    Senator Cortez Masto. Mr. Chair, thank you. And let me just 
add because I completely agree, as somebody who oversaw the 
Medicaid Fraud Unit for the state of Nevada. It was so 
important to put resources into the staff, both the prosecutors 
and investigators, who can investigate and prosecute for that 
fraud. One case alone we were able to put $2 million back into 
the Medicaid system.
    So part of this process I believe is also funding those 
inspector generals or funding those agencies and their units 
within those agencies that can continue to go after the type of 
fraud and keep that money in the system to the benefit of the 
people who really need it. So I appreciate those comments. 
Thank you very much.
    The Chairman. Thank you very much. Anyone have anything 
they want to add that they felt like they didn't get the chance 
to make because I was inarticulate in my questions?
    Mr. Schwanke.
    Mr. Schwanke. Real quickly, on the IRS law that's going to 
allow the collection via phone that was brought up, I can tell 
you that I would have significant concern as over the past few 
years that's all we have done, was try to educate consumers 
that the IRS will not call you. I think I echo concerns of the 
BBB that I talked to here, that there will have to be 
significant reeducation happening because over and over again 
we have told viewers that the IRS will not call you to collect 
any tax debt. So as--and the IRS has also gone on our air many 
times saying that. So that would be a concern.
    The Chairman. And another takeaway from the hearing for me 
is the lack of emphasis or the declining emphasis on public 
service announcements awareness campaigns that was described as 
used to be more prevalent than it is today.
    Anyone else?
    Mr. DeWine. Mr. Chairman----
    The Chairman. General.
    Mr. DeWine.--just one last thing to follow up on what Mr. 
Abagnale said in regard to young people and the identity theft 
of young people. One of the things that we've done in Ohio is 
pass a law that provides that a parent can go to the credit 
reporting agencies and actually freeze that child's credit, and 
once that credit is frozen, then obviously it is not as 
beneficial for someone to steal it, and if they do steal it, 
there is not a whole lot they can do with it, or not as much. 
So that's one thing that we're doing in Ohio and we think can 
help.
    The Chairman. Thank you very much.
    Mr. Schwanke, you're the Kansan on the panel; therefore, 
you're the expert. Anything you want to make certain I know 
before I conclude this hearing?
    Mr. Schwanke. I would just say we're getting--I think there 
has to be better communication from government agencies to 
private businesses, not that there has to be more regulation, 
but we've seen drastic improvement really over the past year or 
two. It was brought up by one of the members of up here that 
when they go to the banks or when they go to these businesses, 
especially the senior citizens, to withdraw money, or in my 
example, purchase $13,000 in iTunes cards, that a lot of times 
private business, through their education efforts, can stop 
this. That same grocery store that had that happen now has had 
multiple cases where their clerks have stopped the scam from 
happening, as have banks.
    Banks in the past I think have been concerned with privacy, 
not prying into people's personal lives and finances when 
someone comes to withdraw $20,000 cash, but I think that's 
getting better that they're able to ask some of those important 
questions to seniors when they go to make those type of 
withdrawals, whether it be a gift card or a cash withdrawal 
from a bank.
    The Chairman. You and I both grew up in small towns, and 
you're too young to know this, but in days gone by, everybody 
knew each other, and you knew when somebody might be doing 
something that made no sense to you, and you had enough of an 
awareness of their lives, their person, and their family, that 
you were willing to say, ``Are you sure you know what you're 
doing?'' And we have fewer of those personal barriers and 
opportunities in today's global economy.
    Thank you all very much. We appreciate the time that you've 
spent with us this afternoon. We appreciate the education that 
we've received. This hearing record will remain open for 2 
weeks. During that time, Senators are asked to submit any 
questions for the record. Upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible. And with that necessary announcement, I bring 
this hearing to a conclusion. Thank you all very much.
    [Whereupon, at 4:26 p.m., the hearing was adjourned.]

                            A P P E N D I X


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Response to Written Questions Submitted by Hon. John Thune to 
                       Hon. Maureen K. Ohlhausen
    Question 1. You have stated your interest in combating scams as a 
top priority for the FTC's Bureau of Consumer Protection. What specific 
practices do you intend to target? Can we expect to see increased FTC 
enforcement activity in this area?
    Answer. Fighting fraud is at the core of the FTC's consumer 
protection mission. Our anti-fraud program tracks down and stops some 
of the most pernicious frauds that prey on U.S. consumers, often on 
those who can least afford to lose money. The Commission will target 
the most egregious scams that cause significant economic injury to 
consumers, including imposter scams, such as government and business 
imposters; tech support scams which may disproportionately impact the 
elderly; robocall and other telemarketing scams; fake debt relief 
services and phantom debt collection schemes; and miracle cure scams. 
The agency also will work to combat scams that defraud small 
businesses, such as fake business directory services, as well as scams 
that deceive aspiring entrepreneurs, including business opportunity 
scams. I also will increase our efforts to fight scams that target 
members of the military and veterans.

    Question 2. At the hearing, you testified that the annual 
macroeconomic cost of scams to the U.S. economy is ``billions and 
billions of dollars.'' Apparently, you based this figure on the redress 
FTC received in 2016, which included a settlement order the Commission 
secured against Volkswagen Group of America in excess of $10 billion. 
Presumably, however, this redress represents only a small fraction of 
the total cost of scams to the economy.

    a. Has the Commission's Bureau of Economics examined these costs? 
If so, what conclusions did it reach?
    Answer. Over the last 15 years, the Bureau of Economics has 
conducted three surveys to study the degree to which consumers are 
affected by consumer fraud. Because of the limitations of the data 
available to the Bureau and other resources constraints, these studies 
researched the number of consumers affected by fraud, but did not 
address the question of the total costs such frauds impose on the 
economy.
    The most recent survey, which was conducted in 2011, asked about 15 
specific types of fraud, as well as two more general types.\1\ The 
types of fraud included in the survey are among the most common frauds 
perpetrated by mass-market fraudsters, based on information gathered 
from consumer complaints submitted to the Commission's Consumer 
Sentinel database and Commission enforcement actions.
---------------------------------------------------------------------------
    \1\ Consumer Fraud in the United States, 2011: The Third FTC Survey 
(March 2013), available at https://www.ftc.gov/sites/default/files/
documents/reports/consumer-fraud-united-states-2011-third-ftc-survey/
130419fraudsurvey_0.pdf.
---------------------------------------------------------------------------
    The 2011 survey found that 10.8 percent of U.S. consumers polled--
which translates to an estimated 25.6 million American adults--had been 
victims of one of the frauds about which the survey asked.\2\ The most 
frequently experienced of these frauds were weight loss products that 
were marketed as making it easy for consumers to lose weight or as 
enabling weight loss without diet or exercise, and that did not deliver 
what consumers had expected. An estimated 2.1 percent of American 
adults had purchased such weight loss products during 2011. Fraudulent 
prize promotions--a situation where a consumer paid money, purchased a 
product, or attended a sales promotion to obtain a promised prize and 
then did not receive the prize or found that the prize was not what 
they thought they had been promised--was the second most prevalent of 
the studied frauds, having been experienced by an estimated 1.0 percent 
of U.S. consumers.
---------------------------------------------------------------------------
    \2\ In at least some cases, the figures that result from the FTC's 
survey likely understate the prevalence of fraud. This is because fraud 
here involves paying for a product or service that the consumer had not 
agreed to purchase. This could occur, for example, if a consumer was 
deceptively offered a free trial of some service--perhaps a buyers' 
club--and the seller then converted the free-trial to a regular paid 
subscription if the consumer did not cancel the membership during the 
free-trial period. (These types of offerings are often referred to as 
``negative option'' offers.) However, if the charges just appear on 
consumers' credit card or telephone bills and consumers do not realize 
that the charges are unauthorized, they will not be able to correctly 
report that they have been victimized.

    b. Do you believe it is important to establish a baseline of the 
economic impact of scams to assess the effectiveness of FTC's 
enforcement and education efforts?
    Answer. To fulfill its goal of protecting consumers, the FTC must 
identify consumer protection problems and trends in the fast-changing, 
increasingly global marketplace. The agency strives to understand the 
issues affecting consumers, including any newly emerging methods of 
fraud or deceit, so that it can target its enforcement, education, and 
advocacy on those areas where consumers suffer the most harm or where 
there will be the greatest impact. I am committed to continuing to 
improve the effectiveness of the FTC's enforcement and education 
efforts, including by setting appropriate baselines against which to 
measure those efforts.
    A number of external factors pose significant obstacles to 
establishing a baseline of the economic impact of scams. For example, 
many injured consumers do not report when they have been harmed, 
whether out of embarrassment or for other reasons, and some consumers 
may not even realize that they have been victimized.
    Nevertheless, I do believe it is important for the Commission to 
attempt to measure the economic impact that its enforcement and 
education efforts have on consumers and the economy, and the agency 
does set performance goals that can be used as a proxy for consumer 
harm. For example, in the FTC's current strategic plan, the agency has 
set baselines from past performance, as well as goals designed to 
improve that performance. These baselines and goals apply several 
different measures, including the percentage of the FTC's consumer 
protection law enforcement actions that targeted the subject of 
consumer complaints to the FTC; the total estimated consumer savings 
compared to the amount of FTC resources allocated to consumer 
protection law enforcement; and the amount of money the FTC returned to 
consumers or forwarded to the U.S. Treasury. The agency also has set 
performance measures for providing the public with knowledge and tools 
to prevent harm to consumers. For example, the agency has set 
performance goals for the rate of consumer satisfaction with FTC 
consumer education websites; the number of federal, state, local, 
international, and private partnerships to maximize the reach of 
consumer and business education campaigns; the number of workshops and 
conferences the FTC convened that address consumer protection problems; 
and the number of consumer protection reports the FTC released.

    Question 3. In April 2016, the American Medical Association adopted 
a resolution supporting a ``requirement that attorney advertising, 
which may cause patients to discontinue medically necessary medications 
have appropriate and conspicuous warnings that patients should not 
discontinue medications without seeking the advice of their 
physician.'' Could attorney advertising, which induces a patient to 
stop taking a prescribed medicine, be actionable under Section 5 of the 
FTC Act? Has the Commission examined any recent cases involving such 
advertising, and has Commission staff been in contact with the American 
Medical Association and the American Bar Association regarding this 
matter?
    Answer. Section 5 of the FTC Act prohibits ``unfair or deceptive 
acts or practices in or affecting commerce.'' 15 U.S.C. Sec. 45(a). 
Whether the advertising that you describe would constitute an unfair or 
deceptive act or practice is a factual question that can only be 
answered on a case-by-case basis. However, I am happy to provide a 
general overview of the factors the Commission would consider in making 
such a determination.
    The Commission has explained that a deceptive act or practice is a 
representation, omission, or practice that is likely to mislead a 
consumer acting reasonably under the circumstances and that is 
material.\3\ If a representation, omission, or practice targets a 
particular group, the Commission will examine reasonableness from the 
perspective of that group. Further, a representation, omission, or 
practice is material if it ``is likely to affect the consumer's conduct 
or decision with regard to a product or service.'' \4\ Pursuant to 
Section 5(n) of the Act, an act or practice may be deemed unfair if (1) 
it ``causes or is likely to cause substantial injury to consumers''; 
(2) the injury ``is not reasonably avoidable by consumers themselves''; 
and (3) the injury is ``not outweighed by countervailing benefits to 
consumers or competition.'' 15 U.S.C. Sec. 45(n).\5\
---------------------------------------------------------------------------
    \3\ FTC Policy Statement on Deception (Oct. 14, 1983) (appended to 
Cliffdale Associates, Inc., 103 F.T.C. 110, 174 (1984)) (``Deception 
Policy Statement''), available at https://www.ftc.gov/public-
statements/1983/10/ftc-policy-statement-deception.
    \4\ Id.
    \5\ See also FTC Policy Statement on Unfairness (Dec. 17, 1980) 
(appended to Int'l Harvester Co., 104 F.T.C. 949 (1984)) (``Unfairness 
Statement''), available at https://www.ftc.gov/public-statements/1980/
12/ftc-policy-statement-unfairness.
---------------------------------------------------------------------------
    The first element of unfairness is that the act causes or is likely 
to cause substantial injury to consumers. Accordingly, an inquiry would 
consider how likely is it that a particular ad would cause consumers to 
discontinue their medication and what consequences would likely follow 
if that happened, in order to obtain an overall understanding of the 
level of risk and harm to which consumers are exposed in a particular 
case. These factors would likely vary depending on the particular 
claims made in the ad, as well as the type of medication at issue.
    The next element asks whether the injury would be reasonably 
avoidable by consumers themselves. Again, the answer to this question 
would likely depend on the claims made in the advertising, the 
medication involved, and the condition at issue.
    The final element is whether the consumer injury is outweighed by 
countervailing benefits to consumers or competition. Attorney 
advertising advising consumers who might have suffered injury to seek 
legal consultation can serve an important public purpose. Moreover, 
required disclosures impose at least some cost on advertisers. However, 
when there is a substantial injury to health, or the likelihood of such 
injury, that is not reasonably avoidable by consumers, a cost-benefit 
analysis will generally favor disclosure, if such disclosure will 
mitigate the injury.
    At this point in time, no specific cases involving patients 
discontinuing medically necessary medication in response to attorney 
advertising have been brought to our attention. We plan to contact the 
AMA to request additional information.

    Question 4. Under Democrat leadership, the FTC sought to introduce 
novel harms into its ``substantial injury'' analysis, for example 
recognizing intangible harm as the basis for unfairness cases. A prime 
example of this is in the FTC's LabMD enforcement, which you supported. 
Previously, the Commission tended to find substantial injury in cases 
of actual or likely economic harm, and in other instances, where 
physical health and safety is threatened.

    a. Do you agree that the Commission should consider intangible harm 
as part of its unfairness analysis?
    Answer. In order to effectively and efficiently protect consumers, 
the FTC must focus its enforcement efforts on stopping conduct that 
causes or is likely to cause substantial consumer harm. Public exposure 
of sensitive information of the type frequently used to facilitate 
identity theft can be likely to cause substantial economic injury. And 
it may create a significant risk of a concrete harm, which the 
Commission has also long considered to constitute substantial 
injury.\6\ Furthermore, the Commission's longstanding view has been 
that an invasion of a consumer's highly sensitive medical information 
can itself constitute an actual, concrete consumer harm under the FTC 
Act.\7\
---------------------------------------------------------------------------
    \6\ Unfairness Statement n.12.
    \7\ The Commission's very first data security case, in 2002, 
addressed lax data security procedures that caused disclosure of the e-
mail addresses of Prozac users. See Eli Lilly & Co., No. C-4047 (May 
10, 2002), available at https://www.ftc.gov/enforcement/cases-
proceedings/012-3214/eli-lilly-company-matter. More recently, the 
Commission has brought cases against a company that disclosed notes of 
medical examinations on the internet, GMR Transcription Servs., Inc., 
No. C-4482 (Aug. 14, 2014), available at https://www.ftc.gov/
enforcement/cases-proceedings/122-3095/gmr-transcription-services-inc-
matter, and a company that solicited consumer healthcare reviews 
without indicating that the reviews would be publicly posted on the 
internet, Practice Fusion, Inc., No. C-4591 (Aug. 16, 2016), available 
at https://www.ftc.gov/enforcement/cases-proceedings/142-3039/practice-
fusion-inc-matter.
---------------------------------------------------------------------------
    I do believe, however, that the FTC needs to examine more 
rigorously what constitutes substantial injury in privacy cases. This 
is one of the reasons I have asked the FTC's Bureau of Economics to 
study the economics of privacy and data security. I expect that this 
work will help ensure our data security and privacy program stands on a 
strong policy foundation.

    b. If economic or physical harm is not required, what is the 
predictable limiting factor on the types of harm that will result in 
enforcement?
    Answer. As required by the first prong of Section 5(n) of the FTC 
Act and noted in the Unfairness Statement, the harm in question must 
constitute a substantial injury. Trivial, speculative, or certain 
subjective harms, such as those that offend the tastes or social 
beliefs of particular consumers, do not meet the first prong of Section 
5(n). Unfairness Statement, 104 F.T.C. at 1073. In addition, for there 
to be a violation that may result in enforcement, the other prongs of 
Section 5(n) must also be satisfied, i.e., the harm must not be 
reasonably avoidable by consumers or outweighed by countervailing 
benefits to consumers or competition.

    Question 5. In the FTC's recent enforcement action in the matter of 
Vizio, Inc., you supported Count II of the complaint, alleging that 
Vizio deceptively omitted information about its data collection and 
sharing program, stating that ``[e]vidence shows that consumers do not 
expect televisions to collect and share information about what they 
watch.'' On this basis, you found that the company's omission to be 
material, because ``[c]onsumers who are aware of such practices may 
choose a different television or change the television's settings to 
reflect their preferences.'' Could, and if so, should, the FTC apply a 
similar theory of deception to data collection and sharing in other 
contexts--for instance by Internet service providers, websites, or 
applications--where consumer may have lower expectations about the 
treatment of their data?
    Answer. Any determination of whether a specific act or practice is 
deceptive is a factual question that must be made on a case-by-case 
basis. As noted above, a deceptive representation, omission, or 
practice is one that is material and likely to mislead a consumer 
acting reasonably under the circumstances. A representation is material 
if it is likely to affect the consumer's conduct or decision with 
respect to the product or service. As explained in the Commission's 
Deception Policy Statement, in making such a determination, the 
Commission will analyze the ``net impression'' of the representation 
being made from the perspective of a reasonable consumer.
    The Commission has previously challenged deceptive omissions in 
other contexts involving data collection and sharing. For example, in 
Goldenshores Technologies,\8\ the FTC alleged that the makers of a 
popular free flashlight app deceived consumers about how their 
geolocation information would be shared with advertising networks and 
other third parties. While the company's privacy policy told consumers 
that any information collected by their Brightest Flashlight app would 
be used by the company, it deceptively failed to disclose that the app 
transmitted users' precise location and unique device identifier to 
third parties, including advertising networks. Likewise, in its case 
against Epic Marketplace,\9\ the FTC settled charges that the online 
advertising company used ``history sniffing'' to secretly and illegally 
gather data from millions of consumers about their interest in 
sensitive medical and financial issues ranging from fertility and 
incontinence to debt relief and personal bankruptcy. According to the 
complaint, while Epic did disclose its privacy and behavioral 
advertising practices, it deceptively omitted that it engaged in 
history sniffing. Finally, in Sears Management Corp.,\10\ the FTC 
settled allegations that the company failed to disclose adequately the 
scope of consumers' personal information it collected via a 
downloadable software application. Sears allegedly represented to 
consumers that the software would track their ``online browsing,'' but 
only disclosed the full extent of the tracking in a lengthy user 
license agreement, available to consumers at the end of a multi-step 
registration process. According to the FTC, the software would also 
monitor consumers' online secure sessions--including sessions on third 
parties' websites--and collect information transmitted in those 
sessions, such as the contents of shopping carts, online bank 
statements, drug prescription records, video rental records, library 
borrowing histories, and the sender, recipient, subject, and size for 
web-based e-mails.
---------------------------------------------------------------------------
    \8\ Press Release, FTC Approves Final Order Settling Charges 
Against Flashlight App Creator (April 9, 2014) available at https://
www.ftc.gov/news-events/press-releases/2014/04/ftc-approves-final-
order-settling-charges-against-flashlight-app.
    \9\ Press Release, FTC Approves Final Order Settling Charges 
Against Epic Marketplace, Inc. (March 19, 2013) available at https://
www.ftc.gov/news-events/press-releases/2013/03/ftc-approves-final-
order-settling-charges-against-epic.
    \10\ Press Release, FTC Approves Final Consent Order Requiring 
Sears to Disclose the Installation of Tracking Software Placed on 
Consumers Computers; FTC Approves Final Consent Order in Matter 
Concerning Enhanced Vision Systems, Inc. (September 9, 2009) available 
at https://www.ftc.gov/news-events/press-releases/2009/09/ftc-approves-
final-consent-order-requiring-sears-disclose.

    Question 6. On December 14, 2016, the Consumer Review Fairness Act 
became the law of the land. This legislation, which I introduced in the 
Senate, addresses so-called ``gag clauses'' in form contracts that are 
designed to stop consumers from providing public feedback that 
criticizes a company, even when that feedback is an honest reflection 
of the customer experience. Among other things, this law provides for 
enforcement by the FTC, and set a deadline of February 12, 2017, for 
the FTC to begin education and outreach for business to provide them 
with non-binding best practices for compliance with the law. Please 
provide an update with respect to the Commission's activities under 
this new authority.
    Answer. In February 2017, the FTC issued ``Consumer Review Fairness 
Act: What Businesses Need to Know,'' a guidance document that informs 
businesses of the conduct prohibited by the statute and provides 
information on how to comply with the law.\11\ The FTC and states can 
enforce the law as to contracts in place on or after December 14, 2017.
---------------------------------------------------------------------------
    \11\ The guidance is available at https://www.ftc.gov/tips-advice/
business-center/guidance/consumer-review-fairness-act-what-businesses-
need-know.

    Question 7. This hearing included discussion of the Commission's 
role with respect to promoting motor vehicle safety. In a recent panel 
discussing regulatory and policy issues facing the Commission, you 
stated your interest in the ``safety benefits'' of autonomous vehicles 
and connected cars.\12\ Earlier this month, FTC announced a joint 
workshop with the National Highway Traffic Safety Agency (NHTSA), 
seeking stakeholder input on modern motor vehicle technologies that 
``promote safety.'' \13\
---------------------------------------------------------------------------
    \12\ Maureen Ohlhausen, Comm'r, Fed. Trade Comm'n, Remarks at the 
CES 2017 FTC Commissioner Roundtable (Jan. 5, 2017).
    \13\ Press Release, FTC and NHTSA Seek Input on Benefits and 
Privacy and Security Issues Associated with Current and Future Motor 
Vehicles (March 20, 2017) available at https://www.ftc.gov/news-events/
press-releases/2017/03/ftc-nhtsa-conduct-workshop-june-28-privacy-
security-issues.

    a. Should the Commission defer to the expert Federal agencies, such 
as NHTSA and the National Transportation Safety Board, on the issue of 
motor vehicle safety?
    Answer. The FTC would generally defer to Federal agencies such as 
NHTSA and the National Transportation Safety Board (NTSB) regarding 
motor vehicle safety. At the same time, however, the line between 
issues of safety and non-safety are not necessarily clear. For example, 
a data security vulnerability may both expose consumers' personal 
information, as well as raise vehicle safety concerns. The Commission 
brings much experience to bear on the former. For example, on the 
privacy side, several automakers have voluntarily made commitments to 
adhere to industry privacy principles, and we have unique experience in 
enforcing self-regulatory codes. On the security side, the Commission 
has significant expertise in examining software security issues, such 
as failure to test for the presence of reasonably foreseeable 
vulnerabilities.\14\
---------------------------------------------------------------------------
    \14\ See, e.g., ASUSTeK Computer Inc., No. C-4587 (July 28, 2016), 
available at https://www.ftc.gov/enforcement/cases-proceedings/142-
3156/asustek-computer-inc-matter (alleging that critical security flaws 
in computer hardware company ASUS' routers put the home networks of 
hundreds of thousands of consumers at risk); Credit Karma, Inc., No. C-
4480 (Aug. 13, 2014), available at https://www.ftc.gov/enforcement/
cases-proceedings/132-3091/credit-karma-inc (alleging mobile app 
disabled a critical default process necessary to ensure that apps' 
communications were secure); Fandango, LLC, No. C-4481 (Aug. 13, 2014), 
available at https://www.ftc.gov/enforcement/cases-proceedings/132-
3089/fandango-llc (same); TRENDnet, Inc., No. C-4426 (Jan. 16, 2014), 
available at http://www.ftc.gov/enforcement/cases-proceedings/122-3090/
trendnet-inc-matter (alleging that, due to the company's failure to 
properly secure its IP cameras, hackers were able to access and then 
post hundreds of online private video and even audio feeds); HTC 
America, Inc., No. C-4406 (June 25, 2013), available at https://
www.ftc.gov/enforcement/cases-proceedings/122-3049/htc-america-inc-
matter (mobile device manufacturer HTC for failing to secure its mobile 
devices).
---------------------------------------------------------------------------
    Nonetheless, I share your concern and I am committed to working 
with other Federal agencies to ensure that the FTC not impose 
duplicative, overlapping, or conflicting requirements on car companies.

    b. Does the Commission have jurisdiction over motor vehicle safety 
under its unfairness authority, which recognizes that ``[u]nwarranted 
health and safety risks may also support a finding of unfairness,'' or 
would such actions rely primarily on public policy considerations?
    Answer. It is possible that, in certain contexts, the FTC's Section 
5 unfairness jurisdiction could apply where a motor vehicle presented 
unreasonable health and safety risks to consumers. As noted above, I 
remain committed to working with other Federal agencies to ensure that 
the FTC not impose duplicative, overlapping, or conflicting 
requirements on automotive companies.

    Question 8. The Senate Commerce Committee has also focused its 
attention on the issue of the marketing of anti-concussion sports 
equipment. Does the Commission have sufficient authority under the FTC 
Act, 15 U.S.C. Sec. Sec. 41-58, to pursue enforcement actions against 
companies that engage in false or misleading advertising with respect 
to these products?
    Answer. Section 5 of the FTC Act, 15 U.S.C. Sec. 45(a), prohibits 
false or misleading advertising, including false or misleading 
advertising of the anti-concussion benefits of sports equipment. I 
believe this authority is sufficient to allow the Commission to pursue 
enforcement actions against companies that engage in false or 
misleading advertising with respect to these products.

    Question 9. In the FTC's written testimony, the Commission noted 
scams targeting small commercial trucking businesses wherein scammers 
impersonate government agencies to solicit payment for Federal motor 
carrier registration. Small, family-owned trucking companies are an 
important part of the South Dakota transportation sector. These 
companies, along with their larger counterparts, must register with the 
U.S. Department of Transportation (DOT) and re-register periodically. 
As part of this process, registrant contact information is routinely 
made available online where it can be accessed by anyone, including 
scammers. I have heard from South Dakota trucking companies who are 
concerned about the illegitimate requests for payment and other 
solicitations for unnecessary services they receive. Sometimes, these 
requests and solicitations come from companies with official-sounding 
websites such as ``DOTcompliance.com'' and ``ExpressDOTService.com.'' 
Particularly for smaller companies, it is difficult to discern 
legitimate requests from illegitimate ones.

    a. What steps has the FTC taken to combat this fraudulent behavior? 
How will the Commission address future incidents?

    b. To what extent has the FTC worked with DOT to address these 
scams?
    Answer. The FTC is concerned about this possible misconduct and has 
been working with the U.S. Department of Transportation (USDOT) to 
address it. In 2015, USDOT approached the FTC about the deceptive 
marketing of registration services by companies pretending to be 
affiliated with government agencies to small, family-owned trucking 
companies. Since then, the FTC has offered guidance to USDOT on 
consumer warnings and education measures to combat government-imposter 
registration solicitations. In addition, USDOT and the FTC worked 
together to identify and investigate relevant consumer complaints. As a 
result, this past Fall, the FTC filed an action alleging that several 
interrelated companies, including DOTAuthority.com, Inc., deceived 
small commercial trucking businesses into paying them for Federal and 
state motor carrier registrations by impersonating government 
transportation agencies. Our complaint alleges that the defendants have 
taken in more than $17 million from thousands of small businesses by 
sending misleading robocalls, e-mails, and text messages that create 
and reinforce the false impression that they are, or are affiliated 
with, the USDOT, the Unified Carrier Registration system, or another 
government agency. As alleged in the complaint, the defendants used 
official-sounding names, official-looking websites, warnings of civil 
penalties or fines for non-compliance, and threats of imminent law 
enforcement to trick companies into using their registration services 
instead of using official government website services. The USDOT 
submitted two declarations in support of the FTC's complaint. The court 
has entered a preliminary injunction against the defendants and the 
litigation in this case is on-going.\15\
---------------------------------------------------------------------------
    \15\ See FTC Press Release, FTC Charges Operators of Scheme That 
Used Fake Government Affiliation to Sell Commercial Trucking 
Registration Services, (Oct. 17, 2016) available at https://
www.ftc.gov/news-events/press-releases/2016/10/ftc-charges-operators-
scheme-used-fake-government-affiliation.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                       Hon. Maureen K. Ohlhausen
    Question 1. Acting Chairman Ohlhausen, in both this Congress and 
the last, I introduced the Spoofing Prevention Act with Ranking Member 
Nelson and Senators Blunt and Klobuchar. That bill would take steps to 
close loopholes in the Truth in Caller ID Act so we can better combat 
spoofing scams against seniors, law enforcement, and members of our 
military. What do you see as the Federal Trade Commission's role in 
eliminating spoofing, and what more needs to be done to fix this 
problem?
    Answer. The FTC uses every tool at its disposal to combat illegal 
spoofing and fraudulent and deceptive calls to consumers, including 
aggressive law enforcement, initiatives to spur technological 
solutions, and robust consumer education. We have brought more than 130 
law enforcement actions shutting down operations responsible for 
billions of illegal calls, as well as numerous enforcement actions 
targeting fraudulent ``impostors.'' Many of our law enforcement actions 
specifically target defendants that engage in illegal spoofing.\16\
---------------------------------------------------------------------------
    \16\ See, e.g., United States v. KFJ Marketing, LLC et al., 2:16-
cv-01643 (C.D. Cal. Mar. 20, 2016); FTC et al., v. All Us Marketing 
LLC, et al., 6:15CV1016-0RL-28GJK (M.D. Fla. June 29, 2015) ; FTC et 
al., v. Lifewatch Inc. et al., 1:15-cv-05781 (N.D. Ill. June 20, 2015); 
FTC et al., v. Caribbean Cruise, Inc. et al., 0:15-cv-60423 (S.D. Fla. 
Mar. 4, 2015). Each of these actions sought relief for the defendants' 
use of illegal spoofing and failure to provide legitimate Caller ID 
information in violation of the Telemarketing Sales Rule, 16 C.F.R. 
Sec. 310.4(a)(8).
---------------------------------------------------------------------------
    In addition to continuous law enforcement in this area, the FTC is 
committed to working with industry to encourage and facilitate the 
development and deployment of network-level technological solutions to 
illegal spoofing. The FTC provided input to support the industry-led 
Robocall Strike Force, which is working to deliver comprehensive 
solutions to filter unwanted robocalls and to prevent illegal spoofing. 
The Robocall Strike Force highlighted two technological solutions that 
have been underway that will help thwart illegal spoofing: (1) a ``do-
not-originate'' list and (2) Caller ID authentication standards.\17\ A 
``do-not-originate'' list allows the owner of a number to specify that 
it should only be used to accept incoming calls and never to place 
outgoing ones. In furtherance of the development of a ``do-not-
originate'' list, the FTC worked with a major carrier and Federal law 
enforcement partners to help block IRS scam calls that were spoofing 
well-known IRS telephone numbers.
---------------------------------------------------------------------------
    \17\ Caller ID authentication refers to standards to verify and 
authenticate caller identification for calls carried over an Internet 
Protocol (IP) network. These standards are known as SHAKEN (Signature-
based Handling of Asserted information using toKENs) and STIR (Secure 
Telephony Identity Revisited). Wide-spread adoption of Caller ID 
authentication standards would enable blocking and/or flagging of calls 
attempting to transmit unverified Caller ID information. See the 
October 21, 2016 Robocall Strikeforce Report available at https://
transition.fcc.gov/cgb/Robocall-Strike-Force-Final-Report.pdf.
---------------------------------------------------------------------------
    The FTC also engages with technical experts, academics, and others 
through industry groups, such as the Messaging, Malware and Mobile 
Anti-Abuse Working Group (``M\3\AAWG'') and the Voice and Telephony 
Abuse Special Interest Group (``VTA SIG''). The FTC serves in a 
leadership role in VTA SIG, which currently works to support various 
initiatives that tackle voice spam, including Caller ID authentication 
standards.
    We also arm consumers with the tools and information they need to 
protect themselves against fraudulent calls that often use spoofed 
numbers. The FTC provides consumer information in English and Spanish 
in many forms including print and online articles, fact sheets, blog 
posts, brochures and videos with tips for avoiding scams and unwanted 
calls. One of our most popular features is a ``Scam Alert'' page that 
is frequently updated with blog posts about new scams.\18\ We also 
remind consumers in our guidance that they need to be wary of scammers 
using fake Caller ID information.\19\
---------------------------------------------------------------------------
    \18\ See Scam Alerts: What to know and do about scams in the news, 
available at https://www.consumer.ftc.gov/scam-alerts.
    \19\ See Scammers can fake caller ID info (May 4, 2016), available 
at https://www.consumer.ftc.gov/blog/scammers-can-fake-caller-id-info.

    Question 2. Acting Chairman Ohlhausen, as you may know, there have 
been many recent reports of travel company booking scams. These involve 
fraudulent companies imitating the websites of hotels or airlines to 
attract bookings and trick consumers into paying fees for services they 
do not receive. I have one such account from a hotel in Kearney, 
Nebraska, that I entered into the hearing record. Last fall, Senator 
Klobuchar and I sent you a letter regarding this fraudulent practice. 
Does the FTC frequently hear about these types of complaints? If so, 
what would be an appropriate response?
    Answer. The FTC has a strong interest in protecting consumer 
confidence in the online marketplace for travel and other services. The 
FTC has received complaints about websites that mimic those of well-
known travel companies from Members of Congress, industry associations, 
and consumers. The Consumer Sentinel complaint database, which includes 
complaints received directly by the FTC as well as complaints 
contributed by the Better Business Bureau and other agencies, contains 
approximately 60 complaints since 2012 indicating that consumers had 
booked a hotel through a third-party site when they thought they were 
booking directly with a hotel.
    In July 2015, the FTC issued consumer education cautioning 
consumers about third-party websites that may deceptively mimic hotel 
websites. We also have met with Members of Congress to discuss the 
issue of deceptive travel sites and have provided technical assistance 
and comments on proposed legislation. Although the existence and 
details of investigations are non-public, I can assure you that the FTC 
staff has taken these complaints seriously and will take law 
enforcement action if appropriate.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                       Hon. Maureen K. Ohlhausen
    Question 1. During the hearing, one of the issues raised by both 
panel members and witnesses was the rise of ransomware, especially 
targeted at small business owners. One of the devious ways that hackers 
can gain access to a computer is by baiting Internet users with the 
prospect of free movies, TV shows or music. Recent studies have found 
that 1 in 3 so-called pirate websites expose consumers to malware. 
Given the rise of piracy as a means to bait and infect computers, and 
increase in ransomware, what is the FTC doing to warn consumers about 
the connection between piracy and malware?
    Answer. I share your concerns about malware on consumers' computers 
and the potential harm such malware may cause consumers. Related to the 
specific practice you have highlighted, last week, the Commission 
issued a consumer education blog post warning consumers that 
downloading pirated content is illegal and websites offering such 
content often hide malware that can bombard them with ads, take over 
their computers, or steal their personal information.\20\
---------------------------------------------------------------------------
    \20\ Free movies, costly malware (Apr. 12, 2017), available at 
https://www.consumer.ftc.gov/blog/free-movies-costly-malware.
---------------------------------------------------------------------------
    Consumer education is a central part of the FTC's mission. Our 
outreach includes publications, online resources, workshops, and social 
media. These outreach efforts cover many topics, including malware, 
tech support scams, spyware, phishing, peer-to-peer file sharing, and 
social networking. We work closely with local, state, and Federal 
Government entities, industry representatives, and consumer groups to 
maximize the impact of these efforts.
    The FTC has many consumer education resources that provide 
additional information to consumers about dangers associated with 
malware. For example, the Commission has published blog posts and 
videos on ransomware \21\ and identity theft.\22\ In addition, our Net 
Cetera publication helps parents, teachers, and other adults talk to 
children about how to be safe, secure, and responsible online.\23\
---------------------------------------------------------------------------
    \21\ How to Defend Against Ransomware (Nov. 10, 2016), available at 
https://www.consumer.ftc.gov/blog/how-defend-against-ransomware.
    \22\ See FTC Consumer Information, Identity Theft, available at 
https://www.consumer.ftc.gov/topics/identity-theft.
    \23\ Netcetera: Chatting with Kids About Being Online (Jan. 2014), 
available at https://www.onguardonline.gov/articles/pdf-0001-
netcetera.pdf.
---------------------------------------------------------------------------
    Relevant resources also include education materials relating to 
individual enforcement actions the Commission has taken. For example, 
last year the Commission settled an action with ASUSTeK Computer, Inc. 
in which the Commission alleged that the company's routers had security 
bugs that allowed malware to commandeer consumers' web traffic.\24\ In 
connection with this settlement, the Commission published a blog post 
with tips on router security.\25\
---------------------------------------------------------------------------
    \24\ ASUSTeK Computer, Inc., No. C-4587 (July 28, 2016), available 
at https://www.ftc.gov/enforcement/cases-proceedings/142-3156/asustek-
computer-inc-matter.
    \25\ Got an ASUS router at home? Read this. (Feb. 2016), available 
at https://www.consumer.ftc.gov/blog/got-asus-router-home-read.

    Question 2. Another theme of the hearing was the economic loss 
caused by scams. A recent investigation by security company RiskIQ 
found that hackers are paying pirate website operators $70 million a 
year to infect computers. What role should the FTC play in warning 
consumers and encouraging those who facilitate online activity--such as 
domain sellers, hosting companies, search engine companies and payment 
processors--in combatting these piracy/malware operators? For example, 
should the FTC post warnings on their website, produce public service 
announcements or work with digital platforms to raise awareness and 
combat this new threat?
    Answer. The FTC`s robust law enforcement and consumer education 
platforms combat online threats, such as the unwanted installation of 
malware and other software. Last Fall, the FTC held a workshop with 
numerous industry participants to discuss the ransomware threat, 
including how consumers can avoid--and respond to--ransomware.\26\ And, 
as noted in response to the previous question, the FTC recently 
published a blog post on its website entitled ``Free movies, costly 
malware'' to educate consumers about the possibility that pirate 
websites will infect their computers and devices with malware if they 
download copyrighted content.\27\
---------------------------------------------------------------------------
    \26\ Event Description, Fall Technology Series: Ransomware (Sept. 
7, 2016), available at www.ftc.gov/news-events/events-calendar/2016/09/
fall-technology-series-ransomware.
    \27\ Blog Post, Free movies, costly malware (Apr. 12, 2017), 
available at www.consumer.ftc.gov/blog/free-movies-costly-malware.
---------------------------------------------------------------------------
    In addition, the Commission has brought several enforcement actions 
to stop companies from installing malware and other unwanted software 
on consumers' computers and devices.\28\ The Commission will continue 
to use its investigative, legal, and public outreach tools to protect 
consumers from unwanted and harmful software. Moreover, the Commission 
will continue, as it has done in the past, to work with high tech 
companies, service providers, and industry participants to combat 
online threats.
---------------------------------------------------------------------------
    \28\ See, e.g., Press Release, FTC Charges Tech Support Companies 
With Using Deceptive Pop-Up Ads to Scare Consumers Into Purchasing 
Unneeded Services (Oct. 12, 2016), available at www.ftc.gov/news-
events/press-releases/2016/10/ftc-charges-tech-support-companies-using-
deceptive-pop-ads-scare; Press Release, Tech Company Settles FTC 
Charges It Unfairly Installed Apps on Android Mobile Devices Without 
Users' Permission (Feb. 5, 2016), available at www.ftc.gov/news-events/
press-releases/2016/02/tech-company-settles-ftc-charges-it-unfairly-
installed-apps; Press Release, FTC Permanently Shuts Down Notorious 
Rogue Internet Service Provider (May 19, 2010), available at 
www.ftc.gov/news-events/press-releases/2010/05/ftc-permanently-shuts-
down-notorious-rogue-internet-service.

    Question 3. In the FTC's prepared testimony, the agency discusses 
the challenges associated with offshore scammers, including 
international telemarketing fraud rings. The Committee is also aware 
that so-called Jamaican lottery scams have proliferated in recent 
years. One tool available to FTC is the U.S. SAFE WEB Act, which allows 
the Commission to address consumer protection matters, particularly 
those with an international dimension, providing for increased 
cooperation with foreign law enforcement authorities, confidential 
---------------------------------------------------------------------------
information sharing and investigative assistance.

    a. How has FTC used the SAFE WEB Act in its fight against scams?
    Answer. The FTC has used the Act's powers extensively in cross-
border fraud cases and other matters to protect Americans. Between FY 
2012 and FY 2016, for example, the FTC used the Act to share 
information in response to almost 65 requests from foreign agencies, 
and issued nearly 65 civil investigative demands to aid 28 foreign 
investigations. These efforts have enabled foreign counterparts to 
investigate conduct that directly harms American consumers, and, in 
many instances, also helped to advance FTC investigations. Here are a 
few examples since Congress reauthorized the Act in 2012:
    The FTC used its SAFE WEB powers to work with Canadian law 
enforcement to stop a telemarketing scam that targeted senior citizens. 
On the U.S. side, the FTC obtained an order for more than $10 million 
in consumer redress and the Justice Department charged some of the 
defendants criminally. On the Canadian side, the Royal Canadian Mounted 
Police (RCMP) brought its own case, arresting the Canadian-based 
defendants and seizing evidence.\29\
---------------------------------------------------------------------------
    \29\ See, Press Release, Court Orders Ringleader of Scam Targeting 
Seniors Banned From Telemarketing (Mar. 12, 2015), available at https:/
/www.ftc.gov/news-events/press-releases/2015/03/court-orders-
ringleader-scam-targeting-seniors-banned.
---------------------------------------------------------------------------
    The FTC used its SAFE WEB powers to obtain evidence for the Toronto 
Police Service's investigation of a sham business that scammed $93 
million from consumers by purporting to sell banner ads for websites. 
The scheme had thousands of victims worldwide, including in the United 
States. Canadian law enforcement broke up the scam and arrested two of 
its leaders.\30\
---------------------------------------------------------------------------
    \30\ See, Press Release, $126M Banners Broker pyramid scheme 
dismantled by Toronto police (Dec 02, 2015) available at http://
www.cbc.ca/news/canada/toronto/pyramid-scheme-toronto-1.3356905.
---------------------------------------------------------------------------
    The agency used its SAFE WEB authority in another telemarketing 
scam to repatriate, with Justice Department help, nearly $2 million of 
the defendant's assets from Canadian bank accounts frozen by the RCMP; 
the FTC has now sent redress checks to 1,630 victims totaling $1.8 
million.\31\
---------------------------------------------------------------------------
    \31\ See, Press Release, FTC Returns $1.87 Million to Consumers 
Harmed by Debt Relief Scam (May 09, 2016), available at https://
www.ftc.gov/news-events/press-releases/2016/05/ftc-returns-187-million-
consumers-harmed-debt-relief-scam.
---------------------------------------------------------------------------
    The FTC has used SAFE WEB in a number of business directory scams 
that prey on small businesses, non-profits, and churches to share 
evidence with counterparts in Canada and other jurisdictions. This has 
led to several FTC judgments and law enforcement actions in Canada.\32\
---------------------------------------------------------------------------
    \32\ See, e.g., Press Release, FTC Halts Online `Yellow Pages' 
Scammers (Dec. 02, 2015), available at https://www.ftc.gov/news-events/
press-releases/2015/12/ftc-halts-online-yellow-pages-scammers; Press 
Release, FTC and Florida Halt Internet `Yellow Pages' Scammers (July 
17, 2014), available at https://www.ftc.gov/news-events/press-releases/
2014/07/ftc-florida-halt-internet-yellow-pages-scammers.
---------------------------------------------------------------------------
    SAFE WEB also allowed the FTC to exchange information with Canadian 
law enforcement about a company that put unauthorized charges on 
consumers' phone bills using phony virus-scan scareware and led to law 
enforcement actions involving that conduct on both sides of the 
border.\33\
---------------------------------------------------------------------------
    \33\ See,e.g., Press Release, Jesta Digital Settles FTC Complaint 
it Crammed Charges on Consumers' Mobile Bills Through 'Scareware' and 
Misuse of Novel Billing Method (Aug 21, 2013), available at https://
www.ftc.gov/news-events/press-releases/2013/08/jesta-digital-settles-
ftc-complaint-it-crammed-charges-consumers; Press Release, Telus 
customers to receive $7.34 million in rebates as part of Competition 
Bureau agreement (Dec 30, 2015), available at http://
www.competitionbureau.gc.ca/eic/site/cb-bc.nsf/eng/04017.html.
---------------------------------------------------------------------------
    Apart from scams, the Act also supports FTC enforcement of the EU-
U.S. Privacy Shield Framework, which enables transatlantic data flows 
for many U.S. companies. The FTC's SAFE WEB powers provide for stronger 
cooperation with European data protection authorities on investigations 
and enforcement against possible Privacy Shield violations, a point 
cited in the European Commission's Privacy Shield adequacy decision.

    b. This legislation is scheduled to sunset in 2020. Do you support 
its reauthorization? Will you commit to provide technical assistance to 
the Committee, including any modifications to improve the FTC's ability 
to go after international scammers?
    Answer. I strongly support SAFE WEB reauthorization and commit to 
providing technical assistance to the Committee for that process. FTC 
staff worked closely with the Committee to develop the original 
legislation passed in 2006, and to support reauthorization in 2012. We 
would be pleased to work with the Committee to continue strengthening 
our ability to go after international scammers. We in particular 
suggest repealing the sunset provision entirely: greater certainty for 
the agency and our international partners about the FTC's enforcement 
tools going forward improves our ability to develop enduring 
cooperation agreements and enforcement projects with foreign 
counterparts. Congress granted the Securities and Exchange Commission 
and the Commodities and Futures Trading Commission similar enforcement 
powers over 25 years ago, without a sunset provision. Their positive 
enforcement cooperation experience, and the FTC's successful experience 
with SAFE WEB over the past decade, confirms the value of this 
legislation to our enforcement mission.

    Question 4. The FTC's prepared statement for the hearing raised 
concerns with the controversial ``common carrier'' exception from Title 
II of the Communications Act and its impact on the FTC's efforts to 
protect consumers from unfair or deceptive acts or practices. Could you 
please elaborate on how this provision is harming the FTC's mission? 
Additionally, how did the Court of Appeals for the Ninth Circuit's 
recent decision holding that the ``common carrier'' exception is 
``status based'' affect the FTC's ability to protect consumers?
    Answer. Section 5 of the FTC Act prohibits ``unfair or deceptive 
acts or practices'' in or affecting commerce and directs the FTC to 
prevent such conduct. 15 U.S.C. Sec. 45(a). Section 5, however, excepts 
from FTC enforcement authority ``common carriers subject to the Acts to 
regulate commerce.'' \34\ The FTC has long interpreted this exception 
to be ``activity based''--that is, a company that engaged in both 
common carriage and non-common carriage activities would still be 
within the FTC's enforcement authority with regards to the non-common 
carriage activities. Even with this limiting interpretation, however, 
the FTC, on a bipartisan basis, has for many years called for repeal of 
the exception as outdated, unnecessary, and a hindrance to consumer 
protection efforts.
---------------------------------------------------------------------------
    \34\ In 1914 when the FTC Act was passed, Section 4 of the Act 
defined ``Acts to regulate commerce'' as the Interstate Commerce Act; 
Congress later added the Communications Act. See 15 U.S.C. Sec. 44.
---------------------------------------------------------------------------
    The common carrier exception poses several obstacles to the FTC 
effectively carrying out its consumer protection mission. For example, 
some companies have objected to an FTC enforcement action on the basis 
of the common carrier exception.\35\ Even when such objections are 
meritless, the FTC is forced to litigate this issue in the court 
systems, which diverts FTC resources from other consumer protection 
efforts and can delay redress to fraud victims.
---------------------------------------------------------------------------
    \35\ See, e.g., FTC v. Verity Int'l, Ltd., 443 F.3d 48 (2d Cir. 
2006).
---------------------------------------------------------------------------
    Furthermore, consumers should be protected from unfair or deceptive 
acts or practices in the entire marketplace. But the common carrier 
exception effectively excludes a subset of consumers' activities in the 
marketplace from this protection. This problem has been put into 
sharper focus as a result of the Federal Communications Commission's 
action in 2015 reclassifying the provision of broadband Internet 
service as a common carrier activity. Prior to this action, provision 
of Internet services was considered a non-common carrier activity and 
the FTC was able to enforce consumer protection laws against Internet 
service providers, even in the early days of the internet. For example, 
in 1998, the FTC brought an action against AOL and other ISPs for 
allegedly deceptive ``free'' trial periods.\36\ However, the FCC's 
reclassification created an enforcement gap in which the FTC may now be 
unable to protect consumers from unfair or deceptive practices by ISPs.
---------------------------------------------------------------------------
    \36\ See, e.g., America Online, Inc., 125 F.T.C. 403 (1998); 
CompuServe, Inc. 125 F.T.C. 451 (1998); Prodigy, Inc., 125 F.T.C. 430 
(1998).
---------------------------------------------------------------------------
    The Ninth Circuit's recent decision has further exacerbated the 
problem by applying a ``status based'' interpretation to the common 
carrier exception. Under this interpretation, if a company has the 
status of common carrier, all of its activities, even those not related 
to common carriage, could be immune from FTC enforcement authority. 
This would further weaken consumer protection efforts, including in 
areas in which the FTC has taken significant law enforcement actions in 
the past. For example, the agency sued AT&T and T-Mobile in 2013 for 
placing unauthorized charges for purported third-party services on 
consumers' mobile phone bills.\37\ Those and similar cases have 
recovered hundreds of millions of dollars for injured consumers. The 
Ninth Circuit decision calls into question the agency's ability to take 
similar actions in the future.
---------------------------------------------------------------------------
    \37\ See FTC Alleges T-Mobile Crammed Bogus Charges onto Customers' 
Phone Bills (July 1, 2014), available at https://www.ftc.gov/news-
events/press-releases/2014/07/ftc-alleges-t-mobile-crammed-bogus-
charges-customers-phone-bills; AT&T to Pay $80 Million to FTC for 
Consumer Refunds in Mobile Cramming Case (Oct. 8, 2014), available at 
https://www.ftc.gov/news-events/press-releases/2014/10/att-pay-80-
million-ftc-consumer-refunds-mobile-cramming-case.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                       Hon. Maureen K. Ohlhausen
    Question. Last Congress, Microsoft came before the Senate Aging 
Committee and told us about partnerships they had with states to combat 
tech scams. For Nevadans, consumer protection is a top issue, 
especially because of the impact that scams can have on an individual's 
finances or even their privacy.
    Are there any FTC initiatives in coordination with State Attorneys 
General that are models for protecting consumers from scams?
    Answer. The Commission has robust, collaborative relationships with 
state law enforcers, including through the National Association of 
Attorneys General. The FTC's collaboration with its state partners 
takes many forms, including sharing information and targets, assisting 
with investigations, and working collaboratively on long-term policy 
initiatives.
    Over the last two years, the FTC has collaborated with its state 
partners on dozens of investigations and numerous joint enforcement 
actions, including investigations and enforcement actions concerning 
tech support scams,\38\ robocalls,\39\ charity scams,\40\ and debt 
collection practices,\41\ among other deceptive and unfair practices. 
The FTC also leads law enforcement ``sweeps''--coordinated, 
simultaneous law enforcement actions--in conjunction with state and 
local partners.\42\ To supplement its law enforcement efforts, the FTC 
and its state partners also co-host consumer protection conferences and 
workshops designed to protect consumers from fraud and provide guidance 
on how to identify and avoid scams.\43\
---------------------------------------------------------------------------
    \38\ See, e.g., Press Release, Telemarketing Defendants Charged by 
FTC in Tech Support Scheme Will Pay $10 Million for Consumer Redress 
(Dec. 22, 2016), available at www.ftc.gov/news-events/press-releases/
2016/12/telemarketing-defendants-charged-ftc-tech-support-scheme-will-
pay (case brought by FTC and the Florida Attorney General); Press 
Release, FTC and Florida Charge Tech Support Operation with Tricking 
Consumers into Paying Millions for Bogus Services (July 8, 2016), 
available at www.ftc.gov/news-events/press-releases/2016/07/ftc-
florida-charge-tech-support-operation-tricking-consumers; Press 
Release, Tech Support Operators Settle FTC, State of Florida Charges 
They Misled Consumers (Feb. 12, 2016), available at www.ftc.gov/news-
events/press-releases/2016/02/tech-support-operators-settle-ftc-state-
florida-charges-they.
    \39\ See, e.g., Press Release, FTC, Florida Attorney General Take 
Action Against Illegal Robocall Operation (June 14, 2016), available at 
www.ftc.gov/news-events/press-releases/2016/06/ftc-florida-attorney-
general-take-action-against-illegal-robocall; Press Release, FTC and 
Ten State Attorneys General Take Action Against Political Survey 
Robocallers Pitching Cruise Line Vacations to the Bahamas (Mar. 4, 
2015), available at www.ftc.gov/news-events/press-releases/2015/03/ftc-
ten-state-attorneys-general-take-action-against-political.
    \40\ See Press Release, FTC, All 50 States and D.C. Charge Four 
Cancer Charities With Bilking Over $187 Million from Consumers (May 19, 
2015), available at www.ftc.gov/news-events/press-releases/2015/05/ftc-
all-50-states-dc-charge-four-cancer-charities-bilking-over.
    \41\ See, e.g., Press Release, FTC and Illinois Attorney General 
Halt Chicago-Area Operation Charged with Collecting and Selling Phantom 
Payday Loan Debts (Mar. 30, 2016), available at www.ftc.gov/news-
events/press-releases/2016/03/ftc-illinois-attorney-general-halt-
chicago-area-operation-charged.
    \42\ See, e.g., Press Release, FTC and Federal, State and Local Law 
Enforcement Partners Announce Nationwide Crackdown Against Abusive Debt 
Collectors (Nov. 4, 2015), available at www.ftc.gov/news-events/press-
releases/2015/11/ftc-federal-state-local-law-enforcement-partners-
announce; Press Release, FTC, Multiple Law Enforcement Partners 
Announce Crackdown on Deception, Fraud in Auto Sales, Financing and 
Leasing (Mar. 26, 2015), available at www.ftc.gov/news-events/press-
releases/2015/03/ftc-multiple-law-enforcement-partners-announce-
crackdown; Press Release, FTC and Dozens of Law Enforcement Partners 
Halt Travel and Timeshare Resale Scams in Multinational Effort (June 6, 
2013), available at www.ftc.gov/news-events/press-releases/2013/06/ftc-
dozens-law-enforcement-partners-halt-travel-timeshare-resale; Press 
Release, FTC Leads Joint Law Enforcement Effort Against Companies that 
Allegedly Made Deceptive ``Cardholder Services'' Robocalls (Nov. 1, 
2012), available at www.ftc.gov/news-events/press-releases/2012/11/ftc-
leads-joint-law-enforcement-effort-against-companies.
    \43\ See, e.g., Events Calendar, FTC & NASCO Host a Conference 
Exploring Consumer Protection Issues and Charitable Solicitations (Mar. 
21, 2017), available at www.ftc.gov/news-events/events-calendar/2017/
03/give-take-consumers-contributions-charity; Events Calendar, Working 
Together to Protect Midwest Consumers: A Common Ground Conference (Oct. 
25, 2016), available at www.ftc.gov/news-events/events-calendar/2016/
10/working-together-protect-midwest-consumers-common-ground; Events 
Calendar, Working Together to Protect Michigan Consumers: A Common 
Ground Conference (July 13, 2016), available at www.ftc.gov/news-
events/events-calendar/2016/07/working-together-protect-michigan-
consumers-common-ground; Events Calendar, Utah Consumer Protection 
Summit (Oct. 22, 2015), available at www.ftc.gov/news-events/events-
calendar/2015/10/utah-consumer-protection-summit.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                       Hon. Maureen K. Ohlhausen
    Question 1. Acting Chairman Ohlhausen and Commissioner McSweeny, 
has the FTC focused on the issue of travel booking scams beyond issuing 
consumer alerts?
    Answer. As you note, in July 2015, the FTC issued consumer 
education cautioning consumers about third-party websites that may 
deceptively mimic hotel websites.\44\ In addition, we have met with 
Members of Congress to discuss the issue of deceptive travel sites and 
have proposed technical assistance and comments on proposed 
legislation. Because the existence and details of investigations are 
non-public, we cannot comment on any specific matters. However, the FTC 
will take law enforcement action in appropriate cases.
---------------------------------------------------------------------------
    \44\ See Did you book that night at the hotel's site? (July 14, 
2015), available at https://www.consumer.ftc.gov/blog/did-you-book-
night-hotels-site.

    Question 2. Acting Chairman Ohlhausen and Commissioner McSweeny, 
what plans does the FTC have to notify and coordinate with State 
Attorney Generals prior to peak travel season this year, including 
summer, Thanksgiving, and the Christmas holidays?
    Answer. The FTC has worked closely with the State Attorneys General 
on many issues, including most recently during National Consumer 
Protection week. The FTC will explore whether there are opportunities 
to coordinate with the states to protect consumers from scams that 
affect them during these peak travel periods.

    Question 3. Acting Chairman Ohlhausen: In your testimony, you noted 
that military consumers are often attractive targets of fraudsters in 
part because they receive a regular paycheck and move relatively 
frequently. As a former Marine myself, I can imagine there is also a 
certain amount embarrassment among our service men and women when they 
are taken advantage of and therefore there might be even be lower 
reporting from victims in this community.
    Answer. I agree. In addition to the points you raise, some 
fraudsters have customized their scams to play on the particular fears 
of military consumers, such as threatening action under the Uniform 
Code of Military Justice, which may also lead to under-reporting by 
this community.

    Question 4. Acting Chairman Ohlhausen, in looking at this 
particular community, do you need additional authority from Congress to 
work with our service branches to protect military members from 
potential scams?
    Answer. At this time, the Commission has not asked for any specific 
additional legislation for protecting military members from potential 
scams. We would, however, be happy to review and provide assistance on 
any specific piece of proposed legislation.
    We have used our existing tools, including the FTC Act, the Fair 
Debt Collection Practices Act,\45\ the Telemarketing Sales Rule,\46\ 
and the Mortgage Assistance Relief Services Rule,\47\ to protect 
military consumers, and we will continue to do so. For example, earlier 
this year, the Commission announced settlements with two online high 
schools that claimed their diplomas could be used to join the military 
and that their programs conformed to the Department of Defense's SCORM 
standards for the training of military and civilian personnel.\48\ The 
FTC alleged that these diploma mills violated the FTC Act by failing to 
provide the promised valid high school equivalency degrees. As part of 
our investigation, we worked with DoD to provide evidence that the 
program was not SCORM-conformant.
---------------------------------------------------------------------------
    \45\ 15 U.S.C. Sec. 801 et seq.
    \46\ 16 C.F.R. Part 310.
    \47\ 16 C.F.R. Part 322.
    \48\ Press Release, Operators of Online `High Schools' Settle FTC 
Charges That They Misled Tens of Thousands Consumers with Fake Diplomas 
(Feb. 10, 2017), available at https://www.ftc.gov/news-events/press-
releases/2017/02/operators-online-high-schools-settle-ftc-charges-they-
misled-tens.
---------------------------------------------------------------------------
    In other instances, the FTC has brought actions against scammers 
that target the general population but tailor their practices to 
deceive military consumers. In one recent case against a fraudulent 
debt collector, we talked to a consumer whose family was harassed while 
he was on active duty, and who was threatened with action under the 
Uniform Code of Military Justice, all about a debt he did not actually 
owe.\49\ The FTC was able to obtain a court order banning these 
collectors from the debt collection industry and imposing monetary 
judgments against them. In another case, the FTC brought an action 
alleging that a sham non-profit claimed it would provide legal 
representation to struggling homeowners trying to avoid foreclosure but 
failed to provide the promised services.\50\ One consumer we talked to 
was an elderly veteran amputee who had paid almost $10,000 to the 
scammers to obtain a mortgage loan modification and received nothing of 
value in return. The FTC obtained an order banning the scammers from 
the mortgage and debt relief industries and returned approximately $3 
million to alleged victims of the scam.
---------------------------------------------------------------------------
    \49\ Press Release, Court Halts Debt Collector's Operations, 
Freezes Assets (July 21, 2014), available at https://www.ftc.gov/news-
events/press-releases/2014/07/court-halts-debt-collectors-operations-
freezes-assets.
    \50\ See Press Release, FTC Mails Refund Checks Totaling Nearly $3 
Million to Consumers Victimized by Alleged Mortgage Relief Scam (May 
28, 2014), available at https://www.ftc.gov/news-events/press-releases/
2014/05/ftc-mails-refund-checks-totaling-nearly-3-million-consumers.

    Question 5. Acting Chairman Ohlhausen, what specific efforts has 
the FTC undertaken with our service branches to help protect our 
service men and women?
    Answer. Protecting military consumers through law enforcement and 
education is a top priority of the Commission, and we work closely with 
military partners to help the military community avoid frauds. Military 
Consumer is the FTC's longstanding campaign to reach service members 
and their families. The FTC website I mentioned in my testimony, 
Military.Consumer.gov, is a joint initiative with Department of 
Defense, the CFPB's Office of Servicemember Affairs, Military Saves, 
FINRA Investor Education Foundation, the National Military Family 
Association and other partners to empower active duty and retired 
servicemembers, military families, veterans, and civilians in the 
military community. The site's Military Consumer Toolkit offers free 
materials on topics that allow personal financial managers, counselors, 
command, and others in the military community to share practical 
financial readiness tips.
    While Military Consumer is a year-round campaign, each July the FTC 
hosts the Month of the Military Consumer with the Department of Defense 
to bring additional focus to consumer issues affecting servicemembers 
and military families. This year, the FTC will be hosting a free 
workshop on July 19, 2017, to examine financial issues and scams that 
can affect military consumers, including active duty servicemembers in 
all branches and veterans. Topics of discussion at the daylong event 
will include auto purchasing, financing, and leasing; student and other 
lending; information security issues; financial literacy and 
capability, including identity theft; and avoiding scams.\51\ We are 
working closely with our military partners in planning this event that 
will bring together all service branches, military consumer advocates, 
military legal services, government representatives, and industry 
representatives.
---------------------------------------------------------------------------
    \51\ Press Release, FTC Announces 2017 Military Consumer Financial 
Workshop: Protecting Those Who Protect Our Nation (Apr. 12, 2017), 
available at https://www.ftc.gov/news-events/press-releases/2017/04/
ftc-announces-2017-military-consumer-financial-workshop.
---------------------------------------------------------------------------
    The agency regularly disseminates short tips through social media 
and hosts periodic Twitter chats with federal, state, and military 
partners. In addition to our online materials, the FTC also has 
presented webinars and made presentations for personal financial 
managers in conjunction with the Army, the Navy, the Department of 
Veterans Affairs, Military One Source, the Military Family Learning 
Network (and USDA Cooperative Extension), and military contractors 
serving as counselors to military families.
    The Commission will continue to work with our military partners to 
protect our service men and women from unfair and deceptive acts and 
practices.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                       Hon. Maureen K. Ohlhausen
    Question. The FTC already operates on a tight budget. It is a small 
agency with a huge mandate: to police the American economy and enforce 
against ``unfair or deceptive acts or practices.'' The Trump 
Administration has proposed irresponsible cuts to virtually every 
aspect of the government that helps the average American. While we have 
yet to see a specific budget proposal for the FTC, the ``skinny'' 
budget did reference a vague 9.8 percent cut to ``other agencies'' that 
were not specifically mentioned. It seems safe to say that funding cuts 
may well be coming to the FTC. How would a possible budget cut--say, 
along the lines of a 9.8 percent cut--affect the FTC's ability to 
protect American consumers from scams and fraud?
    Answer. We are currently working with OMB to determine what the 
President's 2018 budget will recommend for the Commission and we are 
optimistic that it will not propose a significant cut for the agency. 
However, if the FTC faced a significant budgetary cut, we would strive 
to minimize its effect on the Commission's ability to enforce consumer 
protection and competition laws, though it would likely have some 
impact.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                       Hon. Maureen K. Ohlhausen
    Question 1. In March, the DOJ indicted four individuals, including 
two Russian spies, for hacking into Yahoo's systems in 2014 and 
obtaining access to at least 500 million Yahoo accounts. According to 
the indictment, defendants spied on U.S. government officials and 
private-sector employees of financial companies, among others. One 
defendant also exploited the data for financial gain. He searched user 
e-mail accounts for gift card numbers, redirected Yahoo search traffic 
so he could make commissions, and stole the contacts of at least 30 
million Yahoo accounts to conduct a spam marketing scheme. What are the 
chances of the United States taking these Russian spies into custody 
for their crimes?
    Answer. The FTC does not have criminal law enforcement authority, 
but it works closely with its criminal and foreign law enforcement 
partners to achieve a broader impact and further its mission of 
protecting consumers. For example, as noted during the March 21, 2017, 
hearing before this Subcommittee, the Commission created the Criminal 
Liaison Unit in 2003, and FTC prosecution referrals have led to 
hundreds of fraudsters facing criminal charges and prison time.
    While the FTC encourages criminal authorities to pursue hackers, we 
also believe it is important for companies to shore up the security of 
their systems, so that they can help protect against unauthorized 
access to, and misuse of, consumer data. Unfortunately, reports of data 
breaches like the one you cite affect millions of Americans. The 
Commission is deeply concerned about the risk of fraud, identity theft, 
and other harm that consumers face as a result of such breaches, which 
is why promoting data security has long been, and will continue to be, 
a priority.
    The Commission enforces several civil statutes and rules that 
impose security obligations upon businesses that collect and maintain 
consumer data. The Commission's Safeguards Rule, which implements the 
Gramm-Leach-Bliley Act, for example, provides data security 
requirements for financial institutions within the Commission's 
jurisdiction.\1\ The Fair Credit Reporting Act (``FCRA'') requires 
consumer reporting agencies to use reasonable procedures to ensure that 
the entities to which they disclose sensitive consumer information have 
a permissible purpose for receiving that information,\2\ and imposes 
safe disposal obligations on entities that maintain consumer report 
information.\3\ The Children's Online Privacy Protection Act 
(``COPPA'') requires reasonable security for children's information 
collected online.\4\ In addition, the Commission enforces Section 5 of 
the FTC Act, which prohibits unfair or deceptive acts or practices, 
such as businesses making false or misleading claims about their data 
security procedures, or failing to employ reasonable security measures 
and, as a result, causing or likely causing substantial consumer 
injury.\5\ Since 2001, the Commission has used its authority under 
these laws to take enforcement action and obtain settlements in 
approximately 60 cases against businesses that it charged with failing 
to provide reasonable and appropriate protections for consumers' 
personal information.\6\
---------------------------------------------------------------------------
    \1\ 16 C.F.R. Part 314, implementing 15 U.S.C. Sec. 6801(b).
    \2\ 15 U.S.C. Sec. 1681e.
    \3\ Id. at Sec. 1681w. The FTC's implementing rule is at 16 C.F.R. 
Part 682.
    \4\ 15 U.S.C. Sec. Sec. 6501-6506; see also 16 C.F.R. Part 312 
(``COPPA Rule'').
    \5\ 15 U.S.C. Sec. 45(a). If a company makes materially misleading 
statements or omissions about a matter, including data security, and 
such statements or omissions are likely to mislead reasonable 
consumers, they can be found to be deceptive in violation of Section 5. 
Further, if a company's data security practices cause or are likely to 
cause substantial injury to consumers that is neither reasonably 
avoidable by consumers nor outweighed by countervailing benefits to 
consumers or to competition, those practices can be found to be unfair 
and violate Section 5.
    \6\ See generally FTC Business Center, Legal Resources available at 
http://www.ftc.gov/tips-advice/business-center/legal-
resources?type=case&field_consumer_protection_topics_tid=249.
---------------------------------------------------------------------------
    In addition to bringing enforcement actions, the Commission engages 
in significant educational efforts discussed in more detail below. In 
all of its efforts, the Commission looks forward to continued 
cooperation and collaboration with its law enforcement partners, and 
with private industry, to protect the security of consumers' data.

    Question 2. So, despite our country and the Department of Justice's 
best efforts, our country remains vulnerable to outside threats seeking 
to infiltrate our systems and prey on our consumers. The New York Times 
has also reported that despite DOJ's indictment against the individuals 
responsible for these attacks, one billion Yahoo accounts--stolen in 
another attack on the company a year earlier--continue to be found for 
sale on underground hacker forums as recently as last Friday, for 
$200K. This is a stark reminder that while Federal prosecutors are 
taking steps they can to hold the criminals and perpetrators 
accountable, private consumer information is still available and 
vulnerable for abuse. Do you think Yahoo has implemented reasonable 
security standards to protect its customers?
    Answer. The Commission can only determine whether a company's 
practices are reasonable after conducting an investigation. Because 
Yahoo has made our investigation public in a filing with the Securities 
and Exchange Commission, I can confirm that we are investigating the 
company. But Commission rules prevent me from making any further 
comments about the details of our investigation.
    More generally, through its enforcement actions and education 
materials,\7\ the Commission has publicly provided the core principles 
that it applies when looking at a company's data security practices. 
For example, the Commission does not require perfect data security and 
the mere fact that a breach occurred does not mean that a company has 
violated the law. Rather, a company's security must be reasonable under 
the circumstances. There is no one-size-fits-all approach to what 
constitutes reasonable data security and what is reasonable will vary, 
depending on the size and complexity of a company's operations, the 
amount and sensitivity of the data it collects, and the availability of 
low-cost tools to mitigate threats. Thus, a large company collecting 
vast amounts of sensitive data will need to have different measures in 
place than a company collecting small amounts of non-sensitive data. 
Reasonable security should also include a continuous process of 
assessing and addressing risks.
---------------------------------------------------------------------------
    \7\ See, e.g., Start with Security: A Guide for Business (June 
2015), available at https://www.ftc.gov/tips-advice/business-center/
guidance/start-security-guide-business; Start with Security: Free 
Resources for Any Business (Feb. 2016), available at https://
www.ftc.gov/news-events/audio-video/business; Protecting Personal 
Information: A Guide for Business (Oct. 2016), available at https://
www.ftc.gov/tips-advice/business-center/guidance/protecting-personal-
information-guide-business; Data Breach Response: A Guide for Business 
(Oct. 2016), available at https://www.ftc.gov/tips-advice/business-
center/guidance/data-breach-response-guide-business.
---------------------------------------------------------------------------
    The FTC will continue to apply these principles as it uses its 
civil law enforcement authority to promote data security in the private 
sector.

    Question 3. According to a recent study, one out of three content 
theft sites expose consumers to malware, leading to compromised bank 
accounts, identity theft, and ``ransomware'' that locks a consumer out 
of their data until they pay the criminals the required ransom. This 
study showed that 45 percent of malware was delivered by ``drive-by-
downloads,'' which invisibly download to a user's computer without 
requiring them to click on a link. What is the FTC doing to inform and 
educate consumers about the link between content theft sites and 
malware?
    Answer. I share your concerns about malware on consumers' computers 
and the potential harm such malware may cause consumers. Related to the 
specific practice you have highlighted, last week the Commission issued 
a consumer education blog post warning consumers that downloading 
pirated content is illegal and cautioning that websites offering such 
content often hide malware that can bombard them with ads, take over 
their computers, or steal their personal information.\8\
---------------------------------------------------------------------------
    \8\ Free movies, costly malware (Apr. 12, 2017), available at 
https://www.consumer.ftc.gov/blog/free-movies-costly-malware.
---------------------------------------------------------------------------
    Consumer education is a central part of the FTC's mission. Our 
outreach includes publications, online resources, workshops, and social 
media. These outreach efforts cover many topics, including malware, 
tech support scams, spyware, phishing, peer-to-peer file sharing, and 
social networking. We work closely with local, state, and Federal 
Government entities, industry representatives, and consumer groups to 
maximize the impact of these efforts.
    The FTC has many consumer education resources that provide 
additional information to consumers about dangers associated with 
malware. For example, the Commission has published blog posts and 
videos on ransomware \9\ and identity theft.\10\ In addition, our Net 
Cetera publication helps parents, teachers, and other adults talk to 
children about how to be safe, secure, and responsible online.\11\
---------------------------------------------------------------------------
    \9\ How to Defend Against Ransomware (Nov. 10, 2016), available at 
https://www.con
sumer.ftc.gov/blog/how-defend-against-ransomware.
    \10\ See FTC Consumer Information, Identity Theft, available at 
https://www.consumer.ftc.gov/topics/identity-theft.
    \11\ Netcetera: Chatting with Kids About Being Online (Jan. 2014), 
available at https://www.onguardonline.gov/articles/pdf-0001-
netcetera.pdf.
---------------------------------------------------------------------------
    Relevant resources also include education materials relating to 
individual enforcement actions the Commission has taken. For example, 
last year the Commission settled an action with ASUSTeK Computer, Inc. 
in which the Commission alleged that the company's routers had security 
bugs that allowed malware to commandeer consumers' web traffic.\12\ In 
connection with this settlement, the Commission published a blog post 
with tips on router security.\13\
---------------------------------------------------------------------------
    \12\ ASUSTeK Computer, Inc., No. C-4587 (July 28, 2016), available 
at https://www.ftc.gov/enforcement/cases-proceedings/142-3156/asustek-
computer-inc-matter.
    \13\ Got an ASUS router at home? Read this. (Feb. 2016), available 
at https://www.consumer.ftc.gov/blog/got-asus-router-home-read.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                       Hon. Maureen K. Ohlhausen
    Question. Malware that gives fraudsters access to consumers' 
computers can be a powerful tool for scams. In one model, websites that 
offer pirated content, bogus coupons, or fake products are paid to 
infect computers with malware. Sometimes just visiting one of these 
websites--without even clicking on anything--can be enough to infect 
your computer with malware. Scammers can then use the infected 
computers to access financial information, launch cyberattacks, or even 
take over the computer's camera.
    Chairman Ohlhausen, what is the FTC doing to educate consumers 
about the danger of websites designed to infect their computers with 
malware?
    Answer. I share your concerns about malware on consumers' computers 
and the potential harm such malware may cause consumers. Related to the 
specific practice you have highlighted, last week, the Commission 
issued a consumer education blog post warning consumers that 
downloading pirated content is illegal and websites offering such 
content often hide malware that can bombard them with ads, take over 
their computers, or steal their personal information.\14\
---------------------------------------------------------------------------
    \14\ Free movies, costly malware (Apr. 12, 2017), available at 
https://www.consumer.ftc.gov/blog/free-movies-costly-malware.
---------------------------------------------------------------------------
    Consumer education is a central part of the FTC's mission. Our 
outreach includes publications, online resources, workshops, and social 
media. These outreach efforts cover many topics, including malware, 
tech support scams, spyware, phishing, peer-to-peer file sharing, and 
social networking. We work closely with local, state, and Federal 
Government entities, industry representatives, and consumer groups to 
maximize the impact of these efforts.
    The FTC has many consumer education resources that provide 
additional information to consumers about dangers associated with 
malware. For example, the Commission has published blog posts and 
videos on ransomware \15\ and identity theft.\16\ In addition, our Net 
Cetera publication helps parents, teachers, and other adults talk to 
children about how to be safe, secure, and responsible online.\17\
---------------------------------------------------------------------------
    \15\ How to Defend Against Ransomware (Nov. 10, 2016), available at 
https://www.consumer.ftc.gov/blog/how-defend-against-ransomware.
    \16\ See FTC Consumer Information, Identity Theft, available at 
https://www.consumer.ftc.gov/topics/identity-theft.
    \17\ Netcetera: Chatting with Kids About Being Online (Jan. 2014), 
available at https://www.onguardonline.gov/articles/pdf-0001-
netcetera.pdf.
---------------------------------------------------------------------------
    Relevant resources also include education materials relating to 
individual enforcement actions the Commission has taken. For example, 
last year the Commission settled an action with ASUSTeK Computer, Inc. 
in which the Commission alleged that the company's routers had security 
bugs that allowed malware to commandeer consumers' web traffic.\18\ In 
connection with this settlement, the Commission published a blog post 
with tips on router security.\19\
---------------------------------------------------------------------------
    \18\ ASUSTeK Computer, Inc., No. C-4587 (July 28, 2016), available 
at https://www.ftc.gov/enforcement/cases-proceedings/142-3156/asustek-
computer-inc-matter.
    \19\ Got an ASUS router at home? Read this. (Feb. 2016), available 
at https://www.consumer.ftc.gov/blog/got-asus-router-home-read.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                         Hon. Terrell McSweeny
    Question 1. During the hearing, one of the issues raised by both 
panel members and witnesses was the rise of ransomware, especially 
targeted at small business owners. One of the devious ways that hackers 
can gain access to a computer is by baiting Internet users with the 
prospect of free movies, TV shows or music. Recent studies have found 
that 1 in 3 so-called pirate websites expose consumers to malware. 
Given the rise of piracy as a means to bait and infect computers, and 
increase in ransomware, what is the FTC doing to warn consumers about 
the connection between piracy and malware?
    Answer. The Commission recently published a blog post on the FTC's 
website entitled ``Free movies, costly malware'' to educate consumers 
about the possibility that pirate websites will infect their computers 
and devices with malware if they download copyrighted content.\1\ We 
also have posted the blog to military.consumer.gov. The FTC will 
continue to warn consumers about the risks associated with downloading 
content from pirate websites, as appropriate. I am very concerned about 
ransomware and fear the danger to businesses and consumers will only 
grow. This is an issue that the FTC, Congress, and law enforcement at 
every level must collaborate on to provide better solutions to American 
consumers and businesses.
---------------------------------------------------------------------------
    \1\ Blog Post, Free movies, costly malware (April 12, 2017), 
available at www.consumer.ftc.gov/blog/free-movies-costly-malware.

    Question 2. Another theme of the hearing was the economic loss 
caused by scams. A recent investigation by security company RiskIQ 
found that hackers are paying pirate website operators $70 million a 
year to infect computers. What role should the FTC play in warning 
consumers and encouraging those who facilitate online activity--such as 
domain sellers, hosting companies, search engine companies and payment 
processors--in combatting these piracy/malware operators? For example, 
should the FTC post warnings on their website, produce public service 
announcements or work with digital platforms to raise awareness and 
combat this new threat?
    Answer. The FTC has a robust law enforcement and consumer education 
platform designed to combat online threats, such as the unwanted 
installation of malware and other software. For instance, last fall, 
the FTC held a workshop with numerous industry participants to educate 
consumers about how to avoid--and respond to--ransomware.\2\ And, as 
noted in response to the previous question, the FTC recently published 
a blog post on the its website entitled ``Free movies, costly malware'' 
to educate consumers about the possibility that pirate websites will 
infect their computers and devices with malware if they download 
copyrighted content.\3\ The FTC also produced a consumer education 
video about how to avoid, detect, and remove malware.\4\
---------------------------------------------------------------------------
    \2\ Event Description, Fall Technology Series: Ransomware (Sept. 7, 
2016), available at www.ftc.gov/news-events/events-calendar/2016/09/
fall-technology-series-ransomware.
    \3\ Blog Post, Free movies, costly malware (April 12, 2017), 
available at www.consumer.ftc.gov/blog/free-movies-costly-malware.
    \4\ Video & Media, Protect Your Computer from Malware, (Oct. 3, 
2012) available at www.consumer.ftc.gov/media/video-0056-protect-your-
computer-malware.
---------------------------------------------------------------------------
    In addition, the Commission has brought several enforcement actions 
to stop companies from installing malware and other unwanted software 
on consumers' computers and devices.\5\ The Commission will continue to 
use its investigative, legal, and public outreach tools to protect 
consumers from unwanted and harmful software. Moreover, the Commission 
will continue, as it has done in the past, to work with high tech 
companies, service providers, and industry participants to combat 
online threats.
---------------------------------------------------------------------------
    \5\ See, e.g., Press Release, FTC Charges Tech Support Companies 
With Using Deceptive Pop-Up Ads to Scare Consumers Into Purchasing 
Unneeded Services (Oct. 12, 2016), available at www.ftc.gov/news-
events/press-releases/2016/10/ftc-charges-tech-support-companies-using-
deceptive-pop-ads-scare; Press Release, Tech Company Settles FTC 
Charges It Unfairly Installed Apps on Android Mobile Devices Without 
Users' Permission (Feb. 5, 2016), available at www.ftc.gov/news-events/
press-releases/2016/02/tech-company-settles-ftc-charges-it-unfairly-
installed-apps; Press Release, FTC Permanently Shuts Down Notorious 
Rogue Internet Service Provider (May 19, 2010), available at 
www.ftc.gov/news-events/press-releases/2010/05/ftc-permanently-shuts-
down-notorious-rogue-internet-service.

    Question 3. In the FTC's prepared testimony, the agency discusses 
the challenges associated with offshore scammers, including 
international telemarketing fraud rings. The Committee is also aware 
that so-called Jamaican lottery scams have proliferated in recent 
years. One tool available to FTC is the U.S. SAFE WEB Act, which allows 
the Commission to address consumer protection matters, particularly 
those with an international dimension, providing for increased 
cooperation with foreign law enforcement authorities, confidential 
---------------------------------------------------------------------------
information sharing and investigative assistance.

    a. How has FTC used the SAFE WEB Act in its fight against scams?
    Answer. The FTC has used the Act's powers extensively in cross-
border fraud cases and other matters to protect Americans from cross-
border fraud. Between FY 2012 and FY 2016, for example, the FTC used 
the Act to share information in response to almost 65 requests from 
foreign agencies, and issued nearly 65 civil investigative demands to 
aid 28 foreign investigations. These efforts have enabled foreign 
counterparts to investigate conduct that directly harms American 
consumers, and also helped to advance FTC investigations in many 
instances. Here are a few examples since Congress reauthorized the Act 
in 2012:
    The FTC used its SAFE WEB powers to work with Canadian law 
enforcement to stop a telemarketing scam that targeted senior citizens. 
On the U.S. side, the FTC obtained an order for more than $10 million 
in consumer redress and the Justice Department charged some of the 
defendants criminally. On the Canadian side, the Royal Canadian Mounted 
Police (RCMP) brought its own case, arresting the Canadian-based 
defendants and seizing evidence.FTC v. First Consumers)\6\
---------------------------------------------------------------------------
    \6\ See, Press Release, Court Orders Ringleader of Scam Targeting 
Seniors Banned From Telemarketing (March 12, 2015), available at 
https://www.ftc.gov/news-events/press-releases/2015/03/court-orders-
ringleader-scam-targeting-seniors-banned
---------------------------------------------------------------------------
    The FTC used its SAFE WEB powers to obtain evidence for the Toronto 
Police Service's investigation of a sham business that scammed $93 
million from consumers by purporting to sell banner ads for websites. 
The scheme had thousands of victims worldwide, including in the United 
States. Canadian law enforcement broke up the scam and arrested two of 
its leaders. (RCMP action against Banners' Broker)\7\
---------------------------------------------------------------------------
    \7\ See, Press Release, $126M Banners Broker pyramid scheme 
dismantled by Toronto police (Dec 02, 2015) available at http://
www.cbc.ca/news/canada/toronto/pyramid-scheme-toronto-1.3356905
---------------------------------------------------------------------------
    The agency used its SAFE WEB authority in another telemarketing 
scam to repatriate, with Justice Department help, nearly $2 million of 
the defendant's assets from Canadian bank accounts frozen by the RCMP; 
the FTC has now sent redress checks to 1,630 victims totaling $1.8 
million. (FTC v. Expense Management of America)\8\
---------------------------------------------------------------------------
    \8\ See, Press Release, FTC Returns $1.87 Million to Consumers 
Harmed by Debt Relief Scam (May 09, 2016), available at https://
www.ftc.gov/news-events/press-releases/2016/05/ftc-returns-187-million-
consumers-harmed-debt-relief-scam
---------------------------------------------------------------------------
    The FTC has used SAFE WEB in a number of business directory scams 
that prey on small businesses, non-profits and churches to share 
evidence with counterparts in Canada and other jurisdictions. This has 
led to several FTC judgments and law enforcement actions in Canada. 
(E.g., FTC v. Medical Yellow Directories, FTC v. Modern Technology)\9\
---------------------------------------------------------------------------
    \9\ See, e.g., Press Release, FTC Halts Online `Yellow Pages' 
Scammers (Dec 02, 2015), available at https://www.ftc.gov/news-events/
press-releases/2015/12/ftc-halts-online-yellow-pages-scammers; Press 
Release, FTC and Florida Halt Internet `Yellow Pages' Scammers (July 
17, 2014), available at https://www.ftc.gov/news-events/press-releases/
2014/07/ftc-florida-halt-internet-yellow-pages-scammers
---------------------------------------------------------------------------
    SAFE WEB also allowed the FTC to exchange information with Canadian 
law enforcement about a company that put unauthorized charges on 
consumers' phone bills using phony virus-scan scareware and led to law 
enforcement actions involving that conduct on both sides of the border. 
(FTC v. Jesta Mobile Media, Competition Bureau Canada action against 
Telus)\10\
---------------------------------------------------------------------------
    \10\ See,e.g., Press Release, Jesta Digital Settles FTC Complaint 
it Crammed Charges on Consumers' Mobile Bills Through 'Scareware' and 
Misuse of Novel Billing Method (Aug 21, 2013), available at https://
www.ftc.gov/news-events/press-releases/2013/08/jesta-digital-settles-
ftc-complaint-it-crammed-charges-consumers; Press Release, Telus 
customers to receive $7.34 million in rebates as part of Competition 
Bureau agreement (Dec 30, 2015), available at http://
www.competitionbureau.gc.ca/eic/site/cb-bc.nsf/eng/04017.html
---------------------------------------------------------------------------
    Apart from scams, the Act also supports FTC enforcement of the EU-
U.S. Privacy Shield Framework, which enables transatlantic data flows 
for many U.S. companies. The FTC's SAFE WEB powers provide for stronger 
cooperation with European data protection authorities on investigations 
and enforcement against possible Privacy Shield violations, a point 
cited in the European Commission's Privacy Shield adequacy decision.

    b. This legislation is scheduled to sunset in 2020. Do you support 
its reauthorization? Will you commit to provide technical assistance to 
the Committee, including any modifications to improve the FTC's ability 
to go after international scammers?
    Answer. I strongly support SAFE WEB reauthorization and commit to 
providing technical assistance to the Committee for that process. FTC 
staff worked closely with the Committee to develop the original 
legislation passed in 2006, and to support reauthorization in 2012. We 
would be pleased to work with the Committee to continue strengthening 
our ability to go after international scammers. We in particular 
suggest repealing the sunset provision entirely: greater certainty for 
the agency and our international partners about the FTC's enforcement 
tools going forward improves our ability to develop enduring 
cooperation agreements and enforcement projects with foreign 
counterparts. Congress granted the SEC and the CFTC similar enforcement 
powers over 25 years ago, without a sunset provision. Their positive 
enforcement cooperation experience, and the FTC's successful experience 
with SAFE WEB over the past decade, confirms the value of this 
legislation to our enforcement mission.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                         Hon. Terrell McSweeny
    Question. Last Congress, Microsoft came before the Senate Aging 
Committee and told us about partnerships they had with states to combat 
tech scams. For Nevadans, consumer protection is a top issue, 
especially because of the impact that scams can have on an individual's 
finances or even their privacy. Are there any FTC initiatives in 
coordination with State Attorneys General that are models for 
protecting consumers from scams?
    Answer. The Commission has robust, collaborative relationships with 
state law enforcers, including through the National Association of 
Attorneys General. The FTC's collaboration with its state partners 
takes many forms, including sharing information and targets, assisting 
with investigations, and working collaboratively on long-term policy 
initiatives.
    Over the last two years, the FTC has collaborated with its state 
partners on dozens of investigations and numerous joint enforcement 
actions, including investigations and enforcement actions concerning 
tech support scams,\11\ robocalls,\12\ charity scams,\13\ and debt 
collection practices,\14\ among other deceptive and unfair practices. 
The FTC also leads law enforcement ``sweeps''--coordinated, 
simultaneous law enforcement actions--in conjunction with state and 
local partners.\15\ To supplement its law enforcement efforts, the FTC 
and its state partners also co-host consumer protection conferences and 
workshops designed to protect consumers from fraud and provide guidance 
on how to identify and avoid scams.\16\
---------------------------------------------------------------------------
    \11\ See, e.g., Press Release, Telemarketing Defendants Charged by 
FTC in Tech Support Scheme Will Pay $10 Million for Consumer Redress 
(Dec. 22, 2016), available at www.ftc.gov/news-events/press-releases/
2016/12/telemarketing-defendants-charged-ftc-tech-support-scheme-will-
pay (case brought by FTC and the Florida Attorney General); Press 
Release, FTC and Florida Charge Tech Support Operation with Tricking 
Consumers into Paying Millions for Bogus Services (July 8, 2016), 
available at www.ftc.gov/news-events/press-releases/2016/07/ftc-
florida-charge-tech-support-operation-tricking-consumers; Press 
Release, Tech Support Operators Settle FTC, State of Florida Charges 
They Misled Consumers (Feb. 12, 2016), available at www.ftc.gov/news-
events/press-releases/2016/02/tech-support-operators-settle-ftc-state-
florida-charges-they.
    \12\ See, e.g., Press Release, FTC, Florida Attorney General Take 
Action Against Illegal Robocall Operation (June 14, 2016), available at 
www.ftc.gov/news-events/press-releases/2016/06/ftc-florida-attorney-
general-take-action-against-illegal-robocall; Press Release, FTC and 
Ten State Attorneys General Take Action Against Political Survey 
Robocallers Pitching Cruise Line Vacations to the Bahamas (March 4, 
2015), available at www.ftc.gov/news-events/press-releases/2015/03/ftc-
ten-state-attorneys-general-take-action-against-political.
    \13\ See Press Release, FTC, All 50 States and D.C. Charge Four 
Cancer Charities With Bilking Over $187 Million from Consumers (May 19, 
2015), available at www.ftc.gov/news-events/press-releases/2015/05/ftc-
all-50-states-dc-charge-four-cancer-charities-bilking-over.
    \14\ See, e.g., Press Release, FTC and Illinois Attorney General 
Halt Chicago-Area Operation Charged with Collecting and Selling Phantom 
Payday Loan Debts (Mar. 30, 2016), available at www.ftc.gov/news-
events/press-releases/2016/03/ftc-illinois-attorney-general-halt-
chicago-area-operation-charged.
    \15\ See, e.g., Press Release, FTC and Federal, State and Local Law 
Enforcement Partners Announce Nationwide Crackdown Against Abusive Debt 
Collectors (Nov. 4, 2015), available at www.ftc.gov/news-events/press-
releases/2015/11/ftc-federal-state-local-law-enforcement-partners-
announce; Press Release, FTC, Multiple Law Enforcement Partners 
Announce Crackdown on Deception, Fraud in Auto Sales, Financing and 
Leasing (March 26, 2015), available at www.ftc.gov/news-events/press-
releases/2015/03/ftc-multiple-law-enforcement-partners-announce-
crackdown; Press Release, FTC and Dozens of Law Enforcement Partners 
Halt Travel and Timeshare Resale Scams in Multinational Effort (June 6, 
2013), available at www.ftc.gov/news-events/press-releases/2013/06/ftc-
dozens-law-enforcement-partners-halt-travel-timeshare-resale; Press 
Release, FTC Leads Joint Law Enforcement Effort Against Companies that 
Allegedly Made Deceptive ``Cardholder Services'' Robocalls (Nov. 1, 
2012), available at www.ftc.gov/news-events/press-releases/2012/11/ftc-
leads-joint-law-enforcement-effort-against-companies.
    \16\ See, e.g., Events Calendar, FTC & NASCO Host a Conference 
Exploring Consumer Protection Issues and Charitable Solicitations 
(March 21, 2017), available at www.ftc.gov/news-events/events-calendar/
2017/03/give-take-consumers-contributions-charity; Events Calendar, 
Working Together to Protect Midwest Consumers: A Common Ground 
Conference (Oct. 25, 2016), available at www.ftc.gov/news-events/
events-calendar/2016/10/working-together-protect-midwest-consumers-
common-ground; Events Calendar, Working Together to Protect Michigan 
Consumers: A Common Ground Conference (July 13, 2016), available at 
www.ftc.gov/news-events/events-calendar/2016/07/working-together-
protect-michigan-consumers-common-ground; Events Calendar, Utah 
Consumer Protection Summit (Oct. 22, 2015), available at www.ftc.gov/
news-events/events-calendar/2015/10/utah-consumer-protection-summit.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                         Hon. Terrell McSweeny
    Question 1. Commissioner McSweeny, has the FTC focused on the issue 
of travel booking scams beyond issuing consumer alerts?
    Answer. As you note, in July 2015, the FTC issued consumer 
education cautioning consumers about third-party websites that may 
deceptively mimic hotel websites. In addition, we have met with members 
of Congress to discuss the issue of deceptive travel sites and have 
proposed technical assistance and comments on proposed legislation. 
Because the existence and details of investigations are non-public, we 
cannot comment on any specific matters. However, the FTC will take law 
enforcement action in appropriate cases.

    Question 2. Commissioner McSweeny, what plans does the FTC have to 
notify and coordinate with State Attorney Generals prior to peak travel 
season this year, including summer, Thanksgiving, and the Christmas 
holidays?
    Answer. The FTC has worked closely with the State Attorneys General 
on many issues, including most recently during National Consumer 
Protection week. The FTC will explore whether there are opportunities 
to coordinate with the states to protect consumers from scams that 
affect them during these peak travel periods.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                         Hon. Terrell McSweeny
    Question. The FTC already operates on a tight budget. It is a small 
agency with a huge mandate: to police the American economy and enforce 
against ``unfair or deceptive acts or practices.'' The Trump 
Administration has proposed irresponsible cuts to virtually every 
aspect of the government that helps the average American. While we have 
yet to see a specific budget proposal for the FTC, the ``skinny'' 
budget did reference a vague 9.8 percent cut to ``other agencies'' that 
were not specifically mentioned. It seems safe to say that funding cuts 
may well be coming to the FTC. How would a possible budget cut--say, 
along the lines of a 9.8 percent cut--affect the FTC's ability to 
protect American consumers from scams and fraud?
    Answer. The FTC is still working with OMB to determine what the 
President's budget will recommend for us in 2018. We are optimistic 
that the budget will not propose a significant cut for the Commission. 
To respond to your question, however, were the FTC's appropriation to 
be cut by 9.8 percent, this could significantly affect the Commission's 
ability to enforce consumer protection and competition laws.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Hon. Terrell McSweeny
    Question 1. Last year, the FTC successfully finalized settlements 
with two remaining sham cancer charities--out of four--that had 
siphoned more than $187 million from donors. This marked the largest 
joint enforcement effort ever by the FTC and state charity regulators. 
These fraudulent charities--named ``Cancer Fund of America'' and 
``Cancer Support Services,'' claimed to help cancer patients.
    However, the overwhelming majority of donations were lavishly spent 
on the fake charities' operators and their families and friends, as 
well as on fundraisers who shamelessly spent donations on cars, trips, 
luxury cruises, college tuition, gym memberships, Jet Ski outings, 
sporting event and concert tickets, and dating site memberships. 
According to the 2015 FTC complaint, this misappropriation of consumer 
donations dated back to 2008. How were these sham charities able to rob 
donors of so much money and for so long?
    Answer. As you note, in March 2016, the FTC, all 50 states and the 
District of Columbia resolved litigation against the remaining 
defendants in Cancer Fund of America, resulting in, among other things, 
a dissolution of the sham charities and a ban on the companies 
president's ability to profit from any charity fundraising in the 
future.\1\ These sham outfits were quite adept at masking their 
charade. For example, they hid their wrongdoing by manipulating their 
financial reporting and using deceptive and invalid accounting 
techniques to claim huge donations of gifts-in-kind. This allowed them 
to inflate their reported revenue and program spending by $223 million, 
which allowed the organizations to appear both larger and more 
efficient with donors' money than they really were. It was not obvious 
from their public financial reports to the IRS or the states that less 
than 3 percent of donated cash was being spent on any program services 
(collectively).
---------------------------------------------------------------------------
    \1\ See Press Release, FTC, FTC, States Settle Claims Against Two 
Entities Claiming to Be Cancer Charities; Orders Require Entities to Be 
Dissolved and Ban Leader from Working for Non-Profits (March 30, 2016) 
available at https://www.ftc.gov/news-events/press-releases/2016/03/
ftc-states-settle-claims-against-two-entities-claiming-be-cancer.
---------------------------------------------------------------------------
    In addition, charity fraud is easy to miss and underreported. The 
average donation to the sham cancer charities was less than $30, and 
the vast majority of those donations were made in response to telephone 
solicitations. Consumers who gave in response to the promise that their 
donation would help cancer patients never knew that their money did not 
go to that cause--and thus did not complain. Further, based on our 
experience, we believe that few donors take the time to research a $20 
to $30 donation before giving, and in this case, the sham charities' 
false reporting would have hidden any red flags from even the most 
diligent consumers.

    Question 2. In what way has the nonprofit exemption in the FTC Act 
hamstrung the Commission's ability to act swiftly to prevent or stop 
illegal conduct in the nonprofit sector?
    Answer. Since nonprofit entities fall outside of the FTC's 
jurisdiction, we cannot take action when a ``legitimate'' charity 
crosses the line and engages in deceptive or unfair acts and practices. 
Instead, we can only reach illegal conduct if we can establish that the 
charity is a ``sham.'' A sham charity is one that operates primarily to 
profit individuals and private interests over its beneficiaries. 
Proving that a charity is a sham requires significant probing into the 
internal operations of the organization, including detailed review and 
analysis of bank records and other financial records, board meeting 
minutes, and employment practices among other things. Not surprisingly, 
making this threshold proof is difficult, and in some cases 
impossible--leaving some charitable entities that engage in deceptive 
practices beyond our reach.

    Question 3. According to a recent study, one out of three content 
theft sites expose consumers to malware, leading to compromised bank 
accounts, identity theft, and ``ransomware'' that locks a consumer out 
of their data until they pay the criminals the required ransom. This 
study showed that 45 percent of malware was delivered by ``drive-by-
downloads,'' which invisibly download to a user's computer without 
requiring them to click on a link. What is the FTC doing to inform and 
educate consumers about the link between content theft sites and 
malware?
    Answer. I share your concerns about malware on consumers' 
computers, which can lead to anything from nuisance adware that 
delivers pop-up ads, to software that causes sluggish computer 
performance, to keystroke loggers that capture sensitive information. 
The Commission will soon issue a blog post warning consumers that 
websites offering free content often hide malware that can bombard them 
with ads, take over their computers, or steal their personal 
information. More generally, the FTC uses a variety of methods to 
provide consumers with information about the privacy and security 
implications of new and existing technologies, and how to avoid and 
detect malicious software.
    Our outreach includes publications, online resources, workshops, 
and social media. Among the many topics we cover are malware, tech 
support scams, spyware, phishing, peer-to-peer file sharing, and social 
networking. Among the resources we have that may be useful are a blog 
post and video describing the nature of the ransomware threat, how to 
defend against ransomware, and essential steps for victims to take.\2\
---------------------------------------------------------------------------
    \2\ FTC Consumer Blog, How to Defend Against Ransomware (Nov. 10, 
2016), available at https://www.consumer.ftc.gov/blog/how-defend-
against-ransomware.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            Hon. Mike DeWine
    Question. One of the biggest challenges Federal agencies face is to 
fulfil their missions while making the most of limited resources. This 
is certainly true of the FTC and its mandate to protect American 
consumers. Can you share your views on how the FTC uses its 
relationships with state and local law enforcement both to provide 
assistance and to bolster its own consumer protection efforts? Is there 
a good level of coordination, or would you like to see more from FTC?
    Answer. The relationship between my office and the Federal Trade 
Commission's (FTC) Cleveland Regional Office has historically been very 
strong. Our Assistant Attorneys General are in fairly regular 
communication with the FTC's staff and have participated in a number of 
coordinated sweeps. That being said, there is always room for 
improvement.
    Like many Federal agencies, the FTC is hesitant to share 
investigative work product with state and local officials. Some of this 
may be by necessity. However, by promoting more open lines of 
communication and sharing of information, we could avoid duplicative 
work and, perhaps, end up with better results for consumers.
    In certain cases, the FTC also keeps attorneys general informed of 
Federal legislation related to consumer protection issues. This is 
helpful for states to use as a guide to create their own legislation if 
necessary.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jerry Moran to 
                            Hon. Mike DeWine
    Question. There are a number of state attorneys general that have 
made public service announcements (PSAs) warning consumers of the 
dangers to their finances and cybersecurity from visiting pirate 
websites, and many are in the process of amending their websites to 
reflect this. Do you think the state Attorneys General, as well as the 
FTC, has a role in these efforts?
    Answer. My office does a tremendous amount of outreach and 
education relating to cybersecurity and online scams of all types. In 
spite of our efforts, Ohioans continue to be victimized by pirated 
websites, phony friend requests, and bogus online offers.
    There are nearly endless opportunities to reach consumers in their 
homes, on their mobile devices, and through traditional and social 
media. Having a diversity of sources and voices can be very beneficial 
to our efforts to help consumers protect themselves from frauds and 
scams.
    Messages from Attorneys General can be reinforced by messages from 
the Federal Trade Commission, and vice versa. There is plenty of room 
in this arena for state Attorneys General and for the Federal Trade 
Commission. Each brings value and consumers deserve that maximum 
opportunity to learn about risks they may face while online. The FTC 
has always promoted states using the FTC resources--such as 
publications and videos--at no cost to the state. With the FTC's 
abilities to make high-end videos, it's helpful to the states who have 
limited resources to produce videos; the same can be said about their 
publications.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                            Hon. Mike DeWine
    Question 1. Mr. DeWine, what have you experienced in neighboring 
Ohio relative to travel booking scams and what additional support do 
you believe you could use from the FTC?
    Answer. We have experienced some travel booking scams or 
complaints, but we do not see a large majority of complaints from this 
specific category. That's not to say we don't take action. In 2013, we 
had a number of complaints against an individual who accepted money for 
vacations booked through her, but she provided nothing. In that case, 
we worked with the local prosecutor to prosecute her for two counts of 
theft, one of which she eventually plead guilty.
    While Ohio has the ability to bring cases on its own, as well as 
with other states, the FTC could be instrumental in helping curb bad 
practices of larger nation-wide businesses. For example, the FTC could 
help set best practices for third-party booking sites, vacation club 
memberships, or additional fees imposed by travel booking sites.

    Question 2. Mr. DeWine, has the FTC focused in on the issue of 
travel booking scams beyond issuing consumer alerts?
    Answer. Currently, I'm unaware of any cases the FTC is involved 
with regarding travel booking scams; that is not to say, however, that 
there are not cases. I do know that in January 2017, the FTC took a 
strong stance against and suggested legislation regulating additional 
fees imposed by hotels and resorts in which the hotel or resort was 
advertising a lower rate but then adding on an additional fee as 
``resort fee.''
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Hon. Mike DeWine
    Question. On this Committee, we often consider consumer-protection 
bills in which state attorneys general play a role in enforcement. For 
me, I believe multiple ``cops on the beat'' are a good thing, and I 
always support legislation where state attorneys general can partner 
with Federal agencies to work on the American people's behalf. However, 
some bills we consider in this Committee attempt to preempt state 
consumer-protection laws and clip the wings of state attorneys 
general's authorities. Can you comment on how important it is to 
preserve the prerogatives of state attorneys general to protect 
consumers from scams and fraud?
    Answer. It is imperative that the states' authority to protect 
consumers is preserved. The attorneys general are uniquely situated to 
address scams and unfair or deceptive practices at the regional, state, 
and local levels. Many times bad actors target specific geographic 
areas or populations within a state to take advantage of a disaster, 
weather event, or unique market. The attorneys general can react to 
these problems much more quickly and decisively than a Federal agency.
    In many ways, the attorneys general are the first line of defense 
for all Americans, as the enforcement actions taken on the state level 
influence practices across the spectrum of businesses inside our states 
and out.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                            Hon. Mike DeWine
    Question. The FTC's ``Every Community Initiative'' recognizes that 
fraud affects every community, and creates consumer education materials 
for vulnerable and often targeted communities, including older adults, 
military families, immigrants, and members of the Latino community.
    Would it be fair to say that if our efforts to educate consumers 
and small businesses about scams were reduced or discontinued, the 
American economy would suffer even more financial loss as a result of 
scams?
    Answer. I can't speak to the value of any single program, but I can 
talk about consumer education as a whole. I believe in the value of 
having staff assigned to helping people understand how they can avoid 
falling victim to a scam or making a bad purchasing decision and 
assisting them with recovering after it's happened.
    In Ohio, we put a lot of effort into finding ways to communicate 
with our consumer and business communities, including our immigrant and 
non-English speaking communities. We do this through social media, 
targeted outreach, and by having staff out in the field meeting people 
where they live. We are, first and foremost, public servants and we 
must do what it takes to protect the families and businesses we serve.
    Although we appreciate the efforts the FTC has made, the attorneys 
general understand that it's our job to educate our consumers. We will 
continue to fulfill our obligations no matter what happens to any 
specific Federal program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Frank W. Abagnale, Jr.
    Question 1. In your various writings over the years, you make a 
passionate case about the growth and harms of identity theft and the 
need for Federal legislation to tackle the problem. For instance, in 
The Art of the Steal, you wrote, ``If we're serious about combating 
identity theft, it's going to take a Federal solution [. . .].'' In 
Stealing Your Life--in a chapter titled, ``Write Your Company and 
Congressperson--Now!''--you wrote, ``Congress and state legislatures 
need to provide consumers with more protection.'' Do you continue to 
believe that there must be a Federal solution?
    Answer. Yes, I do. I believe there needs to be Federal laws on the 
books that hold companies, corporations and financial institutions 
liable for breaches that occur due to their negligence. The same way I 
feel very strongly that companies that produce software and hardware be 
responsible when their technology does not protect individuals, as well 
as businesses, when they claim it was designed to do so. Having no 
legal recourse, individuals, as well as businesses, are left in harm's 
way when companies do not take the adequate and necessary steps to make 
sure that there are no loop holes in their technology. For example, 
over the past 20 years I have worked as an advisor on two great fraud 
prevention technologies. The first one was called the 41st Parameter, 
eventually sold to Experian and now used in 80 countries around the 
world by governments, banks, corporations, airlines, and retailers. I 
am currently finishing a technology called Trusona (www.trusona.com) 
which does away with passwords and has become the only insured 
verification technology in the world insured by an A+ insurance 
company. We were able to obtain this insurance because we allowed the 
insurance company to spend over a year testing the technology in 
various labs around the world to see if it could be defeated before 
allowing it to be insured. Even in the paper/print side, more than 10 
years ago I designed a high security check for a California security 
printer known today as the Supercheck (www.safechecks.com). Today, that 
check is used by thousands of corporations, state and city governments 
and has never been counterfeited, altered or forged.
    I work with technology companies because they can't think like a 
criminal. Though I can't write code, I can play ``chess'' with them 
until I've taken away every possibility of defeating the technology. I 
know this can be done, having done it, so I believe all companies 
should be responsible for taking the necessary steps to insure their 
technology works instead of rushing to market just to make a buck at 
the consumer's risk.

    Question 2. As you may or may not know, I introduced legislation 
with Senator Blumenthal last Congress--S. 177, the Data Security and 
Breach Notification Act of 2015--that would require companies holding 
large amounts of personal information to take reasonable security 
measures and would establish a uniform Federal standard for breach 
notification. In concept, what are your thoughts, if any, on this type 
of Federal solution?
    Answer. I would be absolutely 100 percent behind this bill. Again, 
there is no reason that companies cannot take the time and expense to 
educate their employees about the most important job they have. That is 
protecting the private and sensitive information they have that has 
been entrusted to them by their customers and clients. This means 
training everyone from the custodian to the CEO. Over the last 40 
years, I've had the opportunity to make presentations to many Fortune 
500 Companies who understand that education is the most powerful tool 
to fight fraud and cybercrimes. If I company or institution is not 
willing to put the interest and protection of their clients and 
customers first, then they should be held responsible. I support this 
bill.
    As a way of example, the Federal Government could do a much better 
job of protecting the taxpayers' money and information. I always 
believe that the government should take the lead and the rest of the 
country will follow.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                         Frank W. Abagnale, Jr.
    Question. The FTC's ``Every Community Initiative'' recognizes that 
fraud affects every community, and creates consumer education materials 
for vulnerable and often targeted communities, including older adults, 
military families, immigrants, and members of the Latino community.
    Would it be fair to say that if our efforts to educate consumers 
and small businesses about scams were reduced or discontinued, the 
American economy would suffer even more financial loss as a result of 
scams?
    Answer. Yes, it would and already has. As I mentioned in my 
testimony, in the last 1970s I was featured in a number of public 
service ads sponsored by the DOJ that were sent out to law enforcement 
agencies on tips for protecting consumers on subjects like protecting 
their check book, their credit cards, and personal assets. I donated my 
time to this project as I knew how important it was. Those PSAs ran for 
a number of years and were very effective.
    In the mid-1980s I allowed by intellectual property to be used by a 
large bank financial printer for bank statement stuffers with tips for 
consumers. Hundreds of banks sent these statement stuffers to hundreds 
of thousands of individuals as just a public service message from their 
bank. In both of those projects, I was not known by very many people 
but they were still very effective.
    I strongly believe that the government, through agencies like the 
FTC, should begin a public awareness program about consumer crimes and 
safety in the cyber world. As in the past, I will always be willing to 
provide my services and intellectual property to a government 
initiative like this at absolutely no cost or travel expenses to 
accomplish this. Whether the government choses me as their spokesman or 
not, I absolutely stand behind the initiative to create consumer 
educational materials targeted to communities, older adults, military 
families, immigrants and members of the Latino community.
    I'd like to make one final point. In the last couple of years, I 
have actually donated my time and travel to film some public service 
ads for the DOJ National Advocacy Center (NAC), as well as the 
Association of State Attorneys General. Unfortunately, there was no 
money put behind these ads, they were poorly filmed and produced and 
consequently, ended up being shown only on government websites. If the 
government decides to create a campaign for public awareness, they must 
put the money behind it so it is professionally done so that network 
and cable TV will show it.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Mike Schwanke
    Question. The FTC's ``Every Community Initiative'' recognizes that 
fraud affects every community, and creates consumer education materials 
for vulnerable and often targeted communities, including older adults, 
military families, immigrants, and members of the Latino community.
    Would it be fair to say that if our efforts to educate consumers 
and small businesses about scams were reduced or discontinued, the 
American economy would suffer even more financial loss as a result of 
scams?
    Answer. My name is Michael Schwanke with KWCH TV in Wichita, 
Kansas. In my 17 years as a journalist and investigative reporter I 
have focused much of time on helping victims of scams and educating the 
public so they don't fall victim.
    To answer your question, I believe that education is the best 
weapon we have to prevent scams. Enforcement is often impossible as the 
scammers change tactics daily and operate from other countries.
    As I stated in my testimony, the education has to be consistent. We 
have seen viewers fall for scams even after they'd been warned.
    I personally have seen seniors wire away their entire life savings 
to scammers. Everyone, including the Federal Government, has a role in 
preventing the next person from falling victim.
    I appreciate the opportunity to share my experience.

                                  [all]
                                  
                                  
                                  
                                  
</pre></body></html>
